<html>
<title> - FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION

                                ________

SUBCOMMITTEE ON FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS

                    SONNY CALLAHAN, Alabama, Chairman

JOHN EDWARD PORTER, Illinois         NANCY PELOSI, California
FRANK R. WOLF, Virginia              SIDNEY R. YATES, Illinois
RON PACKARD, California              NITA M. LOWEY, New York
JOE KNOLLENBERG, Michigan            THOMAS M. FOGLIETTA, Pennsylvania
MICHAEL P. FORBES, New York          ESTEBAN EDWARD TORRES, California
JACK KINGSTON, Georgia               
RODNEY P. FRELINGHUYSEN, New Jersey  

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Charles Flickner, William B. Inglee, and John Shank, Staff Assistants,
                     Lori Maes, Administrative Aide
                                ________

                                 PART 4

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

42-188 O                    WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









       FOREIGN OPERATIONS, EXPORT FINANCING AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 1998

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                          Thursday, April 24, 1997.

                     FORMER PEACE CORPS VOLUNTEERS

                               WITNESSES

HON. SAM FARR, U.S. REPRESENTATIVE FROM THE STATE OF CALIFORNIA
HON. TONY HALL, U.S. REPRESENTATIVE FROM THE STATE OF OHIO
HON. THOMAS PETRI, U.S. REPRESENTATIVE FROM THE STATE OF WISCONSIN

                    Mr. Callahan's Opening Statement

    Mr. Callahan.  The committee will come to order. We 
apologize for being so tardy. I'm certain that some of the 
staff have informed you of where we have been. So, with that 
we're going to spare you any opening statement by me or any of 
the Members of the subcommittee. We're going to start off, I 
guess, we're still in this order.
    Congressman Sam Farr is here I see. All right. Go ahead, 
sir.
    Mr. Farr.  Well, thank you very much, Mr. Chairman. I'm Sam 
Farr from the Seventeenth Congressional District of California. 
I'm here in support of the Peace Corps for which the fiscal 
year 1998 budget request is $222 million.
    There are five of us who are Members of Congress who have 
served in the Peace Corps in different parts of the World; Thom 
Petri, Tony Hall, Chris Shays, Jim Walsh, and myself. As 
members who served in the Peace Corps, we watch it closely and 
recognize that the Peace Corps is really trying to do more with 
less. Recently, I had the privilege of presenting it with the 
Hammer Award, which is the award that Vice President Gore's 
National Performance Review gives to federal agencies that have 
effectively cut costs without cutting performance.
    The Peace Corps has cut back programs in countries that 
historically had a large volunteer presence. It is closing 
programs in 13 countries to accommodate other programs. Peace 
Corps recently sent its first group of volunteers to South 
Africa. And its first group leaves next week for Jordan.
    Due to budgetary restraints, the Peace Corps is unable to 
send volunteers to countries that have requested the Peace 
Corps, such as Georgia and Bangladesh. One of the things that I 
think Congress has a hard time understanding is that this is a 
program where the demand for volunteers far exceeds our ability 
to supply them. The demand by host countries constantly reminds 
us that one of the most successful international outreach 
programs we've ever had is the Peace Corps. It is our 
responsibility to ensure that the Peace Corps is capable of 
maintaining programs in those countries where they are wanted 
and where they are needed.
    Last year 133,000 Americans requested information about the 
Peace Corps. More than 10,000 Americans applied for the Peace 
Corps, but the agency can only accept 3,500. I mean it's 
becoming one of the most exclusive types of service in America 
by turning away thousands of qualified people.
    Imagine the number of nations and people that would benefit 
from a few more volunteers in a few more countries. In addition 
to what the Peace Corps has done for other countries, remember 
that volunteers come back from these countries speaking the 
language, understanding the culture and they share this 
knowledge with friends, family and neighbors. Through the 
experience of volunteers, we have an understanding of foreign 
politics, geography, and history. We have a remarkable resource 
in returned volunteers. So, we urge the Peace Corps to continue 
the Crisis Corps which makes use of this valuable resource.
    The Crisis Corps sends qualified and well-trained former 
Peace Corps volunteers who are familiar with local language and 
with the customs to a region to provide assistance during 
humanitarian crisis and natural disasters. Currently, we have 
such teams working in Liberia and Cote D'Ivoire.
    As a former volunteer I understand the appeal that the 
Peace Corps has. In fact, in my District, because people know 
that I've been in the Peace Corps as a volunteer, there isn't a 
day that doesn't go by where somebody will come up to me and 
say, what about the Peace Corps? Can you tell me something 
about it? My daughter or son is interested, or I'm interested 
or even my grandparents are interested because there is no age 
barrier for service.
    In order to meet the increased demand for Peace Corps 
volunteers, I ask that you fully fund the Peace Corps. It is a 
$222 million request. I think we must continue to support the 
work Peace Corps does for our nation. Frankly, I don't think 
there is anybody who has ever served in the Peace Corps who 
doesn't tell you that we get more out of it than we give 
because we come home with a knowledge of a country and a region 
of the world more complete than we could have ever imagined. 
And indeed, if Americans wish to be competitive in a global 
economy, this is the best way to train people for any cultural, 
political or professional situation.
    I now yield to my colleague, Tony Hall. If Tom Petri, Chris 
Shays, or Jim Walsh come in, they would also like to speak.
    [The statement of Mr. Farr follows:]


[Page 3--The official Committee record contains additional material here.]


    Mr. Callahan.  Okay. Thank you. Mr. Hall.
    Mr. Hall.  Thank you, Mr. Farr and Mr. Chairman.
    I'm here to testify for two things; for the Peace Corps and 
the overall budget. Did you want me to do both or did you want 
me to take the Peace Corps?
    Mr. Callahan.  Well, I guess we can go ahead and discuss 
the Peace Corps. Tony, I don't think you or the Senate have to 
worry about this committee's support of the Peace Corps. So, 
you can talk about the Peace Corps or you can talk about 
anything you want.
    The committee has been very supportive. We're going to try 
to do everything we can to assist Mark Gearan and his efforts. 
We can't promise you definitely the $222 million, but we can 
promise you that this committee is very, very supportive of the 
Peace Corps and are appreciative to those of you who have 
served your country in that capacity.
    Mr. Hall.  Well, thank you, Mr. Chairman.
    It was a great experience for me. I think Sam is right that 
we probably--those of us who are Peace Corps Members--probably 
got a lot more out of it than what we gave. I thought when I 
graduated from college that I was going to play professional 
football and drive fast cars.
    I ended up teaching English and riding bicycles through the 
jungles of Thailand. It was a wonderful program. I learned a 
lot and was very, very appreciative of what it did for me.
    If I could, I'd like to talk a little bit about the budget 
beyond the Peace Corps and just say that I'm very appreciative 
of your leadership on setting foreign assistance priorities 
and, that of the Members of the subcommittee.
    I think the decisions that we make here are really the 
difference--make the difference between life, death, hope, and 
despair. That's how important I think it is--this piece of 
legislation, the Foreign Affairs budget really is. I have a 
fairly long written statement on both the Peace Corps and this 
that I'd like to submit.
    Briefly, I'd like to preface my remarks by saying that 
while I was encouraged to find a small increase of about 6.6 
percent in the proposed budget for USAID, which comes to about 
$488 million, I was disappointed to find out that only $65 
million or less than 15 percent of the proposed $488 million 
USAID increase is actually allocated to development assistance.
    As I see it, the proposed $488 million increase requested 
for AID would be better invested in development assistance and 
programs like that. It is what the people in the country always 
ask us about. Why don't you do more development assistance?
    Since only about 15 percent of the requested USAID increase 
is allocated development assistance, I would hope that we could 
make that much larger. I also want to focus my remarks on some 
specific ways that I believe that we can improve the impact of 
child survival funds and on the status of microcredit programs.
    One important way I think is to program a larger share of 
child survival funds through our non-profit US PVOs. As it is 
now, of the $300 million that we allocate for child survival 
funds, less than $22 million or about 7 percent is really 
programmed through these organizations.
    Programs of PVOs like World Vision, Save the Children, 
Catholic Relief Services, and others, leverage private matching 
funds and are accountable to their own constituencies of 
supporters. So, I would urge us to direct at least $40 million 
in child survival funds be channeled through these PVOs.
    Second, I would urge that this subcommittee maintain its 
very strong support for the Displaced Children and Orphans Fund 
and consider a small increase in this fund to help meet the 
needs of the growing number of HIV-Aids orphans.
    Every place I go I always see--two things I always see 
immediately. I see a lot of orphans and I see a lot of 
handicapped people; people that have their legs blown off. When 
I was in Angola a couple of years ago at night time I went into 
a town and saw, I don't know 15 or 20 kids in an ally all 
orphans kind of laying on top of one another like puppies.
    I've seen that time and time again. I was in Rwanda last 
November and I saw a lot of displaced kids; kids that as a 
result of bombings and things like that got separated from 
their moms and dads. Their moms took off. They went to Zaire. 
There is a lot of confusion in those kinds of situations where 
there is civil war. We've followed this orphans' fund; how 
groups would take pictures of the orphans, and put them into 
market places and teach the orphans, and have people from the 
community work with them and try to get them to describe where 
they were from; especially the young ones who can't even 
remember their mom and dad, but they might know a name.
    They have these ladies work with them. And to follow one 
orphan who was separated from his mom and dad and his family 
for two years; and to follow him into the mountains and being 
really--to see that meeting between them was remarkable. This 
fund is a very small fund. I would ask this subcommittee 
consider increasing the Displaced Children Orphan's Fund from 
the present level of $10 million to $11 million in 1998 and $13 
million in 1999.
    Finally, I want to say a word about microcredit programs. I 
would urge that this subcommittee allocate $170 million for 
USAID's Micro Enterprise Programs in 1998, and specify that 
half this amount, $85 million, be programmed to institutions 
serving the very poor with loans less than $300.
    As it is now, we only have $120 million in there for 1998. 
These microcredit programs, you and I and many people have seen 
them work. I've seen a person in the Dominican Republic get $50 
to buy some tools to make shoes. Now, he exports to all of the 
Caribbean nations on $50. He's got something like 22 employees. 
These programs really, really work. Second, I'd like to ask the 
subcommittee to set aside $20 million for a special initiative 
for IFAD to support microcredit in very poor rural areas.
    This subcommittee has previously recognized IFAD as a small 
but effective agency which directly serves poor farmers. As the 
U.N. reform takes shape, we would do well to focus our 
investments in these high performance programs like Unicef and 
IFAD which are working well and enjoy popular support.
    Mr. Chairman, these are some specific ways in which I 
believe we can improve the quality and effectiveness of U.S. 
foreign policy, foreign aid programs in fighting hunger and 
poverty. There is so much more to talk about, but these are the 
kinds of things I wanted to focus in on today. I just thank you 
for the chance to be before you today.
    [The statement of Mr. Hall follows:]

[Pages 7 - 16--The official Committee record contains additional material here.]


    Mr. Callahan.  Let me just admit that I agree with you on 
99 percent of everything you've said; especially that part 
about the Child Survival Account.
    Mr. Farr.  Mr. Chairman, I also want to introduce Tom 
Petri. It is interesting, all of the former Peace Corps 
volunteers that are here today are now Members and served all 
over the world. Thom is our representative from Africa having 
served in Somalia.
    Mr. Petri.  Thank you. I have a statement that I will 
submit. It is very short, but I'll summarize it anyway because 
I know you have a fairly long day. You've already been at work 
in the full committee a good bit of the morning and lunch hour.
    My understanding is that one, if not the only part of the 
appropriation that you are considering that's not under any 
particular challenge is the Peace Corps. I think that's 
fitting. I am here to support their modest increase.
    The one thing I do want to underline is that the Peace 
Corps is supposed to be, and we were always drilled on it. We 
weren't the representatives of the American Government. We 
weren't really--representative of the American people to other 
people trying to start the development process and help them 
learn about the world we live in ourselves and bring that 
knowledge to the United States.
    As the Peace Corps has grown and matured and now there isan 
active Peace Corps Alumni organization, I do hope that you are 
sensitive to opportunities that encourage the development of some of 
the Peace Corps foundation or private support for individual missions 
or even the individual volunteers around the world.
    There are lots of opportunities for that. People are doing 
development projects and can get support from people in the 
United States for that. I think that's an extension of the 
Peace Corps volunteer that--going back and what we have been 
trying to develop.
    It is always hard to sell someone and give some money if 
the government is giving it, but at least for new projects or 
for supplementing what's being done or for going into some 
additional countries, the opportunity of looking for private 
support to augment what the government is doing is something 
that we ought to be trying to emphasize. Thank you.
    [The statement of Mr. Petri follows:]

[Pages 18 - 19--The official Committee record contains additional material here.]


    Mr. Callahan.  We will be glad to accept any written 
statement too that you would like to submit to the record.
    Mrs. Lowey.  Mr. Chairman, may I just make a comment?
    Mr. Callahan.  Well----
    Mrs. Lowey.  Less than ten seconds.
    Mr. Callahan.  A ten second comment.
    Mrs. Lowey.  First of all, I want to join you in welcoming 
and thanking our distinguished witnesses here. It occurs to me 
as they testified and in looking at this list that our country 
is twice blessed by them. In one way by their service in the 
Peace Corps and then that service assisting us in the Congress. 
Thank you for now returning to support other future Peace Corps 
volunteers.
    Mr. Callahan.  See, I had already said that.
    Mrs. Lowey.  Well. That's usual. You're my leader.
    Mr. Callahan.  Thank you very much.
    How about Jim Walsh. Did he ever get here? Tony Hall, 
you're on here twice. Did you just want to speak once?
    Mr. Hall.  I spoke on the agenda.
    Mr. Callahan.  Chris Shays, is he not here yet?
    [No response.]
    Mr. Callahan.  Maxine Waters is not here yet?
    [No response.]
    Mr. Callahan.  We have many distinguished guests here 
today. Claudine Schneider has a meeting and a plane she has to 
catch. So, with your indulgence, Claudine, if you will keep 
your remarks brief, we will welcome our former colleague.

                              ----------                              

                                          Thursday, April 24, 1997.

         U.S. COMMITTEE FOR UNITED NATIONS DEVELOPMENT PROGRAM

                                WITNESS

CLAUDINE SCHNEIDER

    Ms. Schneider.  Thank you very kindly, Mr. Chairman. I 
really appreciate your remarks. I can be short and sweet.
    I am sorry we haven't formally met as yet. I'm Claudine 
Schneider. I served in the U.S. Congress for ten years as a 
Republican representing Rhode Island. Today, I am here on 
behalf of the United Nations Development Program, but also as a 
citizen who has been in the business world and having had the 
opportunity to do some substantial global traveling.
    I am very concerned about where the United States stands is 
today in the whole global picture. I'd like to share with you 
why UNDP is uniquely positioned to serve not only the world's 
poor, but also American interests. Quite frankly, you don't 
find too many government agencies that are serving the poor, 
and at the same time, serving American interests.
    So, UNDP does this in a way that no other organization is 
doing. That's what makes it unique. I believe that an agreement 
agreeing to the President's request level of $100 million for 
UNDP, will not only help the poorest of the poor throughout the 
world, but will also translate into real returns to the United 
States in so far as investment and trade is concerned.
    A contribution of $100 million to the UNDP from the U.S. 
represents less than 10 percent of the entire UNDP total 
budget. And what's interesting, when you do the cost benefit 
analysis, for that $100 million that we could be spending for 
UNDP, the return on investment we get is $200 million. I would 
like to commend to the Members of the subcommittee the GAO 
report which I think does do an excellent cost benefit analysis 
of why this is the best investment for our dollar.
    In addition to that, and as you know UNDP is an independent 
agency of the United Nations. And it has always been headed by 
an American. Traditionally, the United States has been the 
largest donor supporting the UNDP. Unfortunately we have now 
slipped to seventh place.
    My logical question is, how long can we maintain that 
position of control in leadership if we are now only the 
seventh contributor in this process? Why is that important? 
Because the unique role that the UNDP plays is to coordinate 
all of the other U.N. agencies.
    Without this type of coordination and overseeing any 
duplication, waste and abuse that might be taking place, we are 
losing a very important function that UNDP alone provides. 
Also, in terms of helping the poorest of the poor, the form of 
the contribution of UNDP is unique.
    UNDP is leading the effort to eradicate poverty, and 90 
percent of their resources go to countries with a per capital 
income of less than $750 a year. UNDP's role at the country 
level is to design and also to implement the nationalstrategies 
and incorporate a number of different activities. I'm particularly 
enthusiastic about the fact that UNDP representative serves as the 
Resident Coordinator helping to take a very multi sectoral approach. 
The U.N. resident coordinator also works tirelessly to bring all of the 
U.N. funds, programs, and the special agencies together thereby 
eliminating duplication and waste.
    So, this organizational functional role I think is 
critical. Secondly, the vast majority of the developing 
countries, including the countries of the former Soviet Union, 
have embraced democratic institutions and free market 
approaches. One of UNDP's function is to provide technical 
assistance to developing countries to hold fair and free 
elections.
    UNDP also keeps establishing the infrastructure of the 
Executive, Legislative, also the Judicial, as well as numerous 
direct foreign investment institutions which obviously is 
important to U.S. business interests. Just to give you an 
example, in Viet Nam, the UNDP is strengthening the National 
Assembly and the Supreme Court in order to make them more 
effective in supporting economic reform processes.
    By doing this, UNDP is streamlining what's an often bloated 
bureaucracy in many of these developing countries. So, let me 
just conclude by saying that UNDP's role in setting up the 
infrastructure for democratization, promoting free market 
economies and supporting the advancement of good governments 
serves American values and our interests abroad.
    I refer to the GAO report. Your poor staff will have to 
read this whole report. The single most important sentence says 
that the UNDP is a cost effective tool in our development 
arsenal. Full funding of UNDP by the United States is the best 
way of stretching our development dollar to promote U.S. 
interest.
    So, the $100 million that is being requested, don't forget 
provides us with a $200 million return on the investment. 
Secondly, the coordinating role that they have that no other 
U.N. agency has is critical. The fact that their emphasis is on 
not only helping the poorest of the poor, but they're helping 
to build the infrastructure that will help people help 
themselves. I think that is critical.
    My colleagues may not know that I'm now living out in 
Colorado. Although I am no longer a Member of Congress, my 
activities as a business woman require me to interact with the 
community a great deal. I will tell you that if I were to take 
a poll right now in this room and ask how many of you support 
the concept of Americans sharing our abundance with people who 
need the assistance, overwhelmingly, I'm sure, I'd see the 
hands go up.
    So, the American people want us to share our abundance. 
However, we want to make certain that we are not wasting those 
monies and avoiding duplication. The UNDP has that role. It has 
the function to monitor and to oversee this process. And I 
think it's absolutely critical.
    The other thing that the American people are very sensitive 
to is crisis management. Sure, when people are starving in 
Ethiopia we see it on television. Americans say, let's send in 
the aid. But the function of UNDP is to build the 
infrastructure so that we can help people help themselves and 
return to what I believe is our Biblical and ethical mandate of 
helping people help themselves.
    Foreign assistance of all types had been referred to as our 
international welfare system. Well, I've hated the way the 
welfare system domestically has been for years. Certainly, when 
you look at where you get the most effective expenditure of my 
tax dollars and your tax dollars, there is no question that 
it's in the UNDP.
    [The statement of Ms. Schneider follows:]

[Pages 23 - 29--The official Committee record contains additional material here.]


    Mr. Callahan.  Well, then we appreciate that. I'm glad to 
see you doing so well. As you know we don't earmark anything in 
our committee. Sometimes the Senate overrules us. Nevertheless, 
we appreciate your testimony today. As I said, it is good to 
see you looking so well.
    Ms. Schneider.  There is life after Congress. So, are there 
any questions?
    Mr. Packard.  My only question would be, do you see a 
duplication between your agency and UNICEF? Is that duplication 
needed?
    Ms. Schneider.  Well granted, UNDP is not my agency. I'm 
just testifying as a supporter and have been observing their 
work. But, no, I do not see UNDP at all duplicating the efforts 
of other agencies because UNDP's primary role is to coordinate 
the United Nations agencies.
    One other little piece of information that I don't know if 
the Members are aware of is that the Secretary General of the 
U.N. is in the process of reorganizing the U.N. He is choosing 
four people to be a part of that reorganization process. He is 
not choosing the people per se. He is choosing those agencies 
or positions.
    The UNDP Administrator who at this point happens to be an 
American, is one of those people that's going to be sitting 
around the table figuring out the direction of the United 
Nations. So this is important in terms of leveraging our 
influence of how the UNIFM monies are being spent, UNICEF 
monies are being spent, and all of the other agencies are 
spending their income.
    I think that friends for UNDP are not crisis management 
monies. These are preventive monies. They're building the 
infrastructure, putting more emphasis on training and this is 
all in-country work.
    Mr. Callahan.  Thank you very much.
    Ms. Schneider.  All right. Thank you very kindly.
    Mr. Callahan.  Congressman Walsh. Go ahead, Jim.

                              ----------                              

                                          Thursday, April 24, 1997.

                     FORMER PEACE CORPS VOLUNTEERS

                                WITNESS

HON. JIM WALSH, U.S. REPRESENTATIVE FROM THE STATE OF NEW YORK

    Mr. Walsh.  Thank you, Mr. Chairman and Members of the 
subcommittee. Thank you for allowing me to come in and speak to 
you today about some very important priorities that you have to 
pass judgment on. I really thank you for the courtesy of 
allowing me to testify today. I don't envy the tough decisions 
that you have.
    There are three items that I'd like to talk about if I may 
and I'll be as brief as I possibly can. Whenever someone comes 
before a committee and says I'm going to be brief, I always 
wonder a little bit, but I really will try to be. First, I'd 
like to commend the Chairman, Mr. Callahan, for really taking 
on as his own this legislation to provide funding for child 
survival.
    I think you've done a terrific job, Chairman Callahan, and 
really made it a priority of this subcommittee, and the 
subcommittee has supported you in a bipartisan effort. And it 
is important work and it's effective and it is saving lives. 
And I don't think there is any stronger endorsement for any 
foreign aid that we provide than that.
    I believe there is strong bipartisan support for that 
position in the Congress for keeping specific protection for 
child survival, for UNICEF, for basic education, vitamin A and 
micronutrient programs and other key health programs in the 
James P. Grant World Summit for Children Implementation Act.
    This as you know has good strong support in the Congress. 
The reason it does is because it calls for devoting targeted 
funds to go after some of these critical child survival issues. 
These programs are proven. They're low cost and they are saving 
lives.
    New to the World Summit for Children Implementation Act 
this year is a special emphasis on tuberculosis control. This 
disease, tuberculosis, is far and away the most catastrophic 
infectious killer in the world today. It kills more people than 
AIDS, cholera, tetanus, typhoid, meningitis, and malaria 
combined.
    I have a personal experience. When I was in the Peace 
Corps, I contracted tuberculosis and it's treatable. They gave 
me about a bag of pills about this big and all I had to do was 
take four a day for two years and I was okay. But not everybody 
has that kind of treatment. So, this will target that disease 
and provide medication and hopefully prevent individuals from 
getting this terribly deadly disease.
    A couple of words about microcredit which is a very cost 
effective program that helps families escape from poverty each 
year. Microcredit provides families with small loans which are 
paid back. They enable poor families to become self-sufficient. 
So they can provide for their basic health and education. I'm 
concerned that micro enterprise funding has declined in recent 
years.
    I'd like to work with you to see what can be done to expand 
micro enterprise funding and make sure that the dollars are 
dedicated to this account. Another priority certainly for me as 
Chairman of the Friends of Ireland, still designated by the 
Speaker, is to continue funding the International Fund for 
Ireland.
    There is no question that there have been setbacks recently 
in the peace process in Ireland, exacerbated by intransigents 
on one side and malevolent violence on the other. But we have 
to, I think keep our wedge in there. The Americans have always 
been the honest broker. This does put people to work.
    It targets the funds where it's most needed, providing jobs 
to people who otherwise will have no opportunity. There is 
prejudice. There is bias in Northern Ireland. These funds go to 
help to abate that problem. Hopefully, optimistically we will 
get these funds in Northern Ireland to promote justice too. I 
think that's of critical importance.
    Lastly, I'd like to express my support for Peace Corps. I 
think it's really neat that all of the return Peace Corps 
volunteers, Members of Congress have been here today to talk 
about this. This may be a first. We are everywhere.
    In every aspect of society you will find return Peace Corps 
volunteers doing good work. I am number two on the Agriculture 
Subcommittee on Appropriations for the Appropriation Committee. 
I grew up in the city. I cut the grass. That was the extent of 
my agriculture experience.
    I hope the rest of the world doesn't worry too much about 
people like me making agriculture decisions, but it taught me 
about agriculture. It taught me about the most important 
industry in the world. If they can make a city kid an 
agriculture guy, they can do anything with anybody.
    Peace Corps is money well spent. It supports our image 
throughout the world. It's a good thing that America does 
provide the funding that's been requested, $222 million. It's a 
big chunk of money, but when you consider that it covers the 
whole world and we're expanding it into areas in Eastern 
Europe. It's money well spent.
    So, let me just join my colleagues in asking you to give 
that important consideration. Remember, it's an investment in 
America's future too. Peace Corps does a lot of good things 
around the world. Those folks come back here and ideally they 
do good things here too. So, thank you very much for your 
indulgence. I wish you well in your decisions.
    [The statement of Mr. Walsh follows:]

[Pages 33 - 35--The official Committee record contains additional material here.]


    Mr. Callahan.  We appreciate it. I didn't hear anything 
that sounded like you weren't going to be pleased with our 
mark-up.
    Mr. Walsh.  Thank you, Mr. Chairman. I will never say----
    Mr. Callahan.  I might tell you that I still cut my own 
grass.
    Mr. Walsh.  I do too.
    Mr. Callahan. Did you see the attempt to take money out of 
Ireland this morning? Frank, did you see that?
    Mr. Walsh.  Pardon me?
    Mr. Callahan. That was Congressman Neumann who tried to 
take your Irish money away from you this morning in the 
Supplemental Appropriations markup.
    Mr. Walsh.  Well, we gained an opportunity to save a little 
money on the CRP Program. Thank you, Mr. Chairman.
    Mr. Callahan.  Congressman Pallone.

                              ----------                              

                                          Thursday, April 24, 1997.

                      FOREIGN ASSISTANCE PROGRAMS

                                WITNESS

HON. FRANK PALLONE, JR., U.S. REPRESENTATIVE FROM THE STATE OF NEW 
    JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, Congresswoman Pelosi, 
and my colleague from New Jersey, Mr. Frelinghuysen. I 
appreciate the opportunity to talk to you today. I'm just going 
to summarize my testimony.
    I wanted to talk a little bit about the AID Program, about 
Armenia, about India, and then I'll be quiet and see if you 
have any questions. Mr. Chairman, I wanted to say that I 
understand that the Administration has proposed funding levels 
for USAID managed programs that represent an increase of $488 
million over previous appropriated levels.
    I just wanted to indicate strong support for that because 
of my experience looking at various USAID programs. I think in 
general they are good programs. They're involved in a lot of 
emerging nations in terms of encouraging market reforms in 
democracy. I had the opportunity this year to go to both India 
and Armenia. I spent time looking at some of the USAID programs 
there.
    They really are making a difference in terms of the lives 
of people in those countries and throughout the world. If I 
could talk a little bit about Armenia. I wanted to say that on 
my trip to Armenia and also to Nagorno-Karabagh earlier this 
year, I was really seriously concerned about the economy.
    In Armenia the majority of the industry has essentially 
collapsed and is not functioning since Armenia separated from 
the Soviet Union. That's why I feel very strongly that there is 
a need for an earmark of $105 million for Armenia. I know last 
year it was $95 million. Essentially, I'd like to see an 
increase of at least $10 million over that.
    I was very concerned about the fact that the Administration 
has essentially proposed a cut of $15 million from $95 million 
to $80 million, and at the same time is increasing Azerbaijan 
which blockades Armenia by the same amount, by $15 million. I 
think it's wrong.
    I think that Armenia's needs are great. The blockade 
continues both by Azerbaijan and Turkey. So, Armenia is 
basically being strangled. Its economy is not improving the way 
it should because of the continued blockade. In particular, if 
I could make a request, Mr. Chairman, and Members of the 
subcommittee for assistance, humanitarian assistance for 
Karabagh.
    Karabagh, as you know, was the country that was involved in 
conflict with Azerbaijan. There has been a cease fire now for a 
number of years. But you now have, and I do support, continued 
prohibition on direct assistance to Azerbaijan because of the 
blockade. But there is indirect assistance going to Azerbaijan; 
about $100 million through the NGO, the non-governmental 
organizations.
    Yet, no money goes through NGOs to Nagorno-Karabagh. So, 
what I'm asking is that in the same way that Azerbaijan 
getsindirect assistance through NGOs, that Nagorno-Karabagh be able to 
get the same kind of assistance because the need there is just as 
great, if not greater.
    I was there as well. I talked to the Red Cross. I talked to 
some organizations that are in place there working with people 
that need relief because of the war and because of the 
conflict. They're not getting any assistance. So, I would urge 
the Committee to consider that indirect humanitarian assistance 
to Karabagh, just like you do to Azerbaijan.
    I indicated support to continue Section 907 of the Freedom 
of Support Act. I think it is important not to provide direct 
assistance to Azerbaijan because of the continued blockade. 
This blockade continues to make it virtually impossible for the 
Armenian economy to recover the way it should.
    Also, you have in the past included this Humanitarian Aid, 
Corridor Act, in your subcommittee bill. I would urge again 
that, that language be included. The President, again, has 
waived it. In other words, in the last week or so he came in 
and said that we should continue to provide aid to Turkey even 
though they continue to not allow assistance to go through 
Turkey into Armenia.
    I would like to see this subcommittee, if possible, 
eliminate that waiver or at least more strictly limit it 
because I just don't think it's fair, that if a country that 
receives a lot of U.S. assistance, they should be under an 
obligation to allow humanitarian assistance to go through their 
borders to another country. It just seems to be a general 
principle that we should apply to every country that receives 
American assistance.
    And every year the President uses that waiver to get out of 
this so to speak. So, it's almost become meaningless because of 
the fact that he continues to exercise the waiver. The House 
overwhelmingly supported eliminating the waiver last year. If 
we could have the subcommittee either eliminate it or more 
strictly limit it, I would appreciate that.
    Finally, with regard to Armenia, if we could get some 
language expressing support for an East-West Caucasus Pipeline 
from Baku through Armenia to the Mediterranean. Oil is now or 
will be soon exploited. I'm looking for ways to try to get the 
Caucasus together; to get Armenia and Azerbaijan together.
    I think if we gave the impetus and said that we'd like to 
see the pipeline go through all of those countries and into 
Turkey perhaps, then that would create an impetus for the 
countries to get together and work together better, if you 
could consider that.
    Just in general with regard to the former Soviet Union. I 
continue to support what the subcommittee has done in terms of 
enlarging--I know you have language in the bill enlarging or 
facilitating the enlarging of the NATO Alliance.
    I would urge you to continue with that. I continue to 
support the Support for East European Democracy, the SEED 
program, the Freedom of Support Act. I know that those programs 
need funding. You have been supportive of giving them funding 
in the past. I'd like that to continue.
    Let me just say something, if I could, about the Ukraine 
also. The President, I understand, has requested $225 million 
earmarked for the Ukraine. Again, I think that should be 
supported because, again, the Ukraine has made a lot of 
progress, both in terms of democracy and market reforms. That 
money will help.
    You know I think that--I am the Chairman along with Mr. 
McCollum of the India Caucus, and every year in the past you've 
had the situation where there has been an effort to get this 
subcommittee and the Full House on the Floor to cut back on 
development assistance to India.
    I don't know if that request is going to be made again. I 
assume it will be. I think it's very much a mistake. I was in 
India in February. I want to tell you, if there is any place 
where USAID programs are successful in terms of moving towards 
a market economy it's India.
    They have the FIRE, the Financial Institution Reform 
programs. They're involved in creating credit markets in India, 
improving the stock market in India; all of these things that 
USAID does to basically bring India to more of a capitalist 
economy and a better trading partner with us. A lot of these 
assistance programs that are proposed to be cut are directly 
involved in that.
    I think the reason why you get this proposal every year to 
cut assistance to India is primarily because the situation in 
Punjab. You know, it's stated that India violates human rights 
in Punjab and doesn't allow Punjab to be a separate country. I 
went to Punjab. I met with the Chief Minister who had just been 
elected.
    He is a Sikh. The Sikhs and the Hindus are getting together 
under this new coalition in ways that had never happened 
before. I mean there is no separatist movement anymore in 
Punjab. The Hindus and the Sikhs are in the coalition 
government working together.
    So, if any suggestion comes again this year that somehow we 
should be cutting humanitarian assistance to India, it makes no 
sense because the situation in Punjab is as stable as it has 
ever been. The humanitarian assistance is for programs that 
help people.
    So, why should we punish the people who are getting help in 
these humanitarian programs of this USAID Program because we 
want to punish the government of India? I mean it doesn'tmake 
any sense to me. I also think the whole basis for it is no longer 
accurate, particularly because of the situation in Punjab.
    The last thing I just wanted to say is, again, I know the 
subcommittee will continue to support the spending level of 
both military and economic assistance for Israel. Obviously 
that's crucial. I just wanted to mention that as well.
    [The statement of Mr. Pallone follows:]

[Pages 40 - 45--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you for your testimony. It will be put 
in the record. Mr. Bryan Hehir.

                              ----------                              

                                          Thursday, April 24, 1997.

                      U.S. CATHOLIC RELIEF SERVICE

                                WITNESS

REVEREND J. BRYAN HEHIR

    Fr. Hehir.  Thank you, Mr. Chairman. My name is Father J. 
Bryan Hehir. I am here today representing the U.S. Catholic 
Conference and Catholic Relief Services. I'm accompanied by 
Barbara Conan from the U.S. Catholic Conference. I ask that the 
full testimony be submitted for the record, Mr. Chairman.
    Mr. Callahan.  Thank you.
    Fr. Hehir.  Thank you very much for the opportunity to 
testify. Your time is short. I have three paragraphs and they 
are less than five minutes. So, that may help.
    Essentially, I would say a word about foreign aid and 
foreign policy; secondly about foreign aid as a dimension of 
development policy, and then to simply highlight some line 
items.
    Indeed the committee's concern obviously is mainly with 
line items. But essentially we wanted to use the short time 
before us to say just a word about the larger picture of 
foreign aid.
    I suspect you hear a lot about foreign aid in terms of a 
50-year perspective now with the Marshal Plan background. It 
does seem to us that what this committee represents and what 
the Congress faces are choices that are not unlike the choices 
of 50 years ago. There are different kinds of choices, but the 
same kind of urgency.
    The difference between now and 50 years ago, it seems to 
me, is that the nature of the cold war made foreign aid an 
imperative element of U.S. foreign policy. No one doubted that 
you had to have a foreign aid program as a part of the wider 
Cold War struggle.
    With the collapse of the Cold War, we are now in a very 
different place. We have moved from a unified world system 
where foreign aid is a part of a large global struggle to a 
situation where there are large parts of the world today where 
no one can threaten us, and no one can demand our attention. No 
one can require that we pay attention to them in terms of 
resources, time, and talent.
    That's not true for the big countries, the big powers, the 
OECD countries. They're going to get our attention. But our 
submission is that after we address the Great Power politics 
and after we address the OECD politics, about two-thirds of the 
world is not included in those circles of policy.
    What this committee deals with, the foreign policy and 
foreign aid dimension, is really about sustained attention to 
the two-thirds of the world that no longer can require that we 
pay attention to them. Therefore the nature of the committee's 
work is about one of the most essential elements of the future 
of the American role in the world.
    Will we pay attention to those who can no longer either 
threaten us or demand us to pay attention? That means, I 
submit, that while the moral dimension has always been a part 
of foreign policy, it is more heavily a part of foreign policy 
today. If there isn't an abiding moral concern on this 
question, I believe there will not be a long-term foreign aid 
program. I think therefore, it is a question that really 
touches the very soul of how we see the world and our place in 
it.
    You have, for better or worse, one of the most difficult 
tasks in the Congress because I don't think anybody is going to 
force us to sustain a global vision anymore. We're going to 
address global issues by choice or we're not going to respond 
to them.
    Secondly, if you look at what the committee is concerned 
with, foreign aid and its numbers, what we tried to do in the 
testimony is to say that foreign aid is a part of a larger 
development picture that involves human rights, debt relief, 
bilateral and multilateral foreign assistance, and also support 
for the U.N. and international organizations. The case for this 
kind of policy is spelled out in detail in the testimony.
    Finally, our concern on specific items; we tried to pick 
out specific items that represent what we think is the test of 
a moral vision. On both bilateral and multilateral assistance, 
we urge the committee to support the Administration's request 
as it has been proposed.
    On multilateral assistance, the Bishop's Conference and 
CRS, for a long time, have supported IDA because we think 
itrepresents a kind of corporate commitment by the international 
community to the poorest people in the world.
    We ask you to fund IDA 10 and 11 at its full amount. A part 
of the Bishop's Conference work with Catholic Relief Services 
also engages work with migration and refugee assistance. We 
urge the $700 million for refugee assistance.
    Then finally, we are in support of the United Nations; 
particularly to fund UNDP at $100 million to support IFAD which 
one of the other Congressmen has asked about. We have other 
parts of the testimony, Mr. Chairman, but I do not want to take 
your time.
    I think in the end it is the fundamental moral choice that 
is the long term question we're deeply concerned about. 
Therefore, I suspect we will be back again because this 
question, I think, won't go away in the post-Cold War world. 
Thank you very much.
    [The statement of Fr. Hehir follows:]

[Pages 48 - 77--The official Committee record contains additional material here.]


    Mr. Callahan.  Well, certainly yours was most eloquently 
presented. I've heard the same identical speech from Madeleine 
Albright and Bill Clinton.
    Mr. Hehir.  Well, Madeleine Albright and I used to teach 
together. And George has sat on a lot of committees together, 
but I've never sat on any committees with Mr. Clinton.
    Mr. Callahan.  Well, thank you for all of the efforts of 
your organization, the Catholic Relief Services, not only 
internationally, but nationally as well. We thank you very much 
for your testimony.
    Mr. Hehir.  Thank you very much. I thank the committee.
    Mr. Callahan.  Mr. Zoghby.

                              ----------                              

                                          Thursday, April 24, 1997.

                NATIONAL ALLIANCE OF LEBANESE AMERICANS

                                WITNESS

GEORGE M. ZOGHBY, PRESIDENT

    Mr. Zoghby.  May it please the committee, my name is George 
Zoghby. I am President of the Mobile Chapter of the National 
Alliance of Lebanese Americans also known as NALA. I wish to 
thank the committee for taking time to hear this its request 
and give its testimony today.
    Although my minutes may be few, my words to speak many for 
the citizens of Lebanon in the United States. Because of the 
political and economic strangle hold from the surrounding 
influences and neighboring countries, NALA recommends to the 
committee that the United States Government sustain and expand 
its aid to Lebanon.
    Lebanon is the key to the American interests in the Middle 
East and a strong American presence is definitely needed. 
Therefore, NALA recommends the following to be addressed in the 
Foreign Operations budget. First, the Lebanese's own forces; 
second the Lebanese educational institutions; the 
infrastructure repairs; and fourth, the humanitarian relief.
    NALA does ask that the needed assistance be provided 
directly to the Lebanese people. Without entrusting the needed 
funds to the suspect occupational government itself. Regarding 
the Lebanese armed forces, the military remains the most 
respected national institution among the Lebanese people.
    The Lebanese officers of the armed forces are a part of the 
traditional beneficiary component of the IMET Program. NALA 
strongly recommends that the United States continue to 
participate in its aid of the IMET Program. If and when 
Lebanon's independence reemerges, a strong national army will 
definitely be a requisite.
    Schooled in the American ideology of respect for civilian 
authority and a democratic process. Under the IMET Program the 
Lebanese officers are trained here in the United States and 
take the knowledge back to Lebanon.
    In addition to the IMET funding itself, NALA requests 
certain non-lethal equipment be provided, such as speed patrol 
boats to patrol the Mediterranean coast and drug smuggling. 
Also, we request twin engine utility helicopters and army 
personnel carriers, M113A2s.
    Regarding the educational institutions, there is no better 
way to show the United States support for Lebanon than by 
investing in its American based institutions of higher 
learning; for example, the American University of Beirut and 
the Lebanese American University.
    These universities teach the students the western liberal 
arts. They teach them tolerance and dialogue and the American 
tradition as an alternative to extremism and confrontation. 
These universities also teach generations of Lebanese leaders 
to think openly, think democratically, and in a tolerant 
fashion.
    In addition, the American University in Beirut is one of 
the finest medical facilities in Lebanon. Congress has 
steadfastly supported this in the past. We ask that they 
continue. The current events in Lebanon underscore the need for 
a continuing commitment from the United States to promote 
Western education.
    Regarding the infrastructure repair. Lebanon is on its way 
toward rebuilding the elements of its infrastructure with 
electrical generating plants, with water purification plants, 
telephone and other communications, and transportation 
facilities.
    NALA recommends that the Congress appropriate the funds 
which were committed by this Administration within the context 
of the parens of Lebanon Conference. Supposedly this commitment 
is reflected in the allocation for Lebanon in the Economic 
Support Fund section of the Bilateral Economic Assistance 
Section of the Administration's request. NALA supports the 
Administration's request.
    Regarding humanitarian relief. Last but not least, NALA 
makes an urgent request that appropriations be made for 
humanitarian relief. Consideration specifically should be 
directed towards the International Red Cross who has missions 
in the war-ravaged Lebanon.
    Also, the Catholic Near East Welfare Association opened and 
operated, through the Offices of John O'Connor of New York, to 
receive and disburse these aids. This association through the 
pontifical mission in Lebanon is performing immeasurable work 
in the areas of medical supplies and in housing reconstruction 
for the new class of people living in poverty in Lebanon.
    If the United States does not provide this aid its enemies 
will. In looking at the aid as it relates in a regional 
context, the United States must recognize that we are engaged 
in economic and ideological struggles in the Middle East. The 
United States is being contested for supremacy in Lebanon and 
in the region by certain neighboring forces.
    If the United States fails in its mission, all of our 
friends in the region will be in jeopardy, and the strategic 
American interests could be adversely affected. Members of 
Lebanon is the linchpin to this struggle.
    In conclusion, again, I just want to stress that the areas 
that NALA recommends are the Lebanese armed forces, the 
Lebanese educational institutions, the infrastructure repair, 
and humanitarian relief. These areas were not randomly 
selected.
    NALA recommends that the committee address each of these 
areas in order for the United States to become engaged in 
Lebanon and the critical struggle now taking place. NALA 
recommends the adoption of its program for Lebanon and for the 
United States.
    NALA thinks it is the right thing to do. Please help us in 
our struggle to win this fight.
    [The statement of Mr. Zoghby follows:]

[Pages 81 - 91--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you, Mr. Zoghby.
    Let me tell you, you're an excellent presenter of NALA's 
testimony. I think you know from our past conversations with 
you and other Members of NALA, I totally support Lebanon's 
independence. I think we ought to force Syria to get out of 
Lebanon. I think we ought to insist that Israel, as well, get 
out of Lebanon and assist Lebanon in rebuilding the country.
    We don't earmark monies in our bill. We don't earmark money 
for any country. Although we're not going to earmark, we will 
put some language in our committee report strongly encouraging 
the Administration to look very seriously at your needs.
    Ms. Pelosi.  Mr. Chairman, may I ask a question.
    I, too, want to thank Mr. Zoghby for his very excellent 
testimony, in the four areas that he is focusing on, the 
military, the universities, humanitarian, and infrastructure. 
One of the concerns we have seen under the leadership of the 
Chairman in a recent trip was that in many countries that we 
visited, especially those that have gone through civil war, et 
cetera, there is a need for the reestablishment of institutions 
like an independent Judiciary and a well trained police force 
with respect to individual rights and the rest.
    I didn't see that among your testimony unless that fell 
under one of those categories; perhaps education. But do you 
see a need for that in Lebanon?
    Mr. Zoghby.  Well, if I understand your question correctly, 
I believe you're asking for these for aid--for more 
governmental type agencies?
    Ms. Pelosi.  No, no; just for volunteer organizations or 
non-governmental organizations also because I heard you start 
from the beginning saying that it would go directly--not to the 
government, but to the people.
    My question is do you see the need? Do you have a well 
established Judiciary and all of the rest? Because what we've 
seen is we give aid. We assist countries, but since they don't 
have a state of law existing or a well established independent 
Judiciary and the rest, it doesn't attract the investment that 
it should. And people don't enjoy the benefits of peace and 
more democratic freedoms.
    Mr. Zoghby.  There is a well established Judiciary in 
Lebanon. The Judiciary is trying their best to act 
independently of the rest of the government, such as here in 
the United States; how the Judiciary acts independently. It is 
being influenced by outside forces.
    Any assistance the United States can get in that area along 
with any other areas; I know I've stressed those four areas. We 
feel those areas are very important. However, due to the 
limited time, I only touched on those.
    Ms. Pelosi.  I appreciate that. What we're talking about 
here may not even be additional money, but mentoring and some 
volunteer services by retired judges or what from the United 
States. But some of it might be assistance to nongovernmental 
organizations. I very appreciate your answers Mr. Zoghby. Thank 
you. Thank you, Mr. Chairman.
    Mr. Callahan.  Thank you. Congressman Pete Visclosky.

                              ----------                              

                                          Thursday, April 24, 1997.

                           COUNTRY OF ARMENIA

                                WITNESS

HON. PETE VISCLOSKY, U.S. REPRESENTATIVE FROM THE STATE OF INDIANA

    Mr. Visclosky.  Thank you. Members of the subcommittee I am 
here primarily to focus on the issue of the country of Armenia. 
As I understand it you have had a number of other witnesses 
before you today. I also understand that my entire statement 
will be entered into the record. I will just make three brief 
points.
    The first, Mr. Chairman, is that I would hope that Section 
907 of the Freedom Support Act would not be changed until the 
country of Azerbaijan takes real steps to lift their blockade 
of Armenia. I do think that this is an important principle. For 
many years the Government of Azerbaijan has maintained a 
blockade of Armenia and of the Nagorno-Karabagh region.
    Secondly, Mr. Chairman, I would urge the subcommittee to 
support the Humanitarian Aid Corridor Act and to include bill 
language restricting the President's waiver authority with 
respect to U.S. economic assistance. The Humanitarian Aid 
Corridor Act applies to Turkey, which is currently blockading 
the land transport of all U.S. humanitarian assistance to the 
country of Armenia.
    Armenia is greatly in need of the humanitarian relief which 
Turkey is currently blocking. The country is in a delicate 
rebuilding process, attempting to establish the type of 
democratic government and free market economy that the United 
States has worked to promote all over the world.
    Finally, Mr. Chairman, I support a hard earmark of not less 
than $105 million for U.S. assistance to Armenia for economic, 
humanitarian, and democracy building needs.
    Mr. Chairman, again, thank you and Members of the 
subcommittee very much for your consideration.
    [The statement of Mr. Visclosky follows:]

[Pages 94 - 95--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you for your submission of your 
written statement. Let me remind you that we do not earmark 
money in the House. Sometimes the Senate overrules as they did 
last year with respect to Armenia.
    Number two, let me suggest that some time in the next week 
or so that you contact Congressman Joe Knollenberg. Joe has 
indicated a tremendous interest in this region as have 
Congressman John Porter and others.
    I think Mr. Knollenberg is going to lead a delegation to 
that area of the world to try to get the subcommittee more in-
depth knowledge of what the problems are. How do we know who is 
right and wrong? If Turkey is right; Greece is right; or 
Armenia is right; or Azerbaijan is right; or Kosova is wrong.
    You know, I don't even know where most of these countries 
are. I made the mistake of saying that publicly once. I got 
into a lot of trouble. So, I retract that sentence. But in any 
event, I would appreciate it if you would talk to Joe about 
that.
    Mr. Visclosky.  I appreciate the Chairman's advice.
    Mr. Callahan.  Any questions?
    Ms. Pelosi.  No, Mr. Chairman.
    Mr. Visclosky.  Thank you very much for your time.
    Mr. Callahan.  Mr. Brohel.

                              ----------                              

                                          Thursday, April 24, 1997.

                       U.S. COMMITTEE FOR UNICEF

                                WITNESS

DAVID T. BROHEL

    Mr. Brohel.  Good afternoon, Members of the subcommittee. 
My name is Dave Brohel. I'm here as the President and CEO of 
Norseland, Inc., and as a Board Member of the U.S. Committee 
for UNICEF.
    If I might, Mr. Chairman, I'd like to recommend that we put 
my prepared statement in the record and also the additions, the 
implementation of the management excellence in UNICEF, and 
Terry Peel's report on America's Partnership with UNICEF. I 
will just give you a few statements from my notes.
    Mr. Callahan.  Thank you.
    Mr. Brohel.  Okay. First of all, I'd like to thank you, Mr. 
Chairman and the Members of the subcommittee for preserving the 
$100 million voluntary U.S. contribution to UNICEF in 1997. 
That's the fifth consecutive year in a row. We thank you very 
much for your efforts. That wasn't easy.
    We'd also like to request $100 million for UNICEF in the 
1998 foreign operations appropriation bill for 1998. I would 
also like to applaud your efforts to include these funds last 
year in the Child Survival and Disease Programs Fund. We agree 
that children must be made a clear priority of U.S. foreign 
assistance.
    However, I'd like to make a couple of points. And that is 
that UNICEF is not asking the U.S. government to do it alone. 
One-third of the contributions to UNICEF come from the private 
sector. Now, it's important that we have the government funding 
as a base to leverage and grow the private sector, and I think 
that Carol Bellamy, and you, are looking to try to increase the 
growth of funds from the private sector in the future.
    I'm involved with the U.S. Committee in trying to expand 
private sector contributions. Here are a few of the areas that 
we're working on. One is partnerships with corporations such as 
mine. We donate every year through what we call cause related 
marketing programs, a certain amount of the sale of pounds of 
this Jarlsberg Cheese and--cheese we sell during the October, 
December period.
    We notify the public about that. We advertise it. That's 
resulted in our small company contributing $150,000 to UNICEF 
from those sales in the last two years. And I expect we will be 
able to contribute $100,000 this year. This is private. This is 
voluntary. It's win-win-win. UNICEF wins because they receive 
the funds.
    They also receive greater awareness building through our 
advertising informing the public of these contributions. My 
company wins because our sales increase.
    We actually increased the first year we did this 10 
percent; last year almost 4 percent. And the consumer wins, we 
have found out from our research, that they like to be feeling 
good about purchasing products from companies that do good 
things. We aren't the only ones doing it; others are.
    Another area of partnerships is partnerships with service 
organizations such as Kiwanis. I think you all know about 
Kiwanis. There are over 9,000 clubs internationally, and over 
550,000 members. As a matter of fact, Mr. Chairman, two of the 
largest clubs come from the State of Alabama.
    These service organizations, for instance, Kiwanis--I'm the 
Chairman of the Business Council on the Kiwanis fight with 
UNICEF to eradicate IDD, Iodine Deficiency Disorder, in the 
world by the year 2000.
    Now, iodine deficiency is the leading preventable cause of 
mental retardation in the world. Kiwanis has stated that 
children are their priority one for the worldwide service 
project. They've chosen to partner with UNICEF on what we feel 
is an extraordinarily important cause.
    Six million dollars has been distributed already. Another 
$9 million to $10 million is either in pledges or in the 
process of being sent out ``to the field.'' As a businessman, I 
have the same concerns as this subcommittee; to be sure that 
our contributions are used wisely and efficiently.
    I'd like to mention and observe that UNICEF is a leader in 
the U.N.'s system in streamlining and increasing efficiency. 
One of the things we turned over today is an update report on 
the Booze, Allen, Hamilton report recommendations and 
implementations by UNICEF to-date. I think Carol Bellamy is 
doing an excellent job in organizing, restructuring, and really 
tightening up that organization to make it even more efficient. 
So, we should feel good about that.
    Finally, I'd like to say we all passionately--I don't think 
there is anyone that doesn't care about the UNICEF goals to 
help children in need. You don't have to hear a speech about 
that. But what's important is that UNICEF, in my estimation, 
delivers on the promise.
    Simple goals and accountability equal performance and 
results. We can see every year in UNICEF's reports the list of 
positive results. I know you've received Terry Peel's America's 
Partnership Report. If you would bear with me a second, I'd 
like to point out some of the things that he has stated UNICEF 
has a part in helping achieve.
    Immunization programs that now prevent the death, prevent 
the death, of three million children each year. One million 
children's lives are being saved every year by the use of oral 
rehydration therapy.
    Polio has been eradicated in the Western Hemisphere and 12 
million infants are now protected annually from mental 
retardation thanks to salt iodization. These are simple goals; 
actually goals that don't cost a hell of a lot of money either.
    So, all I can say to you is I'm proud to be with 
thissubcommittee and you, Mr. Chairman, who keep providing funding. 
We're going to keep giving our money. And we're going to try to keep 
making sure that we can expand the private sector's contribution for a 
tremendous cause. It's working. You know it. I know it. Thank you very 
much.
    [The statement of Mr. Brohel follows:]

[Pages 99 - 181--The official Committee record contains additional material here.]


    Mr. Callahan.  We thank you, Mr. Brohel. Thank you to 
Norsland for their contributions.
    Mr. Brohel.  Thank you.
    Mr. Callahan.  That very much assists, in the programs as 
do the other companies that make those contributions. You know 
our position in this committee about the Child Survival 
Account. You know that we're going to earmark a part of that 
money for UNICEF. You know that we're very supportive of the 
Kiwanis International Program and the Rotary Program.
    They personify what world relief, help, and support should 
be. If we had 20 Kiwanis Clubs international and to go along 
with the two major clubs, I think we could take the $600 
million we're talking about and solve a great many problems in 
the world. Unfortunately, the world is a big place. You guys 
can't do it all, but what you do is well appreciated by me and 
the Members of the subcommittee. Ms. Pelosi.
    Ms. Pelosi.  No questions, except to join you in thanking 
him very much for his wonderful testimony.
    Mr. Brohel.  Thank you.
    Mr. Callahan.  Mr. Rossides. Good morning, sir.

                              ----------                              

                                          Thursday, April 24, 1997.

       AMERICAN HELLENIC INSTITUTE PUBLIC AFFAIRS COMMITTEE, INC.

                                WITNESS

EUGENE T. ROSSIDES

    Mr. Rossides.  Good morning. Thank you, Mr. Chairman, Ms. 
Pelosi, and Members of the subcommittee. I appreciate having my 
full statement inserted in the record, Mr. Chairman.
    Mr. Callahan.  Yes. Thank you.
    Mr. Rossides.  I will keep within the five minutes.
    We stand at a diplomatic crossroads in the Balkans, the 
Aegean and the Eastern Mediterranean. The Clinton 
Administration's support of Berisha in Albania, Gligorov in 
FYROM and the Turkish government has proven a disaster. It is 
past time for the U.S. to reevaluate its policies in the 
region.
    The United States must now ensure that the policies it 
follows will advance American interests. Specifically the U.S. 
should work with the sensible, moderate, pro-American 
governments of Greece and Cyprus to promote its regional 
interests.
    Greece is the strategic and economic key for the U.S. in 
the Balkans and Eastern Mediterranean to bring peace, 
stability, economic progress, and democracy to the region. 
Jonathan Eyal, Director of Studies at the Royal United Services 
Institute in London in a speech at the Woodrow Wilson Center 
said that the U.S. should work more closely with Greece in the 
Balkans in order to achieve its objectives; particularly since 
Greece was a NATO ally and the only European Union Member in 
the Balkans.
    Mr. Chairman, on March 12th and 13th of this year, the 
American Hellenic Institute Foundation held a conference 
commemorating the 50th Anniversary of the Truman Doctrine of 
Aid to Greece and Turkey.
    General Andrew Goodpastor, former Supreme Commander of 
NATO, former Assistant Secretary of Defense, Lawrence Korb and 
Retired Admiral Henry Mustin stressed Greece's strategic 
importance then and now. General Goodpastor called the Truman 
Doctrine aid to Greece and Greece's actions then a ``turning 
point in world history.''
    Mr. Chairman in the interest of the United States, we 
oppose all military and economic aid to Turkey because of its 
horrendous violations of internationally recognized human 
rights, its violations of the rule of law, its threats against 
Greece and Cyprus, its unreliability as an ally and its minimal 
strategic value to the U.S.
    Turkey, as demonstrated by the record was an unreliable 
ally before Prime Minister Erbakan took office. Since Erbakan 
became Prime Minister, Turkey has more openly opposed the U.S., 
particularly in its relations with Iran, Libya, and Iraq. 
Turkey's deals with Iran and Libya are in violation of U.S. 
laws, including the D'Amato Act.
    U.S. policy towards Turkey has been an utter failure. Last 
year this committee was instrumental in reducing ESF funds for 
Turkey to a cap of $22 million. We urge the elimination this 
year of economic grant aid to Turkey.
    Turkey is highly militarized. U.S. aid simply adds to the 
arms build-up of Greece and Turkey to the detriment of the 
people of Greece and Turkey.
    Where is the threat to Turkey? There is none. Who is 
threatening Turkey? No one.
    Turkey is the destabilizing country in the region with its 
massive ethnic cleansing amounting to a genocidal war on its 
Kurdish citizens, its illegal occupation of Cyprus (now in its 
23rd year), its threats against Greece in the Aegean, and its 
illegal economic blockade of Armenia which you've heard about 
from previous witnesses.
    We support military aid for Greece as long as Turkey keeps 
its illegal 35,000-man army of occupation in Cyprus and 
maintains its 125,000-man army of the Aegean with landing craft 
aimed at Greece's Aegean Islands.
    Turkey is the main security threat to Greece. For the White 
House and career officials in the State and Defense Departments 
to deny this is to deny reality. We support the amount of $15 
million in humanitarian aid for Cyprus and the demilitarization 
of Cyprus.
    The current crisis in Albania has created a dangerous 
situation. Greece has been particularly helpful in trying to 
bring order, stability, and humanitarian aid to Albania. And 
its efforts have been recognized and commended by the U.S. and 
European governments.
    Greek peacekeeping troops are presently in Albania along 
side Italian troops. They are a part of a 6,000 man multi-
national force to safeguard aid shipments to Albania. The 
Berisha Government has been discredited and practically all 
parties and groups want him removed from office. The current 
crisis highlights the errors in U.S. policy in Albania.
    Five, we support the brave Turkish citizens struggling for 
human rights and the rule of law in Turkey. Our dispute is not 
with the Turkish people, but with the Turkish military, 
political, and diplomatic leadership.
    Mr. Chairman, the Clinton Administration's failure to apply 
the rule of law in international relations with Turkey will 
come back to haunt us elsewhere in the world. Instead of 
supporting the basic American values of democracy, the rule of 
law and protection of minority and human rights, the Clinton 
Administration is supporting the law of the jungle by Turkey.
    The coddling and appeasement of Turkey by the White House 
and State and Defense Departments is the main obstacle to a 
settlement of the Cyprus problem and a substantial contributing 
factor to tensions in the Aegean.
    Mr. Chairman, in our Exhibit to the prepared testimony, 
there is a memorandum, titled Greek American Policy Statements 
which deals with these several issues. I urge the Members of 
the Subcommittee to give careful review to those statements. 
They start on page five of the prepared testimony. Thank you, 
Mr. Chairman.
    [The statement of Mr. Rossides follows:]

[Pages 185 - 201--The official Committee record contains additional material here.]


    Mr. Callahan.  We thank you very much for coming and for 
your testimony. Once again, if you would communicate directly 
with Mr. Knollenberg on this, as well as Mr. Porter, or any 
other Members of this subcommittee that you would like, or Ms. 
Pelosi who understands more about that problem area of the 
world than I do. I would appreciate that very much.
    Mr. Rossides.  We appreciate the suggestion. We certainly 
will act on it.
    Mr. Callahan.  Thank you. Mr. Manatos.

                              ----------                              

                                          Thursday, April 24, 1997.

                    THE NATIONAL COORDINATED EFFORT

                                WITNESS

ANDREW E. MANATOS

    Mr. Manatos.  Thank you, Mr. Chairman--on dollars our 
concerns are really quite small. There is a 10:7 ratio on 
military aid to Turkey and Greece and $15 million for Cyprus. 
We have a unique thing we'd like to ask this subcommittee and 
that is, we're not going to ask you for more money. We'd like 
for you to take some money back.
    Instead of the 10:7 ratio, we'd rather see the zero-to-zero 
ratio. The reason Greece needs those arms is to protect itself 
against our arms in Turkish hands. So, if we zero out Turkey, 
we would support zeroing out Greece. If I might mention some of 
the things that are being done with----
    Mr. Callahan.  I might suggest too if you can talk Israel--
we'd have a lot of money to spend on other needy areas of the 
world. Go ahead and answer.
    Mr. Manatos.  Our issues of concern as you know are the 
settlement of Cyprus, the Eastern Mediterranean, the 
territorial international law problems there. Third, protecting 
the Patriarch, Istanbul, Turkey. And fourth, rights of the 
Greek minority in Albania.
    But if I might, Mr. Chairman, I'd like to just highlight 
and be very brief. I know the afternoon is long. I'd just like 
to highlight some of the things that had been done with the 
American aid that we did send to Turkey this last year and the 
reason for our concerns, as you will see when you hear these 
things.
    As you know, there is a new government in Turkey. Out of 
185 countries in the world, which four countries did they pick 
to go visit and sign agreements with? The very first four 
countries; Iran, Iraq, Cuba, and Libya; the four countries in 
the United States foreign aid, if we had our say, we would not 
be supporting, certainly.
    Also, on the human rights issue which is or was of great 
concern to this subcommittee last year. The committee, to 
protect journalists last year, put out a report that indicated 
that Turkey had, according to them, had imprisoned more 
journalists than any other country in the world. Amnesty 
International had a report last year entitled ``Turkey; 
Children At Risk of Torture, Death, Custody, and 
Disappearance.''
    Even the American Medical Association, I've never heard of 
the AMA doing anything like this. The AMA actually put out a 
report that said that ``Nearly everyone who is detained is 
tortured.'' And this was done by Turkish doctors. If I might 
just make a little point there, Mr. Chairman, you will find 
Greek Americans and Greeks and Greek Cypriots had no problem 
with Turkish citizens and Turkish Cypriots.
    As a matter of fact, if you go to foreign capitols, you'll 
find in Paris, for example, the best friends of the Greek 
diplomats are the Turkish diplomats. As individuals, there is 
no problem. And there is a significant number of people in 
Turkey that really want to get these kinds of problems behind 
them. What Turkey had done with that aid in this last year 
that's of most concern is their movement toward war with 
Greece. As you know, they temporarily occupy Greek land. They 
claimed sovereignty over Greek land that even their own maps 
have shown were Greece for decades.
    And they shot and killed five unarmed people. If you saw 
the videotape, Mr. Chairman, you would be shocked. They took 
our aid money, as you know which is quite fungible, and they 
paid for over 300 of the Gray Wolves to come from Turkey to 
Cyprus. This is the group that tried to kill the Pope.
    The Government of Turkey paid the transportation for these 
people to come over. I'd like to show you someday the 
videotape. It is one of the most horrible things you've ever 
seen of them beating to death this unarmed demonstrator. They 
then killed his unarmed cousin a few days who was climbing the 
pole to pull a flag down. They shot him in the neck. It is very 
graphic.
    The Foreign Minister of Turkey then came to support that 
act, officially, in public soon after. A poor man was hunting 
snails some days later. His son-in-law was a couple of hundred 
yards behind him. Turkish troops came upon him. He had his 
hands on his head. They put a gun to the back of his head and 
shot him. As he fell to the ground, he was still moving. So, he 
took the gun and shot him in the head again.
    Another boy on the line, they shot. He could have been 
saved. He was bleeding to death. The Turkish troops, with our 
arms, held off the U.N. troops for over--between a half hour to 
an hour, during which time the boy bleed to death.
    So, what they're doing is very aggressive. It's something 
that I know that nobody on this committee, nobody in this 
country would support. The final two points I'd like to make is 
indicative of the escalation of this problem, is that in 1995, 
Turkish planes intentionally over-flew Greek territory 73 
times. In 1996, they over-flew Greek territory 538 times. It's 
just a blatant misuse of American aid.
    Finally, and this is what's really of extraordinary concern 
is this is now moving toward war. We are very likely to see 
large numbers of people die because of this misuse of American 
arms. You see, Cyprus instituted a defensive radar system, a 
missile system, to protect themselves against attack from the 
air.
    The Prime Minister of Turkey has put Cyprus on notice. 
Those missiles are to be delivered, those defensive missiles, 
to be delivered to Cyprus in 16 months. The Prime Minister has 
put on notice that they will attack and go to war with Cyprus 
if Cyprus tries to put into place those defensive missiles. So, 
we have a very serious situation.
    Last year, your committee distinguished itself from 
theCongress by sending the message to Turkey that this is not what 
America gives aid for and we would hope that you could do it again this 
year.
    [The statement of Mr. Manatos follows:]

[Pages 205 - 215--The official Committee record contains additional material here.]


    Mr. Callahan. Thank you so much.
    I don't quite know how to take your quote ``the misuse of 
American arms'' as leading to war. I know that possibly that 
might be indirectly the case, but if the implication is that we 
are providing arms to Turkey to create a war, I don't think 
that is the intent of this Administration.
    Secondly, let me tell you that your relief is going to have 
to come and should come through the International Relations 
Committee. We are appropriators. We are not policy makers. Or 
it should come through the Administrative Branch of government.
    We can't tell President Clinton or Madeleine Albright what 
to do. Sometimes we can strongly suggest. Sometimes we can put 
some language in there. But our committee is not designed nor 
are we sufficiently expert to begin dictating world policy. I 
know you have problems in that area of the world. And I 
sympathize with those problems. I want to help, but at the same 
time, how can we on this committee--I've never even been 
there--most of the Members of the subcommittee have never been 
there.
    So, how can you expect us to write policy that we 
constitutionally are not supposed to be doing anyway? The 
Administration is supposed to do it. The check and balance here 
in the Congress is the International Relations Committee. So, 
your efforts in lobbying for the 10:7 ratio, which is stupid, 
to have a foreign policy with any ratio, with any country. Why 
should one country get something based upon what another 
country gets. It's stupid. It shouldn't be in place. It 
shouldn't be in place with Egypt and Israel, but it is.
    So, I agree with you, but your relief is going to have to 
come through the International Relations Committee. They're 
planning on bringing a bill to the floor in the next couple of 
weeks. If the International Relations Committee tells us to 
prohibit the Administration from spending money in Turkey, it 
is prohibited.
    It's not up to us to pick and choose and to take sides 
because we have Greek citizens, Cyprus citizens in our 
community. It's up to the Administration and to the 
International Relations Committee. I would encourage you to 
take your message to the committee with jurisdiction and tell 
them to specifically instruct us.
    They are the experts. Every time a foreign official from 
Greece comes to the United States, they have coffee and tea 
with Chairman Ben Gilman and his committee. Why don't they talk 
about this? Why don't they say, Mr. Chairman, pass this 
prohibition and have them pass it? Then you wouldn't have the 
Appropriations Committee caught up in all of these battles that 
come up every year trying to defend something we don't know how 
to defend or don't know whether we should defend because we are 
not experts nor are we designed to be experts in foreign 
policy. But I hear you clearly.
    I've heard it from people in my District and certainly we 
will do what we can to help ease any problem in the world. But 
keep in mind that we're not experts. We don't profess to be. I 
don't even want to be. We appropriate money based on an 
allocated amount and based upon what the International 
Relations Committee give us authorization to do and what the 
Administration requests. That's what we do.
    Mr. Manatos. Can I respond?
    Mr. Callahan. Yes, please.
    Mr. Manatos. I was going to say that I've worked up here 
for many years. Then I got a job as Assistant Secretary 
downtown. I said I can't wait to get downtown. I'm going to 
have a staff of hundreds. These experts; we're not going to 
make these silly political decisions. We're going to make 
decisions based on the right things.
    I've got to tell you, Mr. Chairman, this is just my 
personal observation. I'm not representing people. This is my 
personal observation. There is more common sense up here per 
capita than there is downtown. One thing that I have found in 
Congress was a wonderful thing in doing is the way our 
democracy works so well is when a person up here who isn't an 
expert on a subject points--common sense downtown and says, 
this has been pointed out, I don't know if it's true or not, 
but if this is true, I wouldn't think this is the kind of thing 
we would want to be supporting. And I can tell you that when I 
was downtown, when that kind of a question came up, 
particularly from the Appropriations Committee, things were 
relooked at. Sometimes some bureaucrats which were heading our 
country in some wrong directions were to reconsider.
    Mr. Callahan. Well, I appreciate that.
    Ms. Pelosi. Mr. Chairman, I would like to comment on your 
comment.
    Mr. Callahan. Sure.
    Ms. Pelosi. Thank you, Mr. Chairman. I want to thank Mr. 
Manatos, as usual, for his excellent testimony. I think the 
Gentleman, our Chairman, is too modest when he states the power 
of our committee. Certainly, one of the biggest checks we have 
on the Executive Branch of government is the power of the 
purse.
    And there are times when certainly the authorizing 
committees will suggest legislation, sometimes even pass it, 
but not frequently, on a wide range of issues which we must 
give a priority.
    Due to the fact that, lack of authorization or timing, 
events intervene between the debate on authorization and the 
time of this appropriations bill. As I said, the Gentleman is 
too modest; know thy power. And I think the Chairman does.
    Also, I think that we have an accountability to the public 
that I find, with all due respect to those who are appointed by 
the President of the United States, he's accountable to the 
public. He is an elected official. But beyond that, they don't 
go home on the weekend and hear from people about how or what 
they are thinking on these issues.
    So, not only do I think that the power of the purse is the 
policy, the power of policy, it also is a responsibility that 
we carry as representatives of the people to not leave so 
much--although I respect the role of the Executive Branch in 
the making of foreign policy.
    I do think the fact that this committee exists, and has the 
jurisdiction that it does, makes it a place where we do have an 
order on the power to limit spending if we believe that the 
funds that we are spending are contributing to a situation and 
is not in our national interest in furtherance of our 
principles.
    So, as the Gentleman from Alabama is always a Gentleman, I 
will be the bullish one for this committee and say that I sit 
here as a policy maker. My colleague.
    Mr. Callahan. I'm going to go vote. I agree with you.
    Ms. Pelosi. I'll be very quick though, but I just want to 
associate myself with my colleague and say you are much too 
modest. In fact, with this Congress, Mr. Chairman needs more of 
your common sense and your intellect on all of these problems. 
I certainly respect the power of this committee.
    Mr. Callahan. They want to have a $10 trillion bid.
    Mr. Manatos. And the Authorization Committee, Mr. Chairman, 
did zero out that.
    Mr. Callahan. Let me just tell you though, on the 
Authorization Committee, too, we try to abide by their bill, 
even though it's not law. We try to keep it within the 
boundaries of whatever they can pass in the House. So, we do 
try to keep it there.
    Mr. Manatos. Thank you.
    Mr. Callahan. Thank you very much. Our next witness will be 
from the Business Alliance for International Economic 
Development, Mr. Burrill. If you would summarize, we'd 
appreciate it. We'd like to hold it to five minutes.

                              ----------                              

                                          Thursday, April 24, 1997.

        BUSINESS ALLIANCE FOR INTERNATIONAL ECONOMIC DEVELOPMENT

                                WITNESS

GEORGE BURRILL, CHAIRPERSON

    Mr. Burrill. Yes, I will. Good afternoon. My name is George 
Burrill, President of Associates in Rural Development. I'm here 
today in my capacity as Chairperson of the Business Alliance 
for International Economic Development.
    The Business Alliance is an organization consisting of four 
trade associations: the Alliance to Save Energy, American Seed 
Trade Association, the Association for International 
Agriculture and Rural Development, and Professional Services 
Council. Collectively, these four associations represent 
hundreds of companies. I'd like to submit my written testimony 
for the record.
    Mr. Callahan. Of course.
    Mr. Burrill. I'll just, read some key points. The basic 
thrust is that we feel there is a very strong linkage between 
economic development assistance, our foreign aid program, and 
the future of exports from this country to the future of our 
own economy and jobs in this country; a very strong linkage.
    The fastest growing markets for U.S. goods and services are 
in the developing world. Between 1990 and 1995 annual exports 
to developing countries increased by nearly $100 billion. That 
export boom created roughly 1.9 million jobs in the United 
States.
    We feel, although I know this term has been used often 
today, we feel that we are at a crossroads. We can choose to 
make a smart investment now or we can pay a steep price later. 
The relatively small amount of money we spend on foreign 
economic assistance serves as an engine for our future economic 
growth, and only if the United States prepares and participates 
and successfully competes will our economy grow to its fullest 
potential.
    One thing that we know for sure is that the American 
economy is growing today mainly because other countries want 
and can afford to buy our products and services. This increase 
in U.S. exports to the developing world is no accident. Most of 
the foreign assistance that we spend on developing countries 
today goes towards making them good customers tomorrow.
    Unfortunately, when the United States has been withdrawing 
and cutting foreign assistance, our competitors have stepped in 
and filled the void. And they are much more active in some of 
the most promising developing country markets. This will not do 
if we are to make our own economy grow.
    Some critics of foreign assistance believe that the private 
sector should make these investments. Indeed they should, and 
in fact they are. However, there is a level of basic investment 
that only government can make.
    For example, programs that change legal systems, induce 
policy reform, protect intellectual property, promote 
democracy, and improve health and education. All of these steps 
must be achieved to ensure sustained economic growth.
    The Business Alliance supports funding of foreign 
operations, export financing, and related programs at the $13.3 
billion level. We view this as a symbolic reversal of decline 
in foreign assistance that we've seen over the course of the 
last decade.
    However, over the next few years, our goal should be to 
match the mean level of total U.S. economic assistance of the 
1960s, which would be about $18 billion a year in dollars in 
today's purchasing power. Again, to repeat, our primary tenant 
and focus is that there is a long-term linkage between our 
foreign assistance program for economic development assistance, 
developing world markets, and the future our own markets, and 
growth for our own economy.
    The Business Alliance, some months ago, published a White 
Paper which we would be glad to share with the Members of the 
subcommittee if they haven't seen it. It's called, ``Foreign 
Assistance: What's in it For Americans?'' It lays this also out 
in detail. Thank you.
    [The statement of Mr. Burrill follows:]

[Pages 220 - 225--The official Committee record contains additional material here.]


    Mr. Callahan. Thank you so very much, Mr. Burrill. I think 
there is a general agreement on this committee that there is a 
linkage between our assistance programs and world economic 
development. Certainly, it is important to U.S. economic 
benefits and trade. Thank you very much.
    Mr. Burrill. Thank you. Thank you for letting me testify 
here.
                              ----------                              

                                          Thursday, April 24, 1997.

                                 AFRICA

                                WITNESS

HON. MAXINE WATERS, U.S. REPRESENTATIVE FROM THE STATE OF CALIFORNIA

    Ms. Waters. Thank you very much. I'm appreciative for the 
opportunity to add to your work and make yet another request. 
I'm here today because I'm concerned about Africa. I'm going to 
try and focus on those entities that provide critical 
development monies to the continent of Africa.
    With the end of the Cold War we have an opportunity to 
reassess our role in the world, particularly with the 
developing world. A new U.S. African relationship is within 
this country's grasp.
    I want to talk about the U.S. Agency for International 
Development, the International Development Association, and the 
African Development Fund. Basically, with the decline in United 
States assistance level since fiscal year 1995, we have fallen 
behind France and Japan in our financial assistance to Africa.
    The United States, I think, is abdicating its 
responsibilities and I'd like to make the point by sharing with 
you that eleven U.S. aid missions have been closed in Africa.
    Economic support funds for Africa went from $14 million in 
1994 to $7 million in 1996. The contributions to the African 
Development Fund, $135 million in 1994 and since 1994 the fund 
has been authorized for funding, but has never received 
appropriations. Historically, the United States Agency for 
International Development has been the primary mechanism for 
providing development assistance to Africa.
    While the $700 million requested by the Administration is a 
$30 million increase over fiscal year 1997 allocations it is 
still a 13 percent decrease over the appropriation in fiscal 
year 1995.
    I would encourage this body to view the Administration's 
request as a floor and consider making an even stronger 
commitment to USAID towards work in Africa.
    Now, the International Development Association of the World 
Bank lends to the poorest countries in the world, including 
many African countries at interest rates that countries can 
afford to repay. The President's request for $1.34 billion for 
the International Development Association in fiscal year 1998 
will allow us to pay the $234 million that we are in arrears 
with the International Development Association and maintain our 
commitment to the ongoing work of the program.
    The IDA consistently makes 40 percent of its new loans to 
sub-Saharan Africa. I suppose I could ask how could we expect 
to influence development policies of the world when we do not 
meet the basic requirements of our own membership. I won't go 
into the details about the African Development Fund. You know 
about that. And the fact that we have notreplenished the fund, 
I would simply say the following.
    In a speech this past weekend, I received considerable 
attention by the press because I was very hard on a bunch in 
Nigeria and I slammed Obutu in Zaire. I think it must be 
recognized that those of us who walk with the continent will 
stand up and call it like it is when we see dictatorships that 
have no respect for the people of their country who are defying 
all efforts to assist with democracy.
    We're going to do that. And we will be consistent in our 
efforts to stand up and to call it like it is. But if we're 
going to have any influence, if we're going to play any 
significant role, I really do believe that we can do better. We 
can do better in honoring some of the very basic commitments 
that I thought had been made to Africa; replenishing these 
funds, at least not allowing these USAID missions to close 
down.
    It is only when we do not honor those commitments and we're 
not there that dictatorships begin to flourish and democracies 
are unable to develop or democracies dismantle. So, I'm making 
a strong plea for Africa and would hope that we do the right 
thing for this budget year. Are there any questions?
    [The statement of Ms. Waters follows:]

[Pages 228 - 229--The official Committee record contains additional material here.]


    Mr. Knollenberg. Mr. Chairman.
    Mr. Callahan. If I might, Ms. Waters, let me tell you that 
I don't think you have to look deep for any sympathy on this 
committee for the needs of Africa. You have our total support. 
We try to give--we have tried to give as much flexibility to 
the Administration as we can.
    You mentioned the 20 percent reduction since 1994. There 
has been a 20 percent reduction to the entire bill since 1994. 
On the other hand, that's the primary reason we earmark $600 
million of the money to Child Survival to be spent primarily in 
Africa.
    So, while the money is not earmarked, we did contain it and 
say to USAID that you had to spend the money. We didn't tell 
them it had to be Haiti or Africa. We said you have to spend it 
on child survival. So, the Administration has the flexibility 
to spend the money in Africa if they want. It's not this 
committee.
    We're limited in our ability because of the allocations. 
They only allocate us so much money. We tried to leave as much 
of that in tact as we could to give the Clinton Administration 
flexibility. So, I think that, yes, we don't have enough money 
to fully fund USAID, but then we're not telling USAID to cut 
Africa. We're saying, here is a cut. You make the decisions. 
So, it's not this committee that is reducing assistance to 
Africa. It's the Administration not choosing to do so. We're 
giving on the money. We're telling them they can't give it to 
the government of some of those nations anymore. That they must 
spend it on people; on needy people in Africa or wherever.
    The committee is not going to be allocated any more money 
this year. We're going to probably be at level funding, but 
we're not going to have any more money. So, if we do the right 
thing and let the Administration make the decision on the 
priority, I think we're being responsible. I think that you 
should express your concerns to Madeleine Albright.
    Ms. Waters. Mr. Chairman, I certainly will do that in the 
areas where that is appropriate, but there are still areas 
where we have authorizations for like the African Development 
Fund. And we have not replenished that fund. I mean zero.
    Mr. Packard. It wasn't requested until this year.
    Mr. Callahan. Nor did the Administration request it until 
this year. The first time we funded it to you.
    Ms. Water. The bank?
    Ms. Pelosi. Mr. Chairman.
    Mr. Knollenberg. Yes, Ms. Pelosi. Just one comment I want 
to make. We have three people that have to get out the door by 
4:10 p.m. And I want to close down the Ukraine connection. So 
if you could just take a minute.
    Ms. Pelosi. I'll take a minute in order to commend our 
colleague, Congresswoman Waters, for testifying today, but more 
importantly for a very important statement that you made this 
weekend. I think it was a statement of leadership of all of our 
country, and certainly one that I think should be well received 
in Africa as well.
    You are not indiscriminate in your support of Africa and 
where there are authoritarians abusing the people. The people 
in America have to speak out against that. I do think we can do 
more if we had a bigger 150 function, allocation, and the 
Administration is asking for more money in that direction.
    So, we have more of a pie to carve up here because indeed 
we should be funding IDA, the International Development 
Association more fully. This committee though has been a leader 
in microlending which is so important to women in Africa. But 
your point about closing the embassies, consulates to the 
USAID; that's very important for other reasons too. We have to 
be what some call a distance--early warning--a part of that 
system because we break on running in and trying to feed people 
later.
    Sometimes it works and sometimes it doesn't, but we should 
be much more into prevention and early warning on that. The 
world powers have used Africa in the Cold War. We exploited 
Africa for our purposes. We left the continent washed in 
weapons, poverty problems, and the rest making way for 
authoritarians and some of them have prevailed.
    But fortunately, there are some success stories too. And 
some countries in Africa graduated from the IDA Program and we 
should be proud of that.
    Ms. Waters. Yes.
    Ms. Pelosi.  But we need more for IDA, and certainly, for 
the Bank and the Fund. It would be easy to do more there, since 
the three are--but we do need also the support of other Members 
of Congress to help us get more of the 150 function so that 
there is more to go around. Again, I commend you. Bravo to you 
for that speech this week.
    Ms. Waters. You are certainly welcome. Thank you. Thank you 
very much.
    Mr. Knollenberg. Thank you, Congresswoman. Thank you very 
kindly. I appreciate your testimony. In order to move quickly 
into this, we're going to close out on the Ukraine end over 
here.
    In the meantime, I'd like to call on Dr. John Sever who, by 
the way, I understand has been yielded time by Mr. Wollery and 
Mr. Guerrant. Is that right?
    Mr. Sever. Yes, sir.
    Mr. Knollenberg. So, if you would come forward and give 
your testimony.
                              ----------                              

                                          Thursday, April 24, 1997.

                          ROTARY INTERNATIONAL

                                WITNESS

JOHN SEVER, PROFESSOR OF PEDIATRICS, CHILDREN'S HOSPITAL

    Dr. Sever. I appreciate this opportunity to testify on 
behalf of Rotary International. I am a Professor of Pediatrics 
at the Children's Hospital here in Washington, D.C. Rotary 
International, as you know, is a global organization with 
28,000 clubs throughout the world and 1.2 million members. In 
the United States, we have over 400,000 members of Rotary.
    The clubs promote humanitarian service, high ethical 
standards for all volunteers and in all locations promote 
international understanding. I'm here today to represent a 
broad coalition of health advocates, including the American 
Academy of Pediatrics, the Task Force for Child Survival, the 
March of Dimes, the U.S. Committee for UNICEF, and Rotary 
International in support of a global program to eradicate 
polio.
    Allow me first on behalf of Rotary and the coalition to 
thank you. We want to express our sincere gratitude to you and 
this committee for your support in this effort to eradicate 
polio. A year ago I came here to make a case for increased 
funding for global eradication of polio. And you responded 
enthusiastically by recommending a total of $25 million to be 
channeled through the USAID to implement the delivery of polio 
vaccine and the development of an infrastructure to accomplish 
the eradication of polio. I'd like to take this opportunity to 
inform you briefly about the extraordinary progress that has 
been made in achieving eradication of polio. Remember, this was 
the disease which, of course, just a few years ago was 
worldwide, over 500,000 cases occurred a year.
    I have a large chart which I'm certain you will find 
necessary which gives you a very graphic idea of the drop in 
the number of cases in 1981, there were between 60,000 and 
70,000 cases. We're down here now to an estimated 3,500 cases 
worldwide. Now, the goal is to eradicate polio by the year 
2000, just a few years from now.
    We will eradicate it as we did smallpox a few years ago so 
that we will be able to stop immunizing children. There will be 
no more polio anywhere in the world. And that can be 
accomplished by the year 2000. We're very close to that 
obviously right now.
    This last year some 75 countries throughout the world 
conducted national immunization days; days in which all of the 
children under five years of age were immunized for polio. Just 
one example of that, during this year in January, the country 
of India inoculated 123 million children under five years of 
age, in one day. That's the largest effort ever accomplished.
    Some other immunizations have been done in China and in 
other parts of the world. We are making great progress, we are 
getting very close to the accomplished goal. And the driving 
force must be continued.
    The USAID is an important part of that force for this 
eradication of polio. This year, USAID will increase its 
funding for eradication in Africa. Two main areas still remain 
active for polio. The area of India, Pakistan, and Bangladesh. 
That's why we're concentrating on that area and Central/
Southern Africa.
    So, the USAID will increase its funding this year to $16 
million for eradication efforts in Africa. They are also 
programming about $4 million in India and an additional $5 
million will be programmed through a central funding office to 
where they determine the needs are greatest.
    We do not have information as to their plans for 1998, but 
the case to invest in polio eradication is compelling. We are 
in reach, number one, of this goal of eradicating polio. Number 
two, polio eradication will save the United States at least 
$230 million a year in immunization costs once this is 
eradicated. Currently we must continue to immunize all of the 
children in this country even though we don't have the disease 
here. It could be imported. It could be brought in. So, we have 
to continue to immunize all of our children. And investing in 
this eradication is developing a public health infrastructure 
around the world to help us fight other deadly diseases.
    Rotary International is investing through its members and 
contributions a total of about $400 million in this effort--
throughout the world. Rotary is participating in helping 
immunize children directly, as well as promoting the 
immunization efforts.
    In fiscal year 1998, we are again requesting a $25 million 
earmark for global polio eradication in the USAID budget 
through the Polio Eradication Initiative for the delivery of 
vaccine and the development of the infrastructure necessary for 
this program.
    This would maintain the funding at the 1997 level and 
ensure that the U.S. remains a decisive factor in the success 
of this effort. In addition, we are seeking report language 
similar to that included in your 1997 committee report 
specifying that this funding is meant to be in addition to the 
resources for regular immunization by AID and is intended to 
supplement----
    Mr. Knollenberg. Could you conclude here in about 30 
seconds?
    Dr. Sever. Easily.
    The Funding is intended to supplement other activities.
    Lastly, we would ask the committee to again request a 
report by December 1, 1997 on AID's plans to fully implement 
this program so that we can become aware of how they plan to 
activate their efforts and we can mesh our efforts with theirs.
    This is an investment which is achievable, a goal which is 
attainable. And it will break even financially very rapidly 
within two years after it is completed just in the savings that 
will be achieved in immunization costs. It will be a gift for 
our children in the 21st Century.
    [The statement of Dr. Sever follows:]

[Pages 234 - 251--The official Committee record contains additional material here.]


    Mr. Knollenberg. Dr. Sever, thank you.
    One thing, just a reminder, two years ago, this 
subcommittee did commit $25 million a year effort, as you well 
know, to the eradication of polio.
    Dr. Sever. Yes, sir, and we appreciate that very much. We 
need that support and the continued commitment of AID in the 
implementation of that program.
    Mr. Knollenberg. Thank you. Thank you very much.
    I'd like to call on Lucinda Low with the American Bar 
Association. If you would come forward and provide us with your 
written testimony.
                              ----------                              

                                          Thursday, April 24, 1997.

                        AMERICAN BAR ASSOCIATION

                                WITNESS

LUCINDA LOW, CHAIR INTERNATIONAL LAW AND PRACTICE

    Ms. Low.  Thank you very much, Mr. Chairman, and I very 
much appreciate your taking me out of schedule so that I can 
make a plane later this afternoon.
    I am Lucinda Low. I am the Chair of the ABA Section on 
International Law and Practice. I am here on behalf of Lee 
Cooper, the President of the Association. I think you are 
familiar with the ABA. We have approximately 348,000 members. 
We're the largest private voluntary organization in the world. 
I am here today to talk just for a few moments because time is 
short about the ABA's Global Rule of Law Programs.
    I have submitted a written statement for the record. I'll 
try to hit on some of the high points here, Mr. Chairman. 
First, let me say as a general matter that we in the ABA are 
strongly supportive, and have been for years, of a strong U.S. 
foreign assistance program supported by both U.S. Government 
agencies and multi-lateral agencies.
    We think there needs to be both. We are also strongly 
supportive of the recent emphasis that both the U.S. Government 
and multi-lateral agencies involved in foreign assistance have 
placed in recent years on the development of legal 
infrastructure in both developing countries and in countries 
with transitional economies.
    We very much hope that the support for the development of 
legal infrastructure will be carried forward this year and in 
years to come. The ABA believes that a functioning legal system 
is an essential component of a democratic society and that it 
furthers U.S. economic and foreign policy interests.
    Countries need to have rules that businesses view as 
predictable, and are transparent. It is no coincidence that you 
were just hearing about corruption a moment ago. It is no 
coincidence that corruption flourishes most in countries where 
the rule of law is not developed.
    Countries need to have institutions, judges, bar 
associations, and other elements that interpret and implement 
the rules of the legal system in a predictable and an honest 
way. So, we see the legal infrastructure of many countries 
around the world as a fundamental component of our foreign 
policy.
    The ABA has as an association-wide goal which promotes the 
Rule of Law throughout the world. And it's not just a goal on 
paper. We are actively involved in trying to implement that 
goal in many places around the world. I've described in some 
detail in my written testimony our largest project, CEELI, the 
Central and Eastern European Law Initiative, which has been in 
progress now basically since shortly after the fall of the 
Berlin Wall.
    It is a project that's been active in most of the countries 
in Central and Eastern Europe. It represents the pro bono 
services. If you calculate the value of the lawyers, and the 
judges, and the law professors who have volunteered their time 
to this project over the years, we have calculated it to 
represent $77 million of pro bono contributions.
    Mr. Chairman, that is real leverage of our government 
money. That's one project. Let me just note two other projects 
around the globe, not as large as CEELI, but also very 
important. I had the personal opportunity last month to travel 
to Cambodia where the ABA has an active Rule of Law project 
that is about five years old.
    And there we are not just rebuilding a legal system, we are 
building a new legal system from the ground up. I had the 
opportunity to visit the Cambodian Bar Association which has 
grown in its membership from as many members as you can count 
on the fingers of one hand to now several dozen members. And 
they are actively involved in trying to train their lawyers in 
the new laws that are being written there.
    I visited a documentation center that's established by the 
ABA which the Cambodian Bar to make the laws accessible to the 
lawyers in the country. So, we are doing work that is creating 
a new legal system based on the common law, by the way, not the 
civil law which was the traditional Cambodian regime.
    So, that's just one example that I was personally 
privileged to see in the last month. Our newest project which 
is described in more detail in our testimony is the Arab Legal 
Institute in which we are collaborating with the International 
Bar Association and several European Bars, and the Arab Lawyers 
Union which is a prominent Pan-Arab group to establish an 
institute that could provide training for judges, write laws, 
and encourage the development of human rights in the Arab 
region.
    That institute is scheduled to be opened in May of this 
year. It has no government funding, no U.S. Government funding 
at this point. European countries have committed funding in 
others, but it is the kind of project that we think could make 
a real difference in the Rule of Law in that difficult vexing 
region of the world.
    Mr. Knollenberg.  Could you conclude?
    Ms. Low.  Yes, please.
    So, we bring to the table volunteer expertise and time. 
I've pointed out earlier that it is a way for the Government to 
leverage its contributions through the pro bono services. What 
do we get out of it? Our members do not do these projects as a 
business development opportunity.
    Indeed we have strong conflict of interest rules that 
preclude that. But it is a way for lawyers to make a real 
contribution to the development of other societies. The U.S. 
Government gets not only leverage, but it builds democracy, 
support for human rights in recipient countries, promotes our 
trade interests. So, in conclusion I would strongly urge the 
committee to continue to support a bilateral and multi-lateral 
U.S. foreign assistance program. I urge continued emphasis on 
the development of legal infrastructure in recipient countries. 
And we, for our part, will be committed to continue our Rule of 
Law work throughout the world. Thank you very much.
    [The statement of Ms. Low follows:]

[Pages 255 - 267--The official Committee record contains additional material here.]


    Mr. Knollenberg.  Thank you very kindly for your testimony.
    I'm going to recognize Mr. Wollery, if he is here. Chuck 
Wollery with the National Council for International Health. So, 
Mr. Wollery, if you would come forward.

                              ----------                              

                                          Thursday, April 24, 1997.

               NATIONAL COUNCIL FOR INTERNATIONAL HEALTH

                                WITNESS

CHUCK WOOLERY, DIRECTOR OF MEMBERSHIP AND ADVOCACY

    Mr. Woolery.  I understand you are a dentist.
    Mr. Knollenberg.  I am not and don't come to me for 
dentistry. I was in another business, but it wasn't dentistry.
    Mr. Woolery.  Okay. I want to thank this subcommittee first 
for last year appropriating $38 million for the International 
Health, Child Survival and Health Fund. That money will 
literally save millions of lives in particular--the bottom line 
is everybody else in this room has been looking for more money.
    We usually come here with the perspective of humanitarian 
assistance that we need to do this because thousands of people 
a day die. Just about 50,000 people die each day from 
infectious diseases.
    But now with the recent reports, the Federal Reporter 
reports in the last six years, the most recent report that was 
just put out by the National Academy of Sciences in Bethesda, 
say basically that it is our enlightened ``blatant self-
interest'' to do this kind of work now in terms of new and 
reemerging diseases.
    I will tell a quick story. When--first child in the San 
Francisco area about 1980. At that time the AIDS virus was just 
about coming out. I wasn't concerned about it anyway. It wasn't 
my problem. I didn't have any friends who were gay. It was just 
not an issue for me. But a month later we got a letter from the 
hospital saying she had to come in for AIDS testing. At that 
time blood was not being screened for AIDS and so it became a 
problem for me. It was kind of like when I was first awakened 
at the time, I didn't realize it but it really represented a 
global issue at the time.
    We didn't know that it came out of Africa at that time. But 
one of the key points I want to make in my testimony is it was 
a quote that I drug out of a file. It was by the Presidential 
Commission on World Hunger. It was at the end of the Carter 
Administration. I'll go ahead and read it.
    It said basically that this Commission was on world hunger. 
The issue is world hunger. It says that in the final analysis, 
unless Americans as citizens--increasingly interdependent world 
place a far higher priority on overcoming world hunger, its 
effects will no longer remain remote or unfamiliar, nor can we 
wait until we reach the brink of a precipice.
    The major actions required do not lend themselves to crisis 
planning, patchwork management for emergency financing. The 
hour is late. Age old forces of poverty, disease, inequity, and 
hunger continue to challenge the world. Our humanity demands 
that we act upon these challenges now. That was 1980. It was 
1981 when the AIDS virus hit.
    The reality is that the AIDS virus was actually encircling 
the planet for about ten years before we knew about it. The 
point being, if we had been more interested in the quality of 
life of people around the world and their health issues around 
the world, we would have had at least a ten-year head start. 
The Sunset Report that came out last year or two years ago said 
that maybe a 20-year head start in combating that particular 
disease.
    AIDS was not the first disease to come into America. It 
will not be the last. Another experience I had was several 
months ago, I had a serious injury. I was in the hospital. My 
neurosurgeon did kind of an unofficial survey of all those 
people who took care of me from my neurosurgeon all the way 
down to the nurses.
    Seven out of ten of those people were not U.S. born 
citizens. I got great quality care. I'm not ranking on 
immigrants in any way. I'm just saying that the other three 
were U.S. born citizens out of every ten were actually--Third 
World, and seeing our medical system as intimately tied with 
the rest of the world in terms of its emergency of infectious 
diseases.
    Last year, 60,000 Americans died in U.S. hospitals with 
infections. There is really no way to separate domestic and 
international health issues. This subcommittee has jurisdiction 
over one of the areas that provides Americans with the best 
defense we will ever get against infectious diseases.
    The Soviet Union was certainly a threat and we spent 
billions of dollars on that over the past few decades. But 
right now 150,000 Americans have died each year from infectious 
diseases. Many of that can be traced to the Third World. There 
was another book that was written. I'm not sure if you've read 
about it or heard about it.
    Ted Turner has just created a four-hour documentary on it. 
It played two hours last week and two hours this week. It's a 
phenomenal--really, the bottom line is if we don't start taking 
care of each other on this planet, the bacteria will. And this 
committee is probably, I think the most powerful rationale that 
you have for really redesigning or shifting resources however 
it is going to happen within the foreign aid budget.
    We are truly at war with the microbes. They are killing us. 
And it is not an issue so far. Far too little money is going 
into the issue of what is really the base camp of microbes? 
Basically, we can wait until they come to us, which is what 
we're doing now. We can try to stop them at the borders which 
is kind of a reactionary type thing.
    The reality is that most microbes come from the areas of 
the world where there is poverty, lack of water, sanitation, 
and really no where is safe. I understand that one of the other 
Members of Congress, one of your colleagues, Congressman Gantz, 
returned from Peru with a spinal--a brain infection and an 
intestinal infection at the same time.
    I don't know how close it came to killing him, I know he 
spent a couple of weeks in the hospital. My father who hadn't 
left the country since World War II, just recently returned 
from Kenya from a hunting expedition and swears he will never 
go back. He got--from that.
    Mr. Knollenberg.  Would you conclude in the next few 
minutes?
    Mr. Woolery. Sure, you bet.
    The bottom line is we can pay now or we can pay later. If 
we have to pay later, the price is not only going to be in 
billions of dollars, it's going to be in billions of lives. 
That's just the way it is. Thanks.
    [The statement of Mr. Woolery follows:]

[Pages 271 - 281--The official Committee record contains additional material here.]


    Mr. Knollenberg.  Mr. Woolery, we appreciate your 
testimony. Thank you very kindly. Would Dr. Guerrant please 
come forward for your testimony. Dr. Guerrant is with the 
American Society of Tropical Medicine.

                              ----------                              

                                          Thursday, April 24, 1997.

           AMERICAN SOCIETY OF TROPICAL MEDICINE AND HYGIENE

                                WITNESS

RICHARD L. GUERRANT, M.D., PRESIDENT

    Dr. Guerrant. Thank you very much. Good afternoon. I'm 
impressed by your introduction and these are obviously 
important--I'm actually a researcher and a physician who works 
on diarrheal diseases at the University of Virginia and also in 
Northeastern Brazil.
    As President of the American Society of Tropical Medicine 
and Hygiene, I represent probably 3,000 or more of some of the 
most dedicated people in our country. They are physicians and 
researchers who stand between the American public and some of 
the greatest threats, I think, to our future that we've been 
hearing about; tropical--infectious diseases.
    It's clear that in addition, since health is one of the 
most unsalable human values, that workers in international 
health are also some of our most valued ambassadors as well. 
It's clear that we are all working round the problem today of 
trying to urge, due to an increased emphasis on tropical 
infectious diseases.
    It is one of the most valuable investments we can make. 
Over 80 percent of the world's population of course lives in a 
tropical developing world and tropical infectious diseases kill 
more people than heart disease, cancer, and strokes combined. 
It is not surprising, I wasn't able to bring the children from 
Brazil, but it is not surprising when you look at the 
conditions under which many people live, they have problems 
like diarrheal diseases which constitute the leading causes of 
death.
    On a global scale, of course, that's over three million 
children each year who die. That's over 9,000 children each day 
who die with a diarrheal illness. In some of these areas one in 
four children don't make it to their fifth birthday.
    But actually one could almost tell you that even more 
devastating are the other three who live through eight or ten 
dehydrating diarrheal illnesses. We expect these countries to 
pull themselves up by their boot straps.
    So, from working over the last 30 years or so in Zaire, in 
Bangladesh, and in Brazil, I actually have three really growing 
concerns that tropical infectious diseases impose three danger 
threats to us and to the world.
    Emerging infections which you've been hearing about, the 
exploding population and the absence of improved health, and 
the erosion of our own humanity and leadership in this area. 
Emerging infections are obviously not just those in the tropics 
that are being infected, but those that affect us as well.
    Mr. Knollenberg. Doctor, excuse me, is that the water?
    Dr. Guerrant. That's the water supply around which there is 
a fence. I didn't have a wide angle camera. But that's not 
surprising that these are the problems that are so devastating.
    Mr. Knollenberg. Go ahead, Doctor.
    Dr. Guerrant. The same basic thing is happening in our own 
countries. The--parasites that plague Milwaukee water and have 
threatened the Washington, D.C. water are among the pathogens 
that we are learning about in Brazil. The cyclosporic parasite 
came in through Guatemalan raspberries last year, infecting 
over 1,000 people in the United States.
    Forty years ago, there were only about 300 items on our 
grocery store shelves. Now, that number is over 30,000. And the 
fresh Kiwi fruit that we demand here in Washington in the 
middle of January doesn't come from the Fairfax County Farms. 
So, emerging infections is number one.
    Number two, clearly the exploding population and the 
absence of real help; and here we have this pervasive notion 
that derives from Malthusian thinking that only famine and 
disease are going to control population over-growth. I'll be 
dealing with population later.
    In fact, we've been working in an area of Northeast Brazil 
where just the opposite is clearly true as it is around the 
world. Only good health is what controls the population over 
growth. In this little village we were studying diarrheal 
illnesses and we learned a lot about new causes of diarrhea. 
And we are learning right now about new approaches.
    Malnutrition is an emerging infectious disease with 
infections that are a major nutritional problem. And there are 
new exciting advances like adding glutamine to the rehydration 
therapy, making it ORNT. But in these villages, we also learn 
something probably even more important. Of 23 moms in the 
better homes, over the course of two and a half years of 
surveillance, one had a baby. Right across the tracks, 
literally, in the poor homes there were 32 moms where the 
devastation, disease, and poverty were so great that 17 of 
those moms had a baby.
    The difference between the population growth is staggering 
and is highly, highly significant in this little village. The 
same thing is true all around the world. In every country 
across our planet, only with a reduction in infant mortality 
have we seen a reduction in the population growth rates. We 
forget that in New York City in 1900, both infant mortality and 
fertility were greater than in Bangladesh or in Nigeria today.
    We've been through it in just the last couple of 
generations. Finally, it's the erosion of our humanity that may 
be as important as anything and the erosion of our leadership 
in dealing with these problems. So, it's clear when the 
Institute of Medicine comes out with reports that the United 
States is giving less, I guess, as a percentage of gross 
domestic product than at any time since 1950 as foreign aid, we 
are risking losing our leadership.
    I am sure that the opportunities are greater than they've 
ever been before. But unless we step up and meet these 
challenges we run the risk of losing the leadership position 
that I think we hold in the world today. One thing I'm sure of 
is that how these children do is going to determine more than 
anything else all of our destinies. Thank you very much.
    [The statement of Dr. Guerrant follows:]

[Pages 285 - 296--The official Committee record contains additional material here.]


    Mr. Knollenberg. Thank you very much Dr. Guerrant. We do 
appreciate your testimony. Your charts do illustrate a very 
interesting pattern. 1900 did you say?
    Dr. Guerrant. Yes, sir.
    Mr. Knollenberg. Thank you very much, Doctor.
    Dr. Guerrant. Thank you.

                              ----------                              

                                          Thursday, April 24, 1997.

       INTERNATIONAL UNION AGAINST TUBERCULOSIS AND LUNG DISEASE

                                WITNESS

HENRY YEAGER, M.D.

    Dr. Yeager. Thank you for having me speak this afternoon 
before the subcommittee. I'm Henry Yeager, a physician and a 
Member of the faculty, pulmonary and critical care faculty, 
over at Georgetown University.
    I've been active in the last year or 18 months as co-Chair 
of the District of Columbia Tuberculosis Task Force, control 
task force, which was a cooperative effort of the Public Health 
Department and the Medical Society and the Lung Association 
here in Washington.
    Today, I'm representing the International Union Against 
Tuberculosis and Lung Disease or the International Union. This 
is the oldest international non-government organization that 
deals with TB and more recently it has become with other 
matters relating to lung disease.
    The American Lung Association in which you are all familiar 
is the United States affiliate of the International Union 
Against Tuberculosis. TB is of course an increasing concern 
worldwide nowadays because we really haven't made much of a 
dent on the international problem when you look at some of the 
statistics.
    One-third of the world's population continues to harbor the 
tuberculosis germ in their body. And it is estimated that in 
the next decade, something like 90 million people will get sick 
from TB and about one-third of those will die from it. This 
continues to stagger my imagination.
    But anyway this is what the Public Health people tell us. 
By itself, TB is responsible for one-quarter of the preventable 
deaths that occur in the world. And it's still the largest 
cause of death from one single infectious agent. And incidently 
related to one of the previous speakers that we heard, it has 
become the leading killer, the leading opportunistic infection 
that kills people with HIV in several of the countries in 
Africa and in Asia.
    We've all heard about and been a little frightened by the 
increase in the drug resistant cases of TB that have been seen 
here in this country in New York and several other big cities. 
And really that problem has really only occurred because we've 
done an improper and incomplete job of using the drugs that we 
have. Most TB is drug sensitive.
    But when people get sick with a drug resistant, they are 
extremely difficult to treat and many will die, especially 
those that have HIV and other immune suppression, despite our 
best efforts. Those that don't die have a very prolonged and 
very expensive illness.
    We feel that this TB situation that we have now is both 
unacceptable and really unnecessary. The International Union 
has demonstrated that it has developed effective programs that 
have been tried in a number of different developing nations 
that combine technical and financial assistance. And even in 
the most poorly off countries, it can result in TB cure rates 
of around 80 percent, which is pretty good I think. We in the 
United States really can't afford to hid our heads in the sand. 
As of now, over a third of the U.S. TB cases occur in foreign 
born citizens.
    This percent continues to go up just about each year. 
Obviously we cannot build a wall around the United States and 
keep TB out any more than we can keep other things out that we 
would as soon have out. And until and when we get a vaccine for 
adult tuberculosis that's effective, which the most optimistic 
people think is at least 5, 10, 15, 20 years away. Widely 
varied estimates are offered.
    The best way to control TB in the United States really is 
to do all that we can do to help to control TB in the world. As 
I've said before, I think that supporting effective TB programs 
worldwide is not only the moral and the right thing to do, but 
it seems to me and to many others that have thought about it, 
it's really in our enlightened self-interest to support them 
too.
    So, what the International Union would like to recommend, 
Mr. Chairman, is four specific recommendations. First, that the 
U.S., through the Agency for International Development, should 
provide more TB control funding for nations that have a high 
prevalence of TB.
    We strongly urge the committee to direct the Agency for 
International Development to expand its international programs. 
I've been made aware that your committee has indeed called upon 
the AID to do more in this area for several years and to-date 
not a lot of progress has been made.
    At this time, we would urge that specific money might be 
directed to be used by AID working to establish non-
governmental organizations like the International Union to set 
up model TB programs where they would be useful. It is 
estimated that at least $10 million could be used quickly in 
the fight against TB in developing nations in this way.
    The second recommendation is that we help in establishing 
an international surveillance network to monitor TB and to 
train new experts in TB from the developing nations. An 
interagency group which has been working on infectious disease, 
probably emerging infectious diseases, has issued a report on 
TB that strongly recommended the development of a surveillance 
network.
    The International Union in cooperation with the Fogarty 
Center and with the CDC has begun developing such a network, 
but a little headway has been made. Progress is being hindered 
by the lack of available funding and the lack of trained 
personnel. It is estimated that at least $5 million is needed 
for this capacity building effort.
    The third recommendation is that the committee should 
encourage the Agency for International Development to work with 
CDC on an integrated global TB control program. Last year, the 
House Labor, Health, and Human Services Appropriations 
Subcommittee directed that CDC and AID look at collaborative 
efforts in controlling TB internationally.
    And the International Union is pleased that some discussion 
has taken place. We believe that the AID and CDC should be 
working together more in their efforts to control global TB. 
However we support increased funding for international control. 
We would not want any funds to be taken from domestic TB 
programs which we feel need what they are getting now.
    We feel, instead that new monies should be provided for the 
global effort. Finally, our last recommendation is that we 
think that the World Health Organization should be encouraged 
to provide additional, regular budget support for its own 
tuberculosis program.
    I think I've about used my time, Mr. Chairman, so thank 
you.
    [The statement of Dr. Yeager follows:]

[Pages 300 - 321--The official Committee record contains additional material here.]


    Mr. Callahan. Thank you very much, Doctor. We're not much 
in this committee on earmarks. But we will probably include 
some language in the report to strongly encourage, and maybe a 
little stronger than last year because evidently it didn't get 
through. But we will send USAID a strong message.
    Dr. Yeager. Thank you, sir.

                              ----------                              

                                          Thursday, April 24, 1997.

                 INTERNATIONAL EXECUTIVE SERVICE CORPS

                               WITNESSES

HON. CHRIS SHAYS, U.S. REPRESENTATIVE FROM THE STATE OF CONNECTICUT
HOBART GARDINER, PRESIDENT AND CEO

    Mr. Shays.  Mr. Chairman, I want to thank you for the 
opportunity to come and testify. We both will submit statements 
because I know you are way behind schedule. But I want to say I 
graduated from high school in 1964 and the International 
Executive Service Corps began.
    This is an organization that used to be in New York City. 
It is now in Connecticut. I was a Peace Corps volunteer and I 
saw the handiwork of this organization. These are men and women 
who have made their own living, have retired, but with awesome 
skills are they utilized by the International Executive Service 
Corps to serve overseas to help business men and women 
overseas, entrepreneurs grow their business.
    You basically see approximately 1,000 of these unpaid 
volunteers go each year, thanks frankly to in some cases the 
largest of the United States Government in term of its funding. 
I'm just here to express the concern that in 1994, the U.S. 
Government provided grants of $28 million.
    That dropped down to $26 million in 1995 and $24 million in 
1996. The International Executive Service Corps has basically 
had to curtail its program in Latin America. In the area that 
it would strike me that we would want to see prosperity and in 
an area it strikes me that we would want to see Americans 
helping South Americans in their business and the wonderful 
ties that develop from that connection.
    So, as Peace Corps in particular, I say to you that I hope 
some day I have the expertise to then come to the International 
Executive Service Corps and say, I'm retired. I'd like to serve 
overseas with the expertise I have. I hope that it's a thriving 
and successful organization. I know in some cases, it's very 
dependent on you, the Federal Government, for some of its 
resources.
    I would say the vast majority of money ultimately comes 
from the people who serve their free services. But the actual 
cash payment, the U.S. Government pays the major role. With 
this, I'll just introduce to you Hobart Gardiner who is the 
President and CEO of this organization. He can talk to some 
specifics and then we will get on our way.
    [The statement of Mr. Shays follows:]

[Pages 323 - 324--The official Committee record contains additional material here.]


    Mr. Gardiner.  Thank you, Chris. I don't want to repeat 
some of the remarks that Chris has made, but I would like to 
say that we are the most effective business development 
organization in the world. We've been at it for 32 years. We've 
operated in over 120 countries.
    We principally are geared to strengthening the private 
sector. We feel that it's essential to accelerate economic 
development and growth. The best way to do that is through the 
private sector. It creates jobs. It creates an environment 
which is conducive to a democracy because you can't have a 
democracy if you don't have a middle class and it creates 
stability which is good for foreign investment, for U.S. 
investors to be able to invest in a stable climate.
    In June of this year we will have completed our one 
millionth volunteer day. At that time, we will have created one 
million jobs or saved them overseas. This represents over a 
half billion dollars in volunteer donated services since our 
inception. What's unique about it is that we have a program 
which gets money from the clients in the host country.
    Over $200 million of our funding has come from client 
contributions and our clients have purchased almost $3 billion 
in U.S. exports over the period of our partnership. And 280 
clients have entered into joint ventures and other alliances 
with U.S. firms. I want to tell you a little story about Bob 
Bishop who was a Senior Vice President with the New York Stock 
Exchange. He was the Chief Regulatory Officer. He went to 
Hungary to help them open up a new stock exchange. He told them 
how to do it, what to avoid and what to insist on. And when he 
was completing his assignment, they wanted him to speak on 
capital formation at a local university.
    He asked what university. And they told him Carl Marx 
University. Well since then, the name of the University is the 
University of Budapest. As Chris has said, our funding has come 
from AID also from the Department of Defense, the Nunn-Lugar 
money and some small monies from the USIA.
    We've had a Defense Conversion Program in Russia. One of 
our clients is an organization that manufactures listening 
devices that were used for their spying overseas. We've now 
worked with that organization and they're the largest 
manufacturer of hearing aids in Russia.
    Another example of the quality of our executives is 
represented by Tom Reed who was formerly Secretary of the Air 
Force. He went over on some defense conversion projects and he 
maintained that one of the chief advantages was changing 
attitudes.
    I want to read what he said. This is Tom Reed. The point of 
all of this is that defense conversion has little to do with 
the conversion of facilities. It has everything to do with the 
conversion of the mindset of the leadership of these societies. 
In this undertaking IESC has played a historical role. And from 
my experience, IESC has set the stage for winding down of the 
Cold War to fusing the Soviet threat and in opening new vistas 
to the Soviet old timers. That's the best part because they're 
basically good people who deserve a better system.
    Another tribute to our program there comes from the New 
Deputy Prime Minister of Russia, Boris Nimsoft. He had been 
Governor of--Boris Nimsoft wrote the U.S. Embassy and I'm 
quoting what Boris Nimsoft said.
    Despite the occasion appearance here of other sources of 
technical assistance, IESC's efforts offer an unmatched mixture 
of knowledge of our people in regions, knowledgeable Russian 
staff with invaluable data on Russian enterprises to assist 
potential investors and evidence of understanding the 
importance of long-term strategies and relationships.
    We did a survey for what we did in business assistance in 
1995. And for each dollar invested, we increased the sales of 
our clients six times. We generated $2 in financing and we 
generated $4 in capital investment. From that $4 for each 
dollar, $38 million was spent in this country for American 
goods and services which exceeded the cost of assistance to 
IESC.
    We are known by independent sectors and AID as having the 
best system for tracking performance and measuring the impact 
of our development as a result of our assistance. So, when I 
quote what we've accomplished it's not because I'm proud of 
figures. I'm proud of what we've accomplished. I'd like to 
answer any questions you might have, Chairman Callahan.
    [The statement of Mr. Gardiner follows:]quote what we've 
accomplished it's not because I'm proud of figures. I'm proud of what 
we've accomplished. I'd like to answer any questions you might have, 
Chairman Callahan.
    [The statement of Mr. Gardiner follows:]

[Pages 327 - 336--The official Committee record contains additional material here.]


    Mr. Callahan.  Well, thank you and you Chris, too, for your 
testimony. I, for one, am very supportive. I listened to your 
testimony. This is your third year now. What you and your 
colleagues are doing is a great concept and I'm supportive of 
it.
    As we sometimes go through the world, we see a beautiful 
woman, such as your program, occasionally has a few warts. What 
it does is take away from the true beauty. It causes us some 
heartburn. And I don't know that I have the right facts but I 
have information that I'd like for you to get for me.
    Mr. Gardiner.  Certainly.
    Mr. Callahan.  And that is regarding Jamaica. It is my 
understanding that you assigned someone there. And that 
individual was there for nine years. And that he lived down 
there in a suite, a hotel room on top of a luxury hotel, 
according to what I was told, for nine years.
    And to the best of the ability of the very responsible 
individual who told me that, he doesn't ever know of anything 
that he did. So, is that true? I have no idea, but I have a 
tremendous respect for the individual who told me that. And he 
was in the position to at least get rid of him.
    But when you have problems like that, which I'm sure you 
are unaware of, it causes problems of perception. And if you 
could give me any idea of, number one, of who was stationed in 
Kingston, Jamaica for nine years, why, and what did he 
accomplish during that nine-year period? And also some 
information whereby you have anyone on assignment for longer 
than a year.
    You know, my perception of what you do was that these were 
volunteers who are retired, successful people who didn't want 
to just sit home or play golf, but instead wanted to dedicate 
their knowledge to help other people. And that they were sent 
on a temporary assignment to utilize their knowledge. And 
that's the total pure perception that I had until I was 
informed of this probably isolated problem in Kingston.
    So, if you could just check your Kingston files and see if 
you had an individual that was there for a long period of time, 
and then give me a report. It doesn't have to be formal. We're 
not going to make a professional inquiry out of this. We're not 
going to let it impact our support of your program. We're 
trying to preclude some erosion of support in your program if 
things like this are taking place.
    I know if either one of you know anything about that taking 
place--so in order that I have the answers if I'm ever 
approached, just give me a list of the people who have been on 
assignment for longer than one year, and give me an account for 
that activity in Kingston, Jamaica.
    Mr. Callahan.  He's no longer there?
    Mr. Gardiner.  No, he is not. I'll be very happy to give 
you that information, Mr. Chairman.
    Mr. Callahan.  Are you familiar with that individual?
    Mr. Gardiner.  Yes. And I will get the facts back to you. I 
would mention and Chris said this that we're really concerned 
about the reduction in funding which has forced us to curtail 
our program in Latin America.
    We were previously so active that over 60 percent of our 
activity some years back was in Latin America. The reason for 
it is, is that 19 other countries have copied IESC. Flattery is 
great. Imitation is a wonderful thing. But know that we're 
pulling out of Latin America, they're going in and we're 
concerned because of the investment that we've made. We're 
trying our best to see how we can have a leave behind program.
    Mr. Callahan.  We realize that problem. It is not only to 
your particular organization, it's the philosophy of this 
Administration. They just don't seem to know or to think that 
there is any country other than Haiti and this Hemisphere.
    We went to a retreat last week. The President was there, 
the Vice President and the Secretary. And I was so thrilled to 
hear them finally say that we are going to concentrate on this 
Hemisphere, and in a sense telling me that I have not given 
them enough money when we're the ones who've been insisting 
that they spend money in this Hemisphere. And you're right. The 
Japanese and the Chinese and all of these nations are letting 
us pump millions of dollars into Haiti because of the human 
rights problems and the political problems of Haiti while the 
Japanese and the Chinese are taking over the economy of South 
America, Central America and the rest of the Caribbean.
    So, this committee is very aware of that. And according to 
the President last Wednesday night, he said he is very 
supportive of that. So, we're going to give him the 
opportunity. Last year, we pleaded with him to recognize this. 
And we told them they could spend any amount of money they 
wanted in this Hemisphere out of the $12 billion or so we gave 
them.
    They could spend it wherever they wanted. But, we said, you 
couldn't spend but 20 cents out of that dollar in Haiti. You 
know that's our problem. The committee went to Haiti. You 
couldn't solve Haiti's problems with $50 billion, but you could 
make progress in other areas of the Caribbean and other areas 
of Central America and South America with a limited amount of 
money.
    And that's what the Germans, the Japanese, and the Chinese 
are doing now. They control the Panama Canal. We went there. 
Now, the Chinese business interest control the traffic through 
the Panama Canal. You mentioned in your testimony something 
about one of your first endeavors was to Panama to get the 
Panamanians to teach them how to rebuild their bases or to 
transform them into private enterprises.
    Fortunately or unfortunately they didn't pay much attention 
because they're letting them just deteriorate to nothing. And 
they're letting the Chinese and the Japanese and the Germans 
just take over everything there. It's a sad commentary for 
Panama as well.
    Mr. Gardiner.  Right in our backyard.
    Mr. Shays.  Mr. Chairman, who would you like us to make 
sure this information gets to and what's the date on it?
    Mr. Callahan.  You know I don't need a formal report. I 
just know that the situation has been told to other Members of 
Congress. And if it comes up on the Floor, I want to be able to 
answer it.
    Mr. Gardiner.  I'll be happy to give that to you.
    Mr. Callahan.  I want to be able to say, yes, it was bad. 
Yes, it has been corrected. No, it's not happening now. No, 
it's not something that was prevalent throughout the entire 
operation. It was an isolated incident.
    Mr. Shays.  Thank you so much.
    Mr. Gardiner.  Thank you, Mr. Chairman.
    Mr. Callahan.  Mr. Cody and Mr. Nassif. We will just take 
five minutes and give our Reporter an opportunity to go out and 
get a breath of fresh air. I'm sorry that we're holding you 
folks up so long. We're going to get to all of them before it's 
over with.
    [Recess.]
    Mr. Callahan.  The committee will come to order. Mr. Cody 
and Mr. Nassif.
                              ----------                              

                                          Thursday, April 24, 1997.

                                LEBANON

                               WITNESSES

GEORGE T. CODY, AMERICAN TASK FORCE FOR LEBANON
DANIEL NASSIF, COUNCIL OF LEBANESE AMERICAN ORGANIZATIONS

    Mr. Cody.  My name is George Cody. I'm the Executive 
Director of the American Task Force for Lebanon. I'd like to 
thank you, Mr. Chairman and other Members of the subcommittee, 
for allowing me to present the public testimony today on behalf 
of our Chairman, the Honorable Thomas Nassif and of course our 
entire membership.
    I'd like to also, if I may, have my statement included as a 
part of the record.
    Mr. Callahan.  We will submit this for the record.
    Mr. Cody.  During its 15-year civil war, Lebanon sustained 
$25 billion in direct damage to its infrastructure according to 
a 1991 U.N. assessment. This is an enormous burden on a country 
with an estimated 1996 gross domestic product of $8 billion and 
a public debt of over $11 billion.
    This debt is a direct result of the legacy of war, a weak 
tax base, and the financial requirements of a Reconstruction 
Program in the absence of sufficient concessional finance. The 
mounting debt is raising serious concerns regarding the 
sustainability and its adverse impact on development. Lebanon's 
reconstruction of infrastructure is designed to accommodate an 
economy geared toward an era of Middle East peace, which 
unfortunately has not been realized.
    We are grateful that the United States hosted the Friends 
of Lebanon Conference to assist Lebanon's reconstruction in 
Washington on December 16, 1996.
    The Friends of Lebanon Conference was important because the 
United States lent its prestige in assembling donor countries 
and multi-lateral lending institutions. During the conference, 
the United States pledged $20 million to Lebanon.
    For fiscal year 1997, Lebanon received only $2 million in 
spite of its great need. Before the Friends of Lebanon 
Conference, plans were to phase out all assistance to Lebanon 
by the year 1999. Let me say, Mr. Chairman and Members of the 
subcommittee, that this would not be a welcome development as 
it undercuts U.S. efforts of promoting the peace process and 
democracy in the Middle East. The Lebanese American community 
will be vigilant in ensuring that Lebanon continues to receive 
foreign assistance while it is redeveloping because it is in 
the interest of the United States.
    The United States Agency for International Development has 
projected a development program for Lebanon of $12 million per 
annum over the next five years. USAID feels that much can be 
accomplished with this level of foreign assistance and we 
concur with that assessment. All USAID projects in Lebanon are 
administered by U.S. Registered PVOs. Also, by the end of May, 
USAID will permanently station an officer in Lebanon.
    The presence of a USAID officer will enhance the level of 
cooperation between PVOs and other donors and ensure that 
accountability meets Congressional standards during this period 
of budget cutbacks.
    The new USAID strategy has three objectives which we feel 
covers niches receiving little attention from other foreign 
donors, who have mainly targeted the infrastructure. The 
objectives are reconstruction, expanded economic opportunity, 
democracy in governance, and improved environmental practice. 
We especially want to applaud the work that USAID is doing in 
the areas of rural community development, the Beirut Stock 
Exchange, the Environmental Center for Research and Development 
at the American University of Beirut, and the reorganization 
and computerization of the central control agencies such as the 
General Accounting Office, Central Inspection Board, and the 
Civil Service Board.
    A proposal that the World Bank is considering, has the 
potential to address some of Lebanon's socioeconomic problems. 
Although Lebanon has a prosperous banking sector, Lebanese 
banks have historically been commercial banks offering trade 
finance. Long term credit is almost non-existent. Banks are 
required to keep currently 10 percent of their total deposits 
on reserve with the Central Bank of Lebanon. It has been 
proposed that the Central Bank make available one percent of 
this idle money for long-term loans of between $5,000 and 
$20,000 for small and medium sized enterprises outside of 
Greater Beirut. The loans will be administered by commercial 
banks which have over 200 branches in the villages. This 
project is critical because $1.6 million out of Lebanon's 3.1 
million people reside in Greater Beirut due to lopsided 
development and rural unemployment. Viable economic activity 
out side of greater Beirut would alleviate the tremendous 
strain on Beirut's physical and social infrastructure. If this 
project proceeds, the U.S. could provide $2 million in start-up 
capital.
    We urge direct funding of the American Schools and 
Hospitals Abroad Program for fiscal year 1998. This program 
supports such fine institutions in Lebanon as the American 
University of Beirut, the Lebanese American University, and 
International College.
    In recognition of the Lebanese Army's role as a symbol of 
national sovereignty, we urge continued training of Lebanese 
Army personnel under the IMET Program. And we urge that non-
lethal equipment continue to go to the Lebanese Army under the 
Excess Defense Articles Program. Of course, we would urge 
continued support for the lifting of the travel ban to Lebanon. 
Thank you very much, Mr. Chairman.
    [The statement of Mr. Cody follows:]

[Pages 342 - 349--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you, Mr. Cody. Let me just follow 
briefly and tell you that this committee does fund and supports 
the IMET Program.
    Mr. Cody.  We appreciate that.
    Mr. Callahan.  We try not to direct the Department of 
Defense on which countries they include. Sometimes when there 
are human rights problems we encourage them to do something 
else with their money. But has the Defense Department indicated 
that they're cutting back on the IMET Program?
    Mr. Cody.  No, no, no. We're just offering--obviously, we 
want to, for the record, make sure that that's a part of the 
record. We appreciate that.
    Mr. Callahan.  I think on the American University, I wrote 
a letter, to suggest to them that they fund it. We do not 
earmark money, but we strongly suggested that the American 
University have continued support.
    Mr. Cody.  With your permission, Mr. Chairman, I'd like to 
get a copy of that letter and circulate it among the friends of 
Lebanon. I think it is important that they know that you have 
their support.
    Mr. Callahan.  Also, the World Bank proposal I guess, 
that's left up to the World Bank.
    Mr. Cody.  Right. But that's a serious proposal.
    Mr. Callahan.  What I'm saying is I don't know who would 
make the proposal to free-up 10 percent of their deposits.
    Mr. Cody.  The Lebanese Government would probably be it.
    Mr. Callahan.  I don't know what we could do.
    Mr. Cody.  I think it's more indicating that there is some 
intent there for initiatives on the part of the Lebanese 
Government in cooperation with the World Bank to try and do 
some things in the private sector.
    Mr. Callahan.  Why don't you just say to the Lebanese 
Government that you've talked with me about this, can't speak 
for the committee, but it sounds good to me.
    Mr. Cody.  We think it's a great idea. I will convey that 
message to appropriate people as well as officials of the World 
Bank.
    Mr. Callahan.  Thank you very much.
    Mr. Cody.  Thank you, Mr. Chairman.
    Mr. Callahan.  Ms. Pelosi.
    Ms. Pelosi.  I was interested. I think that the World Bank 
proposal sounds very interesting. I think you should speak for 
the committee on that one, Mr. Chairman and not speak for the 
committee on IMET.
    The Chairman said that except when there are human rights 
violations then it's in play, but that's fascinating. The 10 
percent anyway--we've talked about so many other tactics to get 
micromoney, although this is not what I would call micro, 
$5,000 to $20,000, but moderate sized. It sounds great.
    Mr. Cody.  I can tell you just as a matter of information. 
There is a delegation going in May and in June from the World 
Bank to pursue this initiative. It's a great idea. We'll track 
it closely and keep the committee apprised of its progress.
    Ms. Pelosi.  Our Chairman has a good eye. I'm glad that you 
wrote that letter, Mr. Chairman.
    Mr. Cody.  Thank you very much Mr. Chairman.
    Mr. Callahan.  Mr. Nassif. I hope that you----
    Mr. Nassif.  Well, these are supporting documents; one, 
from the Lebanese Lawyers Association about the human rights 
conditions in the country; and one from the Human Rights Watch, 
and from two French based human rights organizations.
    My name is Daniel Nassif and I am testifying on behalf of 
the Council of Lebanese American Organizations. The Council is 
a federation of local, regional, and national organizations 
representing the aspiration of three million Americans of 
Lebanese descent. The Council works to further the cause of 
freedom and sovereignty for Lebanon commencing with the 
immediate, complete and unconditional withdrawal of Syrian 
occupation forces from Lebanese territory.
    The Council acts to promote ties of friendship and 
cooperation between the United States and Lebanon based on the 
principles of democracy and human rights. The situation in 
Lebanon continues to be a matter of very deep concern for all 
American Lebanese. The international community has allowed the 
dignity of Lebanon to be subjected to Syrian hegemony and 
tyranny for the past 21 years.
    Yet, this occupation has failed to prove itself as a factor 
of effective, or stability, normalcy, or moderation. To the 
contrary of the Syrian regime has turned Lebanon into a free 
zone for military provocations, drug trafficking, and terrorist 
activities.
    Lebanon is obviously no longer an independent country. More 
than 40,000 Syrian troops control 90 percent of its territory. 
And Syria-installed officials occupy all positions of authority 
within Lebanon's government, parliament, and military. The 
country's domestic and foreign policies now reflect Syrian 
objectives not Lebanese needs.
    The Lebanese are not the real players on the political 
scene. No decision can be taken without authorization from 
Damascus. It is common knowledge today in occupied Lebanon that 
only a fraction of the huge amounts of revenues collected by 
the government through--taxation in the form of higher prices 
on all basic commodities actually make it into the government 
coffers to be spent on reconstruction and other beneficial 
projects.
    The bulk of the remainder ends up in the secret bank 
accounts of a handful of Syrian and Lebanese officials. In a 
revealing article on April 16, 1997, the Christian Science 
Monitor exposed the roster of corruption plaguing Lebanon 
today. ``Daily life is becoming ever more frustrating as 
corruption permeates the Lebanese bureaucracy'' wrote the 
article. It spoke of rampant telephone mafia where the periodic 
extortion of cutting and reconnecting telephone lines for a 
bribe are common place.
    Bribery surfaces everywhere, even in the domain of 
education where those wishing to pass government examinations 
habitually pay for that privilege. ``A small clique of 
government employees was caught selling Lebanese University 
diplomas earlier this year. None of these employees have ever 
been prosecuted.'' Needless to say, Lebanese and Syrian 
officials live above the law, which in any case is applied 
haphazardly. Such unreliable legal umbrella has made many 
potential foreign investors reconsider opening any business in 
Lebanon. And those who are already in the country are thinking 
seriously about pulling out.
    The Monitor quoted an MCI Communications official as saying 
that they are unable to continue providing direct access phone 
service between the U.S. and Lebanon due to widespread 
racketeering. Behind all the hype about Lebanon's economic 
recovery and reconstruction is a carefully orchestrated public 
relations campaign by the Syrian controlled government to 
obscure the reality of Lebanon's miserable economic and 
political situation. The occupation regime has only succeeded 
in raising taxes on an already impoverished Lebanese 
population.
    The purchasing power for the average Lebanese has decreased 
by more than 40 percent in the last three years. The middle 
class in the country has all but vanished. The majority of 
Lebanese now live below the poverty line and in constant fear, 
while 1.2 million illegal Syrian workers, a number equal to 
one-third of Lebanon's population, transfer an average of $300 
million of badly needed funds to Syria each month.
    Consequently, the Lebanese unemployment rate has been 
driven up to a record of 35 percent. Government projects and 
contracts are mostly awarded to Syrian-installed officials, 
their associates or Syrian companies. A large portion of the 
funds located to these contracts end up in the pockets of 
corrupt government officials and their Syrian patrons.
    Typically, less than half actually goes toward funding of 
the intended projects. The--Lebanese merchants are complaining 
that the layer of Syrian authority that hovers over most 
transactions has increased their costs. This Syrian component, 
as one calls it, must be factored into everything from 
commissions on large public works contracts to customs duties.
    Top government officials have been afforded their own 
special pools of public money to dispense as they please 
without oversight. These huge slush funds are a major reason 
Lebanon's public debt has ballooned to more than $14 billion 
compared to only $1 billion in 1990. Lebanon's budget deficit 
is currently running at more than 50 percent of government 
revenues, an incredible 42 percent of the 1997 budget is being 
used to service the public debt.
    The Council strongly recommends that all appropriations by 
this committee to Lebanon be channeled through responsible 
private assistant organizations already in place in Lebanon 
which can and will verify that the aid is actually received by 
the Lebanese people.
    The Council supports the report of the Presidential Study 
Group entitled ``Building for Security and Peace in the Middle 
East,'' released earlier this year by the Washington Institute 
for a Near East policy.
    The report concluded that through academic and professional 
exchange programs, American education institutions in Lebanon 
and the work of American democracy-promoting foundations, the 
United States should provide encouragement and assistance to 
those individuals and institutions working for the promotion of 
human rights, basic freedom and the Rule of Law.
    In a letter to the Secretary of State, Madeleine Albright 
on February 10, 1997, 25 U.S. Representatives lead by 
Congressman Eliot Engel of New York and Congressman Jim Saxton 
of New Jersey urged that the United States should take all 
necessary steps to ensure that American assistance is not 
channeled through the Assyrian-dominated Lebanese Government 
and thus does not fall into the wrong hands.
    The Council emphasizes that no aid should go through Syrian 
controlled governmental agencies until free and fair elections 
are held. No election in Lebanon will be acceptable under the 
present circumstances of total Syrian control over Lebanese 
affairs.
    Both the Council and I appreciate the opportunity to 
express our concerns and suggestions before this subcommittee. 
Thank you.
    [The statement of Mr. Nassif follows:]

[Pages 354 - 441--The official Committee record contains additional material here.]


    Mr. Callahan.  Well, we thank you, sir. Ms. Pelosi asked 
someone from the Lebanese community this morning, I think, who 
said not to give your money to the government. Who do you 
suggest we channel it through, through the Red Cross?
    Mr. Nassif.  The Red Cross, the Catholic Relief 
Organization Services, the American institutions like the 
American University of Beirut. There are a lot of organizations 
doing a lot of work on the ground that could receive that. And 
the Embassy in Beirut know about those organizations.
    Mr. Callahan.  Well, I guess you heard our testimony about 
my feelings that Syria should be gone. We're not in on the 
negotiations nor do we want to be. But I have not mentioned it 
to Secretary Albright, but I did repeatedly to Secretary 
Christopher. I told him that the position of the United States 
is that we should demand that Syria get entirely out of 
Lebanon.
    Mr. Nassif.  Thank you, Mr. Chairman.
    Mr. Callahan.  I hope that this is the position of the 
Administration. If not, we will be happy to encourage them to 
take that position.
    Mr. Nassif.  Thank you, Mr. Chairman.
    Ms. Pelosi.  Well, certainly it is in keeping with the U.N. 
resolutions of complete, unconditional withdrawal that you've 
referenced in your statement of all foreign forces from 
Lebanese soil.
    Mr. Nassif.  Thank you.
    Ms. Pelosi.  Hopefully, that will be sooner rather than 
later. It is essential to the Middle East.
    Mr. Nassif.  I hope so.
    Ms. Pelosi.  Thank you.
    Mr. Nassif.  Thank you.
    Mr. Callahan.  Mr. Kohr.

                              ----------                              

                                          Thursday, April 24, 1997.

                AMERICAN ISRAEL PUBLIC AFFAIRS COMMITTEE

                                WITNESS

HOWARD A. KOHR, EXECUTIVE DIRECTOR

    Mr. Kohr.  Good afternoon. First of all, it is a privilege 
to be before this subcommittee this afternoon. I also want to 
introduce my two colleagues who are here, Brad Gordon and Ester 
Kurz.
    Mr. Callahan.  We know them both well.
    Mr. Kohr.  I also want to express at the outset my 
appreciation to this subcommittee for its support for Israel 
over the years. It's been very critical.
    I want to urge the committee to support the 
Administration's request for the full $3 billion in assistance 
to Israel for fiscal year 1998. This subcommittee has always 
understood the importance of a strong U.S.-Israel relationship 
for promoting U.S. interest in the Middle East, for Israel's 
survival, and for enabling the peace process to move forward. I 
also want to take note here and commend the Chairman for 
leading a delegation to the region this past January, which I 
thought was a very important signal of the importance of the 
region to this subcommittee and to U.S. interests. I want to 
thank you and encourage you to make more visits to the region. 
That's why I think it is important for Members to continue to 
visit.
    This is a critical time in the Middle East. It is a 
critical time for Israel, for American interests in the region, 
and for the future success of the peace process.
    Once again, Israel will need full support of this 
subcommittee as it has so often in the past. At home, Israel is 
trying to change its economy in some very dramatic ways by 
opening it up to more free market enterprise and private 
investment.
    This is a tremendous challenge undertaken at the same time 
that it continues to face threats to its security from 
terrorism, from the growing numbers of levels of sophisticated 
conventional weapons in the region, and most ominously the 
threat and spread of weapons of mass destruction in the region.
    It is at this point in particular that I want to take note 
of information that the Russians may be providing missile 
technology as well as nuclear technology to the Iranians. These 
transfers could someday pose an existential threat to Israel as 
well as dramatically escalate the threat to U.S. troops and 
U.S. interests in the region. And we hope that this is an issue 
that will receive the attention it needs even as we try to gain 
Russian acquiescence to the expansion of NATO. The transfer of 
dangerous technology to Iran cannot be allowed.
    Turning to the peace process, I want to stress the 
commitment of the Government of Israel to that process. Prime 
Minister Netanyahu has engaged in long negotiations leading up 
to the redeployment of Israeli forces from Judaism's second 
most Holy City. The Government of Israel has also released 
female Palestinian prisoners and that has eased the closure of 
Palestinian workers from the territories seeking work in 
Israel, even in the fact of continued outbreaks of violence and 
terrorism. It has committed to redeploy its forces from another 
50 villages representing 200,000 people in the West Bank, an 
area that is three times the size of what had previously been 
under the control of the Palestinians. Now, more than 90 
percent of the Palestinian population will live under the 
exclusive authority of the Palestinian authority.
    All of this was done at considerable political risk to the 
Prime Minister and his governing coalition. Despite these 
steps, however, there has been renewed terrorism. For the peace 
process to succeed--and we all wanted it to succeed--the 
Palestinian authority must spare no effort to stop terrorism 
and violence. It must give a red light to terrorism. That is 
the solemn obligation Chairman Arafat and the Palestinian 
authority undertook at the start of the process. That 
commitment cannot be turned on and off with the ups and downs 
of what inevitably will be a long, complex, and sometimes 
frustrating peace process.
    I also want to express disappointment with recent Egyptian 
actions. Egypt was the leader of the Arab world inseeking peace 
with Israel, an act of great courage. And that is why it is so deeply 
disappointing to see an Arab League meeting held in Cairo recently 
calling for the resumption of the economic boycott of Israel. It is 
also deeply disturbing to see that we do not see a sustained effort to 
stop the vicious anti-Semitic caricatures in the semi-official Egyptian 
Press. The central principle of moving forward in the peace process is 
direct negotiations between the parties. And it is that principle that 
we must get back to again if there is to be continued progress.
    Once again, Mr. Chairman, I want to thank you and Members 
of the subcommittee for the tremendous leadership you have 
provided on behalf of U.S. interests, Israel, security, and the 
peace process. We're going to need this leadership in the 
coming months as the difficult issues and the final status 
talks between Israel and her neighbors takes place. Thank you 
very much.
    [The statement of Mr. Kohr follows:]

[Pages 445 - 471--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you, Howard. Ms. Pelosi.
    Ms. Pelosi.  Thank you very much, Howard, for your 
testimony. Our committee has a long history and a strong 
commitment to Middle East peace. I was interested at the threat 
that you said that the transfer of weapons and the technology 
for weapons of mass destruction presented to that peace in the 
Middle East, especially since we spend so much money each year 
and invest so much money to promote the Middle East peace.
    I think that's a good thing. It's in our national interest 
to do so. I was curious though that one of the biggest 
proliferators of weapons of mass destruction to Iran is China 
and that you made no mention of that in your testimony. Indeed, 
we have a boycott on Iran. The Administration has chosen to 
ignore the transfer of that technology with evidence very 
conclusive that it is taking place.
    When asked about it, they'll say, we have to view that in 
the light of their increased dependence on Persian Gulf oil, 
it's like two no's make a yes. We are going to sanction our 
trading partners if they trade with Iran, to a certain extent, 
but if it happens to be technology for nuclear, chemical, or 
biological warfare, that being another cause for sanction, a 
double sanction equals no sanction. Certainly the Russian 
transfer of technology is something that we have to stop as 
well. I think that Iran is the bully in the neighborhood, more 
than the bully, and is the source of some of the terrorism. The 
missiles that China has sold to Iran is already contributing to 
the destablization of the region.
    Mr. Kohr.  First, Congresswoman Pelosi, I want to say that 
you are absolutely right about China. I don't mean to list the 
other countries I think that we can pay attention to whether it 
be China or North Korea as well. Iran does pose a danger to 
U.S. interests. Something must be done.
    All countries that deal with Iran in the area of missile 
technology, and weapons of mass destruction, and the technology 
to build those components, must have everyone's attention. The 
reason I focused on Russia more than China or North Korea or 
even frankly some of our European allies is the fact that 
Russia's involvement frankly at this stage, and this could 
change, is qualitatively different and new.
    The kind of technology that they are providing, at least 
the information that we have, the kind of technology that it is 
providing, as well as the technicians that are Russian, are 
from more developed than the Chinese which is why I focused on 
Russia. But it does not mean at all that we don't consider 
China's involvement with Iran a serious matter. We do.
    Ms. Pelosi.  I appreciate that. What was interesting to me 
was that Mr. Dine came in for his presentation. You will recall 
his enthusiastic support of your position of no earmarks, Mr. 
Chairman. Interesting; wasn't it?
    Mr. Callahan.  Or was it?
    Mr. Kohr.  I've had that conversation with Mr. Dine.
    Ms. Pelosi.  I hardly recognized him.
    Mr. Callahan.  In your testimony you indicated 
dissatisfaction with the actions of the Egyptians. What would 
you recommend we do about it? Do you think we should cut aid to 
Egypt?
    Mr. Kohr.  Well, I'm here to talk about U.S.-Israel 
relations.
    Mr. Callahan.  But you brought it up as a concern that you 
have about the Egyptians and the caricatures and all of that. I 
mean, the only thing we have to punish them with is money.
    Mr. Kohr.  I think there are some other diplomatic tools--
as well that this committee needs to take a look at. I think it 
is important that this committee do take a look at the kinds of 
actions the Egyptians have been engaged in over the course of 
the last year regarding the peace process.
    Mr. Callahan.  We took a look at that when my committee was 
there. We approached the President about that, Mr. Mubarek. We 
met with him about it. We chastised him with respect to the 
perception that he was creating and talked about the difficulty 
of our ability to go to the Floor with that perception being so 
prevalent. It is a true indication that the Israel lobbying is 
much stronger than the Egyptian lobbying.
    I told him at least I got invited to, what was it last 
night or Tuesday night?
    Mr. Kohr.  Oh, the----
    Mr. Callahan.  The--by some of my Jewish friends and I 
didn't even get a Christmas card from Mubarek.
    Ms. Pelosi.  He is Muslim I think.
    Mr. Callahan.  I recognize that. But I mean we've got a 
whole lot to do, and you won't tell me. I asked the President. 
The other night I asked Al Gore about it at dinner and he said, 
``I didn't hear that. He said, I didn't even hear that.''
    So, we need some advice. Israel is our friend. You are 
telling us that Egypt is not doing right. That they're 
interfering with the peace process. The only thing we do is 
give them money. Are you telling us that we should cut Egypt or 
are you not?
    Mr. Kohr.  I think you need to explore ways to indicate to 
the Egyptians that this is a very serious matter. The hosting 
of a conference of the Arab League in Cairo a few weeks ago 
which came out with the resolution that called for the 
reinstatement of the boycott, something the U.S. has been 
against from its inception, is a very serious matter. You will 
need to take a look at the options that you have before you to 
send a message.
    Mr. Callahan.  What do you think about----
    Mr. Kohr [continuing]. The relationship between the United 
States and Israel. That relationship is manifest in the 
assistance that this subcommittee, and the full committee and 
the Congress provides to Israel. It is the linchpin for not 
only U.S. interests and the security of Israel, but obviously 
moving forward in the peace process. So, from that point of 
view, I think it's something that merits, and to which I would 
urge continued support.
    Mr. Callahan.  So, you're asking us to look at this 
provision of monies.
    Mr. Kohr.  I think that would be the inference of my 
remarks.
    Ms. Pelosi.  In terms of aid to Egypt?
    Mr. Callahan.  That's more than I've done with anybody 
else. Most of them won't answer. Most of them, however, I don't 
even make them answer. Anyway, we appreciate your testimony.
    Ms. Pelosi.  Mr. Chairman, may I just ask a question?
    Mr. Callahan.  Sure.
    Ms. Pelosi.  I appreciate your testimony too, Howard. I did 
bring up the issue as the Chairman did on his trip and with 
President Mubarik's visit here. I brought, in fact, the 
cartoons, and all of the rest when I went to the meeting with 
him. Of course his response was, first you talk to me about 
human rights. Then you want me to control the newspapers and 
the cartoons that they write.
    But whatever the degree of freedom of the press is in Egypt 
is not what I'm attempting to bring up now. But I do think that 
to the extent that we bring up these subjects with President 
Mubarik, it is important. He has to hear from us on them and do 
whatever he can do in furtherance of peace so that certain 
ideas and impressions don't get too far down the road.
    Mr. Kohr.  No, it's critically important. Not only are 
these issues raised when you have visiting heads of state here, 
there is also the follow-up that takes place. Has there been 
progress? Has there been public condemnation by President 
Mubarak about these anti-Semitic caricatures in the press?
    Mr. Callahan.  His response to that question when we posed 
it to him when we were there was he doesn't control the press.
    Mr. Kohr.  Without getting into the question of who 
controls and doesn't control the Egyptian press, the fact is 
that the President has it within his authority to say that this 
is not the kind of thing that he finds conducive in the press 
in his country, just as there are examples of anti-Semitism in 
the United States that crop up or racism that crops up. The 
leaders of this country speak out against those things.
    Mr. Callahan.  To do with this.
    Mr. Kohr.  Pardon?
    Mr. Callahan.  What's my Irish have to do with this?
    Ms. Pelosi.  Mr. Chairman, I do think that we have to 
understand the political situation Mr. Mubarak is in, too, and 
whatever it is he does about the press, we hope those unfair 
stereotypes would not continue. But there is a setting of a 
tone that a President can do in our country and in other 
countries as well, especially when peace has its fragile 
moments.
    I, myself, frankly am more concerned about the 
reinstatement of the boycott than caricatures in the press. But 
I understand why that's a problem as well. It's at these kinds 
of hearings we always get to something. We have so many areas 
of agreement that when some of these need a little more help, 
we focus on them. But nonetheless, your testimony is very 
valuable to us. Thank you for the work you do, Mr. Kohr.
    Mr. Kohr.  Thank you, and thank you, Mr. Chairman.
    Mr. Callahan.  Mr. Hellman.
                              ----------                              

                                          Thursday, April 24, 1997.

             THE CHRISTIANS' ISRAEL PUBLIC ACTION CAMPAIGN

                                WITNESS

RICHARD A. HELLMAN, PRESIDENT
    Mr. Hellman.  Mr. Chairman, Congresswoman Pelosi, and 
staff, it is a great pleasure to be here and I thank you for 
the opportunity to testify respecting the fiscal year 1998 
Foreign Operations appropriations.
    Since my prepared statement, which I understand will be 
included in the record, contains the major arguments and 
discussion, I will emphasize just a few key issues and answer 
some of the questions which keep occurring in this hearing.
    It is important that this Congress certainly has taken a 
major step in terms of importing American principles and values 
into domestic policy. I believe that it also is time and I 
believe it is what you are doing to import major American 
principles and values into the whole area of foreign policy and 
foreign aid as well.
    In the aftermath of World War II, we did a wonderful thing 
in the Marshal Plan in effect to give to others new hope and it 
has in turn ``been given unto'' us in the forum of the free and 
viable countries of Europe and Japan. Today however, in 
tightening budget circumstances, we need to look and see where 
does foreign aid makes sense? Where does it really effectuate 
the best of American principles and values.
    First and foremost, CIPAC, as the principal Christian 
registered lobby for a strong U.S.-Israel relationship with key 
individuals at all levels down to the states and the 
Congressional Districts, do continue to support foreign aid for 
Israel strongly. As in the last two years, however, I also 
would say that there is a Biblical promise to Moses and his 
descendants. We should think about now at this time of Passover 
whereby the Lord promised Moses that thou shalt lend to many 
nations, and not borrow.
    We look toward that day when Israel will lend, as indeed it 
does help nations today, but will lend on a greater basis and 
will not have to borrow and will not have to accept foreign 
aid. We believe that day is coming. We applaud Prime Minister 
Netanyahu's plan to dispense with foreign aid as soon as that 
is practical and feasible.
    We know, for example, that Israel is in the top fifteen 
nations in quality of life, including economic quality of life. 
In fact they ranked 13th according to the Economist Magazine 
the year before last. Today, however, foreign aid still is 
needed so that Israel may absorb the immigrants who are coming 
in from the various countries and so that Israel may continue 
to maintain a strong defense posture.
    With respect to Chairman Yassir Arafat, and the PLO, we 
share the misgivings that have been stated earlier by other 
witnesses. We believe that they are in substantial non-
compliance with the agreements that they made with Israel which 
the PLO made with Israel, for which the United States in effect 
was the broker and a witness.
    We recommend a complete cut-off of aid to the PLO 
forthwith. If humanitarian aid is necessary, we believe it 
should go through private development organizations and not 
governmental organizations to help the people, but we do not 
believe that we should aid the Palestinian authority while they 
are virtually complete non-compliance. They have not amended 
their covenant which in 31 of its 33 articles calls for the 
elimination of Israel. They have not transferred, extradited if 
you will, terrorists, accused terrorists, to Israel for trial, 
nor have they tried and convicted them within their own 
judicial system. There are many other violations of those 
agreements.
    With respect to U.S. foeign aid for Egypt which has come up 
today, we believe that it not only is a bad or a tragic or a 
terrible thing that Egypt continues to allow its controlled 
press to print anti-Semitic statements and that Egypt is moving 
toward a reimposition of the economic boycott against Israel, 
but these are in fact serious violations of specific provisions 
of the Israel-Egypt Peace Accords.
    Egypt is in substantial non-compliance with those 
agreements. We should look very carefully at these violations. 
I believe that there should be at least a significant and a 
substantial cut in aid to Egypt to reflect our statement that 
these are violations which we will not tolerate.
    To paraphrase an old country saying, money talks and 
hortatory statements walk. Thus, we cannot continue just to say 
that it would be nice for Egypt to comply and we would like it 
and Egypt should and so forth, but Egypt will change its 
policies and actions only if there is a substantial cut in aid 
to Egypt; not so mcuh that it will hurt the people, but enough 
to make Egypt take some of the money that it is spending on 
defense, although they are supposedly at peace with Israel, and 
put that money where it should be into the development of their 
own country.
    With respect to Jordan, we are thankful that the King of 
Jordan, despite his intemperate letter which sadly may have 
precipitated the slaughter of those young school girls on the 
so-called Island of Peace, has gone the extra mile and, two 
miles, to try to maintain peace.
    We would hope that he will continue to be a strong partner 
for peace with Israel. We would encourage a continued good 
working relationship with and aid to Jordan. Overall, with 
respect to the peace process, I had severe doubts about it 
because in fact it has proved to be a death process for close 
to 300 Israelis and many others, including Americans. And if I 
am correct, it could lead to full scale war and not peace 
through miscalculation. I believe as a Christian that we should 
pray for the peace of Jerusalem. They shall prosper that love 
thee, as Psalm 122 says. And that blessed are the peace makers 
for they shall be called the children of God as is stated in 
the New Testament.
    Yet, the Prophet Jeremiah said there would be a time when 
they would say ``peace, peace, but there is no peace.'' So I 
think that the peace process is near the end of the road. 
Israel surely must continue to work for peace with all of its 
neighbors but we need to look carefully at the array of threats 
still against Israel. We need to look at the fact that Israel 
and America are very much in the same boat. We still are 
subject to a vast array of threats in this world today, two of 
the principal ones being first the threat from terror from 
various sources, and second, the threat of ballistic missiles 
armed with unconventional chemical biological or nuclear 
warheads.
    Zeroing in and putting a focus on that much of these both 
the terror and the threat of missile warfare come not just from 
the nations we have mentioned today, although I agree with the 
descriptions of the Iran and the other nations mentioned but 
with the nation of Syria which has been little mentioned to 
date.
    Syria, of all of those nations in the Middle East, still 
occupies in effect its neighboring country, Lebanon. And I 
agree with the conclusions of Daniel Nassif who preceded me 
that Syria must withdraw its occupying fores. I applaud your 
strong statements Mr. Chairman on that issue to-date in the 
record.
    Syria also regularly violates the human rights of its 
people and quarters some dozen terrorist groups. These 
terrorist groups not only sent the coded signals from Damascus 
which caused the bombings a year ago March when I was in Israel 
in Tel Aviv and Jerusalem and in other cities, but in addition, 
there is a great deal of intelligence even in newspapers that 
the terrorists who blew up our barracks in Saudi Arabia, if 
they came from Iran, were trained in the Bekag Valley of 
Lebanon occupied by Syria.
    I have moral certitude that nothing happens in Lebanon 
which Syria does not permit with its 40,000 occupying troops. I 
won't belabor this, but I believe whatever sanctions, whatever 
actions we are to take against Iran, Iraq, Libya, Sudan, and 
other so-called rogue or renegade nations should be fully 
include Syria as one of the bad guys until its President and 
its military structure indicate that there is a change.
    This brings me to a final point, Mr. Chairman. In addition 
to being strongly and forthrightly pro-Israel on Biblical and 
other grounds, and including the fact that Israel is our one 
free democratic allies in the Middle East, we also strongly 
applaud whatever efforts can be made to bring more democracy 
and respect for human rights from the other countries of the 
Middle East.
    I have asked officials of the State Department why theydo 
not work toward democracy and human rights in the nations of the Middle 
East, the Arab and Muslim countries. I've asked them point blank, is it 
too good for the Arab people in your point of view or not good enough?
    And I have not gotten a straight answer yet, Mr. Chairman. 
But I would hope that we would do whatever we can to find out 
why the Administration, with all of its policies for democracy 
and human rights, does not look at those nations of the Middle 
East, not just the so-called rogue or renegade pariah nations 
that I've mentioned, but also those that are supposedly our 
friends and allies and the ``leaders'' in the Middle East.
    This is very important for all of the people in the Middle 
East and particularly for such persecuted minorities as the 
Jews, Christians, Kurds, Druse Bahis and many others. Thank 
you, Mr. Chairman.
    [The statement of Mr. Hellman follows:]

[Pages 478 - 497--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you, Mr. Hellman. I can imagine 
someone contacting one of our agencies and not getting a 
straight answer.
    Mr. Hellman.  It's hard to believe, Mr. Chairman, but you 
know we are still in an age of miracles.
    Mr. Callahan.  Ms. Pelosi.
    Ms. Pelosi.  I have no questions. I just want to thank Mr. 
Hellman for his very fine testimony.
    Mr. Hellman.  Thank you, Congresswoman Pelosi. Thank you, 
Mr. Chairman.
    Mr. Callahan.  Mr. Zvaners. Good morning. I've read your 
testimony. It will be submitted and printed in the record.

                              ----------                              

                                          Thursday, April 24, 1997.

    AMERICAN LATVIAN ASSOCIATION FOR THE CENTRAL AND EAST EUROPEAN 
                               COALITION

                                WITNESS

MARTINS J. ZVANERS, DIRECTOR, PUBLIC AFFAIRS

    Mr. Zvaners.  Thank you, Mr. Chairman.
    Mr. Chairman, Ms. Pelosi, I am pleased to be with you this 
afternoon to discuss the importance of U.S. assistance programs 
to Central and Eastern Europe. The Central and East European 
Coalition is comprised of 19 national membership organizations 
representing more than 20 million Americans who trace their 
heritage to that part of the world.
    CEC was pleased to be a leading supporter of the fiscal 
year 1997 Foreign Operations Appropriations Bill--our 
constituencies across the United States, provided essential 
support for the legislation.
    The Coalition believes that the long-term national security 
and budgetary interests of the United States demanded an 
unwavering commitment to the transition of Central and East 
European countries to fully democratic free market nations. 
This commitment requires active U.S. engagement in the region, 
which brings me to our specific recommendations for the fiscal 
year 1998 Foreign Operations Appropriations Bill.
    First, the CEC believes that lasting stability and security 
on the European continent can best be accomplished through the 
expansion of the NATO Alliance to include all nations of the 
region that desire to join the Alliance and meet the criteria 
for membership.
    We urge the subcommittee to expand the amount appropriated 
for countries designated by the President as eligible for NATO 
enlargement assistance. The CEC would not support this 
assistance coming at the expense of existing programs such as 
the SEED Act or FREEDOM Support Act.
    A critical issue has arisen concerning NATO enlargement to 
which the Clinton Administration has yet to offer an adequate 
response. This is the question of how the U.S. and NATO will 
respond to those countries not asked to join the Alliance at 
the upcoming NATO summit.
    In a very real sense the answer to this question will 
determine the success or failure of the NATO enlargement 
process. To this end, the United States must ensure that the 
often repeated statement that the door will remain open to 
additional members is given credibility.
    First, the U.S. should immediately propose to NATO the 
designation of countries that will be invited to join the 
Alliance through a gradual enlargement. An effective way to do 
so would be through designation by the President of additional 
countries as eligible to receive U.S. assistance under the NATO 
Participation Act of 1994.
    Second, the United States must encourage the participants 
at the Madrid Summit to set forth the timing of subsequent 
rounds of NATO enlargement. Third, bilateral military 
cooperation should be significantly enhanced under the 
Partnership For Peace Program and the U.S. should encourage its 
allies to spell out the substance of any proposed enhancement 
to PFP. Expanded support for programs such as the Regional Air 
Space Initiative for the Baltic Countries would send a valuable 
signal in this regard.
    Fourth, the U.S. should continue to provide assistance, 
including lethal and non-lethal surplus U.S. defense articles 
to the Regional Military Cooperative Peacekeeping Initiatives 
among various Central and East European countries.
    The CEC strongly encourages the subcommittee to restore 
funding in fiscal year 1998 for the SEED Act and the FREEDOM 
Support Act, both of which have been significantly cut over the 
past four years. Additionally, the CEEC strongly supports 
earmarking aid to Armenian and Ukraine as Congress did last 
year, as well as reinstatement of an earmark for Georgia.
    The coalition also encourages Congress to review the 
process of graduating countries from the SEED Program. The 
Coalition strongly supports the overall levels of funding for 
SEED and FSA Programs requested by the President for fiscal 
year 1998.
    However, we are very concerned that the vast majority of 
the dramatic requested increase in FSA funding is to go to 
Russia, reversing last year's belated shifting of resources 
towards the non-Russian NIS. Similarly, although the President 
has requested increased SEED funding, assistance not tied to 
the Dayton Peace Accords or related assistance programs for 
Bosnia is slated for significant cutbacks.
    And additional countries are slated for graduation from 
SEED assistance. We must not forget the financial and human 
costs of winning the Cold War, as well as the consequences if 
these newly freed societies should fail in their quest to fully 
transform themselves into market democracies.
    Third, in order to more effectively implement foreign 
assistance programs passed by Congress, the Coalition urges 
reform of the U.S. Agency for International Development. The 
Coalition is convinced that the manner in which our government 
administers its foreign assistance is in need of a 
revitalization, one that will help ensure that the various U.S. 
Government agencies involved are able to maximize the impact 
and cost effectiveness of their activities.
    However, President Clinton's proposed reorganization will 
lose most of its effectiveness in the area of foreign 
assistance if steps are not taken to reform the internal 
implementation of assistance programs by USAID. The Coalition 
has developed a series of recommendations to address this need 
for internal reform.
    We want to conclude with a plea to this subcommittee not to 
alienate the U.S. from world affairs. The need for strong and 
proactive diplomacy in support of U.S. foreign policy 
objectives has been borne out by recent events in Bosnia, the 
Korean peninsula, China, and Russia. Such diplomacy is 
notpossible without appropriate funding levels to sustain and support 
America's leadership. We also believe that the limited resources made 
available for international affairs should focus on regions of the 
world that are in the national security interest of the United States.
    An investment in democracy building in Central and Eastern 
Europe will pay dividends through long-term security and reduce 
military expenditures for the United States. Thank you for this 
opportunity to discuss these issues, and I will pleased to 
answer any questions you may have.
    [The statement of Mr. Zvaners follows:]

[Pages 501 - 506--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you, Mr. Zvaners. I suppose you had to 
sit through all of that testimony today with respect to the 
Ukraine and I don't imagine it pleased you how upset some of us 
were about the progress there. But there is no sense in 
rehashing this. You know our intentions there. That shouldn't 
impact our ability to be of assistance to you and your group in 
your goals and aims.
    Mr. Zvaners.  Thank you, Mr. Chairman.
    Mr. Callahan.  We appreciate very much your testimony.
    Ms. Pelosi.  Thank you.
    Mr. Zvaners.  Thank you.
    Mr. Callahan.  Mr. Jemal.

                              ----------                              

                                          Thursday, April 24, 1997.

                      ARMENIAN ASSEMBLY OF AMERICA

                                WITNESS

TIMOTHY A. JEMAL, DIRECTOR, CONGRESSIONAL RELATIONS

    Mr. Jemal.  Good afternoon, Mr. Chairman. I would like to 
associate my remarks if I may with Mr. Zvaners, as well as with 
Messrs. Visclosky and Pallone. I believe they testified 
earlier.
    My name is Tim Jemal. I'm representing the Armenian 
Assembly of America. We're a national non-profit, non-partisan 
organization representing Armenian Americans around the 
country. We're the first Western private voluntary organization 
to establish an office in Armenia. Most recently we opened an 
office in Nagorno-Karabagh.
    Today, Mr. Chairman, is a solemn day for all Armenians. It 
is April 24th. Today is the day when most Armenians around the 
world commemorate the Armenian Genocide. Unfortunately, the 
specter of genocide has resurfaced in the Caucusus region in 
the area of Nagorno-Karabagh.
    Successive Azerbaijani Presidents, including its current 
President, have indicated a commitment to policies to eliminate 
the Armenian population from Nagorno-Karabagh. The situation in 
Karabagh, which I witnessed first-hand during a January fact 
finding trip with Congressman Pallone, revealed that Azerbaijan 
has and will use its resources to eliminate the Armenian 
population.
    On a more positive note, our trip confirmed that economic 
reforms in Armenia are progressing remarkably well and that 
brings me to five quick points I'd like to make. First, we urge 
the subcommittee to support not less than a $105 million 
earmark for Armenia's economic, humanitarian, and democracy 
building needs.
    I'd like to take this opportunity to express our gratitude 
to this committee and to Congress for the support it has given 
to Armenia over the years. It has really been life-sustaining. 
In Armenia, both the IMF, the World Bank, the EBRD, Congress, 
and the Administration have all recognized Armenia's progress 
in terms of fiscal and economic reforms.
    Because Armenia is nearly cutoff from the Western World, 
effective U.S. assistance programs are largely credited for 
allowing Armenia to implement these reforms. Unfortunately, 
hundreds of thousands of Armenians have left the country 
because of the harsh conditions. Most of them or many of them 
have come to the United States.
    Since Armenia's best comparative advantages are its skilled 
workers, the continued migration is a major threat to the 
country's economic survival. In spite of the blockades, Armenia 
was the only country among the former Soviet Union to register 
a positive GDP growth.
    That trend has continued for the last two years. In 1997 it 
is projected to be at around 7 percent. If the blockades are 
lifted, we believe that the country has every chance to move 
towards sustained economic export driven economic growth with 
strong ties to Europe and the United States.
    Second, we strongly support language that would allow for 
the needy people in both Azerbaijan and Nagorno-Karabagh to 
receive adequate humanitarian assistance, irrespective of their 
ethnicity.
    Because of Azerbaijan's blockade, food, fuel, and medicine 
have been cut off to both Armenia and Nagorno-Karabagh. While 
Armenia has received adequate and generous assistance, the 
situation in Karabagh is quite a bit different.
    There has been no U.S. direct assistance to Nagorno-
Karabagh to-date, even though Azerbaijan has been issued nearly 
$100 million from the U.S. This is a policy that needs to be 
remedied and it should be addressed by this subcommittee.
    Assistance that goes to Karabagh should in no way be 
construed to affect sovereignty or political negotiations. It 
should merely address the needs that are currently in place in 
Nagorno-Karabagh. We hope the committee does address this issue 
this coming fiscal year.
    Third, we do not support any changes in Section 907 of the 
Freedom of Support Act until and unless Azerbaijan takes 
demonstrable steps to comply with the law.
    Fourth, we urge this subcommittee to strictly enforce the 
Humanitarian Aid Corridor Act which is a part of the Foreign 
Assistance Act. Regrettably, the Clinton Administrationrecently 
waived the Humanitarian Aid Corridor Act. Last year when the President 
waived the law without consulting or notifying Congress, a sensible 
House of Representatives removed this waiver authority in an 
overwhelming vote.
    In justifying its waiver to your committee last week, the 
Administration appears to defend Turkey's blockade, and even 
praised Turkey's role in efforts to mediate the Nagorno-
Karabagh conflict. This is quite frankly an outrageous 
assertion that defies not only the facts, but it defies logic.
    Turkey, a NATO ally with superior military capabilities, 
has provided substantial military support to Azerbaijan in its 
conflict with Nagorno-Karabagh. It is an insult to Armenians 
who have gravely suffered in the region for the Administration 
to praise so-called unilateral efforts by Turkey when in fact 
it's the Armenian Government that has repeatedly offered 
unconditional normal diplomatic relations with Turkey without 
preconditions.
    We agree with the Administration on one thing. Turkey 
certainly has taken unilateral steps, unilateral steps to 
suffocate, strangle, and isolate Armenia from the Western 
World.
    Our last point goes back to Mr. Zvaners' point with respect 
to aid to the NIS. We strongly support the Administration's 
request of $900 million. We are pleased to agree with them at 
least on one issue out of our five points. We believe 
restoration of funding is important because there are much 
needed reforms that need to take place.
    In the absence of U.S. assistance and multi-lateral 
assistance it is unlikely that these reforms will move forward. 
Finally, I just want to say that I did just return from the 
region. Armenia is not perfect. They're facing a lot of 
difficulties, but I don't believe there is any turning back to 
democracy or free markets.
    As a U.S. citizen, it is always heartwarming to go there 
because everywhere you go they (Armenians) are aware of the 
vital void U.S. assistance has filled in literally saving 
thousands of lives every day. From senior government officials 
on down to the regular people on the street, they are all aware 
of the U.S. programs and they are all very grateful.
    We just feel that if certain steps are taken by their 
neighbors in conjunction with modest actions by this committee 
that Armenia will proceed on a path of trade growth, in 
particular with Europe and with the United States. So, with 
that, I'd like to conclude.
    [The statement of Mr. Jemal follows:]

[Pages 510 - 532--The official Committee record contains additional material here.]


    Mr. Callahan. Thank you very much for your testimony.
    It's a very complicated area of the world. I guess you 
heard earlier that Congressman Knollenberg is going to take 
crash courses in the history of the region and then pass that 
information on to the committee.
    So, I would encourage you that if you have any information 
that you would like for him to submit to the Full Committee, 
you might contact Congressman Knollenberg.
    Mr. Jemal. I certainly will. Thank you.
    Mr. Callahan. Mr. Hekimian. We have accepted your written 
testimony for the record. I will ask you to keep your comments 
as best you can down to five minutes or else we're going to be 
here until midnight.
                              ----------                              

                                          Thursday, April 24, 1997.

                 ARMENIAN NATIONAL COMMITTEE OF AMERICA

                                WITNESS

CHRIS HEKIMIAN, DIRECTOR, ANCA GOVERNMENT AFFAIRS

    Mr. Hekimian. Thank you Mr. Chairman for your principled 
leadership on the Foreign Operations Subcommittee and for this 
opportunity to appear before your panel on behalf of the 
Armenian National Committee of America, the nation's oldest and 
largest Armenian American grassroots organization.
    Before I begin my testimony, I would also like to note that 
the date of this year's hearing, April 24th, marks the day 82 
years ago when the Ottoman Turkish Government put into motion 
its plans to destroy the Armenian nation. It was on this day 
that the Turkish authorities initiated the Armenian Genocide, a 
deliberate and systematic campaign of massacres and deportation 
that resulted in 1.5 million deaths and the exile of a nation 
from its historic homeland.
    On this solemn day for remembrance of the Armenian people, 
I'd like to take this opportunity to thank the many Members of 
Congress who have joined with our community in remembering this 
crime against humanity and standing up to the shameful campaign 
to deny this tragic chapter in Armenian and Turkish history.
    I submitted my full testimony to the subcommittee. What I'd 
like to do now is very briefly touch on the key elements of the 
Armenian American community's concerns regarding the fiscal 
year 1998 foreign aid bill. First and foremost I'd like to 
stress that the Armenian Americans are among the most ardent 
advocates of American leadership abroad, andsupporters of 
maintaining the integrity of the International Affairs 150 Account.
    Targeted assistance programs to emerging nations advance 
our national interests, not only by promoting democracy, 
building peace, and meeting humanitarian needs, but also by 
laying the ground work for long-term commercial relations. The 
ANCA and the entire Armenian American community deeply 
appreciate the assistance appropriated by Congress to meet 
humanitarian needs and promote economic and democratic reforms 
in Armenia.
    We are confident that as Armenia's economy improves, the 
Armenian people will no longer look to the United States for 
assistance. As we testified last year, however, this progress 
towards self-sufficiency is closely linked to how soon the 
Turkish and Azerbaijani blockades of Armenia are lifted.
    Accordingly, we support a hard earmark of at least $150 
million for Armenia for fiscal year 1998 to offset the 
devastating effects of these blockades. For the last nine 
years, the people in Nagorno-Karabagh have struggled; first, 
for their own survival and then to assert their right to self-
determination.
    Today, the Republic of Nagorno-Karabagh is an active 
participant in negotiations organized by the OSCE and a key 
contributor to peace in the region. Karabagh is entirely 
blockaded by a hostile Azerbaijan with the strong backing of 
Turkey.
    Yet, it has been consistently excluded from any U.S. 
humanitarian assistance programs. While the United States has 
provided over $100 million in humanitarian assistance directly 
to NGOs operating in Azerbaijan, none of this assistance has 
reached the people of Nagorno-Karabagh.
    We have yet to receive any assurances that any portion of 
the fiscal year 1998 aid proposed by this subcommittee for 
Azerbaijan will be distributed to Nagorno-Karabagh. The 
exclusion of Nagorno-Karabagh from U.S. assistance programs 
represents an unhealthy aspect of our foreign assistance 
program.
    Humanitarian aid should be distributed based on need, not 
the dictates of the government in Baku or any foreign capital. 
We are hopeful that this short coming will be corrected during 
the current appropriations cycle.
    Targeted U.S. aid to Nagorno-Karabagh will prove over time 
to be an important confidence building measure and an 
investment in peace in a region of great strategic significance 
to the United States.
    The ANCA strongly supports the law restricting U.S. 
assistance to the government of Azerbaijan and actively opposes 
any effort to weaken, waive, or eliminate this prohibition. Any 
effort to circumvent the intent of this provision of law, 
particularly during the on going negotiations would be viewed 
by the Azerbaijani Government as a clear signal for renewed 
aggression. Successive Azerbaijani Government have steadfastly 
refused to either lift their blockade or abandon a military 
solution to the conflict.
    It should be clear that the reasons for the ban on U.S. 
assistance to the Government of Azerbaijan continues to exist 
as compelling as ever. Because of this, the ban itself 
continues to have strong bipartisan support in both Houses of 
Congress.
    The Armenian American community has long-standing 
reservations regarding the high levels of U.S. foreign 
assistance to Turkey based on a long list of concerns, 
including Turkey's four-year blockade of Armenia, support for 
Azerbaijani aggression against Nagorno-Karabagh, continued 
denial of Armenian Genocide, worsening human rights abuses, 
genocidal campaign against its Kurd population, unfair 
restrictions on the rights of Christian communities, and the 
continuing occupation of Cyprus.
    We can no longer afford to turn a blind eye to Turkey's 
consistent failure to meet even minimum standards for human 
rights and humanitarian practices. Congress should: link U.S. 
aid levels to Turkey's progress on the issues I've just listed; 
strictly enforce the Humanitarian Aid Corridor Act which 
prohibits aid to nations, such as Turkey, which blockade U.S. 
relief to a third nation; enact sanctions along the lines of 
the Radanovich/Bonior Amendment adopted last year by the House 
to limit aid to Turkey until it ends its campaign to deny the 
Armenian Genocide.
    Finally, strictly scrutinize all weapons sales and 
transfers to Turkey. Mr. Chairman, Congresswoman Pelosi, I 
would like to thank you for the opportunity to present this 
testimony and to reaffirm the support for the Armenian American 
community for our nation's foreign assistance program.
    Lastly, I'd also like to invite both you and your staff to 
an observance honoring the victims of the Armenian Genocide 
that we're going to be holding on April 30th in the Senate 
Caucus Room. Thank you.
    [The statement of Mr. Hekimian follows:]

[Pages 536 - 543--The official Committee record contains additional material here.]


    Mr. Callahan. Thank you.
    Ms. Pelosi. Thank you very much--you sound serious about 
this Mr. Chairman.
    Mr. Callahan. I hope that you don't believe that the vote 
on the Floor with respect to aid to Turkey was any indication 
that some of us were supportive of the genocide. It had nothing 
to do with that. This is just an appropriation bill. And they 
made a decision that not only impacted policy and the Defense 
Department, but at the State Department.
    We felt like if there was going to be some type of 
chastising of Turkey that it should have been done in the 
authorization and not in our bill. You know, we could pass our 
bill in our House in ten minutes, if we didn't have things in 
there that weren't supposed to be in there, I mean with respect 
to our jurisdiction.
    Once again, I invite you also to contact Mr. Knollenberg 
because he indicated and expressed a direct interest in that 
region. We're going to lean pretty heavily upon him for his 
advice.
    Ms. Pelosi. Mr. Chairman, I just want to ask a question.
    Mr. Callahan. Sure.
    Ms. Pelosi. I just want to make sure I heard correctly. Did 
I hear you say $150 million.
    Mr. Hekimian. Yes.
    Ms. Pelosi.  I think your testimony says $105 million.
    Mr. Hekimian.  That's not our testimony.
    Ms. Pelosi.  Oh, I'm sorry. And you're asking for $150 
million.
    Mr. Hekimian.  Yes.
    Ms. Pelosi.  $150 million.
    Mr. Hekimian.  Armenia has received, pretty consistently 
over the past three years, $150 million in total U.S. aid. Our 
concern is that we will not see that. So, we feel that it is 
important to list that figure to make sure that Armenia get as 
much aid as possible.
    Until these blockades are lifted, Armenia does need to ask 
for assistance. I look forward to the day where we can come 
before you and say thank you, but we're on our feet now and 
thank you very much for your help. That we can make it on our 
own.
    Ms. Pelosi.  As one who has been a strong supporter of the 
high figures that we have for Armenia and then resisting 
earmarks as our former Chairman, Mr. Obey, wanted us to do and 
our current Chairman does as well, and I support that. We said 
that earmark would be irresistible if the Administration did 
not spend the money.
    Even Mr. Obey said if they don't spend the money we will 
have to be more clear in our bill. Am I hearing correctly then 
that when the blockade is lifted then you don't think there 
would be need for so much money for Armenia?
    Mr. Hekimian.  Armenia is in a situation economically 
where, you know, the people have the basic needs and what have 
you.
    Ms. Pelosi.  I understand. You were mentioning the blockade 
as a reason why Armenia needs so much. I just wondered in the 
absence of the blockade.
    Mr. Hekimian.  Right. I can't speak for the Armenian 
Government, but I would say that, that would lead very quickly 
towards--Armenia is making progress nonetheless, even with the 
blockades. I think once the blockades are lifted, I think 
you're going to see Armenia--its GDP is positive right now. I 
think you're going to see it skyrocket. I think shortly after 
they will be in a position where they don't need the aid.
    Ms. Pelosi.  Well, if the Armenian American population in 
the United States is any indication, I'm sure that given the 
proper opportunity that the Armenian people will rise to the 
occasion.
    Mr. Hekimian.  Thank you.
    Ms. Pelosi.  Thank you.
    Mr. Callahan.  Thank you. Alexander F. Watson. We 
appreciate your patience. We still have about 10 or 12 others. 
I have a dinner date at 6:30 p.m.

                              ----------                              

                                          Thursday, April 24, 1997.

                         THE NATURE CONSERVANCY

                                WITNESS

ALEXANDER F. WATSON, VICE PRESIDENT AND EXECUTIVE DIRECTOR

    Mr. Watson.  Mr. Chairman, due to the lateness of the 
hours, out of respect for the committee and the other 
witnesses, I have shortened my summary already.
    Mr. Callahan.  Thank you.
    Mr. Watson.  I would just like to make a few points. 
Supported by our 900,000 individual American members and 1,300 
corporate sponsors The Nature Conservancy manages the world's 
largest system of privately held nature preserves.
    Less well known is the fact that the Nature Conservancy 
works in 24 other countries in Latin America, in the Caribbean, 
and the Asia Pacific region. Since the beginning of our 
international program in 1981, we have worked with local 
partners in these countries to protect more than 74 million 
acres of biologically significant land in this hemisphere 
alone.
    AID has been a critical partner in this effort through its 
funding a portion of the Parks in Peril Program and its 
Biodiversity Support Program and its Biodiversity Conservation 
Network. These programs in our view deliver cost effective 
innovative solutions and measurable results through 
partnerships with the private sector.
    They also leverage private resources and funding from the 
multilateral development banks. For example, the $23 million 
that the Parks in Peril Program has received from AID since its 
inception in 1989 has leveraged another $5 million from the 
Nature Conservancy itself, as well as another $10 million-plus 
from local, in country partners and governments.
    The Nature Conservancy, AID, and our allies at home and 
abroad we think are achieving real progress defending 
biodiversity and the projection of natural living resources in 
the hemisphere and in the Asia Pacific Region, by cooperating 
with private organizations in other countries and with their 
governments.
    In my written statement, I tried to provide some specific 
examples of this. This committee in previous years has 
explicitly recognized the importance of defending biodiversity 
through this public-private partnership methodology in the 
Western Hemisphere and in the Pacific.
    We urge that the committee continue to provide this support 
and this year provide funding for the Parks in Peril Program, 
as well as the Biodiversity Support Program, and the 
Biodiversity Conservation Network, and the rest of AID's 
Biodiversity Programs in the fiscal year 1998 appropriations 
process.
    We strongly endorse U.S. Government support for the Global 
Environment Facility (GEF) which includes biodiversity among 
its--planet wide concerns. We suggest that the committee 
consider including positive language about Parks in Peril, 
biodiversity, and the GEF in its report as it did last year. We 
have appended to the written statement some draft report 
language which I hope you will find useful as you deliberate 
this subject. So, we basically support the full request of the 
Administration, both for the AID environmental programs and the 
appropriation for the GEF.
    Thank you very much for this opportunity.
    [The statement of Mr. Watson follows:]

[Pages 547 - 561--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you, not only for the brevity, but for 
the mission that you're on. It's a very noble mission and we 
are a supporter of the Nature Conservancy. I see no reason why 
we won't be able to put at least as strong a language in the 
report this year as we did last year.
    Mr. Watson.  Thank you very much.
    Ms. Pelosi.  I agree with you, Mr. Chairman.
    I'd like to say one thing. I know some of the places where 
you have parks, and our committee under the leadership of our 
Chairman was just in Haiti. The second you go there----
    Mr. Watson.  We have nothing in Haiti.
    Ms. Pelosi.  I know you have nothing there. And I don't 
know if there is anything left there to preserve quite frankly 
because the President told us only 2 percent of the previous 
forests were forests now. So, not that your parks are all 
forests, but--if there is any argument for what you do, it's 
what the neglect of that has been in Haiti. It is really sad. 
If there is ever anything to hang onto there, maybe you could 
do something.
    Mr. Watson.  Maybe I could just take a couple of seconds of 
your time. I told our AID folks in Haiti that if they thought 
the Nature Conservancy with its experience in protecting areas 
could be useful to them, in terms of training people, helping 
protect reforestation activities in Haiti, I'd be glad to see 
what we could do.
    I think we can probably do something there to help them, 
but they have not come back to me on that. But another 
vignette; when we had the Latin American Summit in Bolivia 
recently on the environment and development, I was at a dinner 
and I met the President of Haiti there.
    I was telling him what I was doing with the Nature 
Conservancy having left the government. And he asked if the 
Nature Conservancy could help in Haiti. And I told him what I 
just told you. Then he said to me, you know, I'm a little 
reluctant to advocate too strongly reforestation programs at 
this point because until we solve the people's fuel problem by 
providing bottled gas or some other way to do it, what tends to 
happen is as soon as the trees would grow, they will be chopped 
down again and turned into charcoal.
    I thought that was an astounding statement from him, but it 
was an interesting one; perhaps a realistic assessment of the 
situation. If we can be helpful in Haiti in some way with the 
kinds of skills and the emphasis of the Nature Conservancy I'd 
love to do it, but I don't see how we can do it at this point.
    Ms. Pelosi.  I appreciate that answer and I appreciate what 
you do as well. Thank you.
    Mr. Watson.  Thank you for having us testify.
    Mr. Callahan.  John Perrine. Welcome Mr. Perrine.

                              ----------                              

                                          Thursday, April 24, 1997.

                         DEFENDERS OF WILDLIFE

                                WITNESS

JOHN PERRINE, PROGRAM ASSOCIATE

    Mr. Perrine.  Thank you.
    Mr. Chairman, Congresswoman Pelosi and Members of the 
subcommittee: My name is John Perrine and I am with Defenders 
of Wildlife, a national non-profit organization dedicated to 
the conservation of wildlife, endangered species, and 
biodiversity.
    I am also speaking today on behalf of six additional 
organizations; the American Zoo and Aquarium Association, the 
Center for Marine Conservation, the Humane Society of the 
United States, the Sierra Club, the Wildlife Conservation 
Society, and the World Wildlife Fund.
    Thank you for providing me the opportunity to comment on 
the fiscal year 1998 Foreign Operations appropriations.
    Specifically, our organizations are looking to Congress to 
ensure that the U.S. State Department fully honors the U.S. 
financial commitments to CITES, the Convention on International 
Trade and Endangered Species.
    The CITES Treaty protects elephants, rhinos, tigers, 
parrots, cacti, orchids, and thousands of other species of 
endangered and threatened animals and plants from excessive 
international commercial trade.
    Trade in hides, furs, exotic pets, and other wildlife 
products is big business estimated at over $10 billion annually 
and up to half of this may be illegal. CITES, operating from a 
comparatively minuscule budget of less than $5 million, is a 
thin safety net that regulates and monitors this trade. It is 
one of the world's best wildlife conservation investments.
    The United States is the world's largest importer of 
wildlife products and one of the original 21-party nations to 
the CITES Treaty. As such, we generally provide 25 percent of 
the overall CITES budget. We have never reneged significantly 
on this commitment until 1996 when a decision by the State 
Department substantially reduced our contribution.
    It happened like this: At the last meeting of the CITES 
party nations the United States delegation successfully lobbied 
to reduce the international CITES budgets for 1996 and 1997 by 
almost 15 percent from what the CITES Secretariat had 
originally requested. Under the reduced budget, the United 
States committed to pay approximately $1.35 million for each of 
1996 and 1997. The Secretariat then planned its activities and 
made commitments based on this revised and approved budget.
    But in 1996, the U.S. State Department allocated only 
$800,000 to CITES instead of the pledged $1.35 million. This 
represented a shortfall of more than half a million dollars, 
some 40 percent of what the United States has promised to pay. 
Now, a half a million dollars may not seem like much in the 
overall State Department budget, but it dealt CITES a serious 
blow. The Secretariat lacked funds to adequately investigate 
illegal wildlife trade and to provide new party nations with 
training to help them implement the treaty. Note that when 
other countries are unable to implement and enforce CITES, the 
enforcement burden on the United States increase.
    The failure to meet our financial commitment undermines the 
creditability of the United States and may have weakened our 
negotiating position on important CITES issues. Throughout 
1996, our organization has worked diligently to bring these 
concerns to the attention of Congress and to the State 
Department. We thank the subcommittee for including language in 
the fiscal year 1997 Committee Report specifically noting that 
CITES is a good investment and indicating that Congress 
expected the Administration to meet its full pledge. We are 
pleased to note that the State Department has provided the full 
$1.35 million for 1997.
    But what about our contributions for future years? In June, 
the United States and the other CITES parties will approve a 
budget for 1998 and 1999. The proposed budget includes a U.S. 
contribution of approximately $1.6 million for each of these 
years.
    Our organizations request that Congress continue to direct 
the State Department to fully honor our future CITES budget 
commitments. Specifically we urge you to maintain in the fiscal 
year 1998 bill last year's language concerning CITES. A copy of 
this language is included along with my written statement.
    The United States provides critical leadership for ensuring 
the sustainability of legal wildlife trade and bringing a halt 
to illegal trade. We have a responsibility to honor our 
commitment to the very modest CITES budget. Failing to meet 
this commitment undercuts the important progress made in recent 
years, and it sends the wrong signal to the international 
conservation community.
    Thank you.
    [The statement of Mr. Perrine follows:]

[Pages 565 - 571--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you very much, sir.
    Ms. Pelosi.  Thank you very much.
    Mr. Callahan.  Any questions?
    Ms. Pelosi.  No questions, Mr. Chairman.
    Mr. Callahan.  Mr. Hartke.

                              ----------                              

                                          Thursday, April 24, 1997.

                        EARTHKIND INTERNATIONAL

                                WITNESS

JAN HARTKE, PRESIDENT

    Mr. Hartke.  Mr. Chairman, Congresswoman Pelosi, my name is 
Jan Hartke. I'm here to testify on behalf of Earthkind 
International, a global environmental organization. I'm also 
serving now as the National Coordinator for the Alliance for 
United Nations Sustainable Development Programs, which is 
Chaired by Andy Rice and Hillary French and now consists of 
over 12 million members.
    We now stand at a defining moment in terms of U.S. 
leadership in the world. We cannot hope to build a world that 
is just equitable, sustainable, and humane if we do not step up 
to the challenge of providing necessary funding for the U.N. 
Sustainable Development Programs.
    I want to emphasize again that I am not here on behalf of 
the entire arrearage issue and the whole total of the U.N. 
issues, but simply on those Sustainable Development Programs. I 
believe strong U.S. support for these programs is essential for 
three primary reasons.
    First, they are cost effective for the U.S. taxpayer. Last 
year, for example, for every dollar the U.S. taxpayer 
contributed to the UNDP, taxpayers in other countries paid more 
than $9. I can think of very few examples where this kind of a 
burden sharing tilt in America's favor is any more beneficial 
than it is in this instance.
    Second, the U.N. Sustainable Development Programs have done 
an excellent job for balancing the need for economic and social 
development with respect to the great ecological life support 
systems upon which ultimately we rely for our very survival.
    Indeed, if these U.N. agencies were not active in forging 
the framework for environmentally sustainable development in 
developing countries, there would be no globally coordinated 
effort on behalf of the international community whatsoever. 
These are the only multi-lateral tools we have. And I believe 
and many others believe that we must make them work.
    Third, U.N. Sustainable Development Programs promote U.S. 
economic and strategic interests abroad helping to create 
stable, market oriented, and democratic countries. While those 
are the broad reasons, I'd like to turn to three specific 
institutions to them today because I think we're at a critical 
point in their funding needs.
    First, the United Nations Development Program, for which I 
believe today a special case can be made for full funding at 
$100 million that is so desperately needed this year. It is 
undeniably the premiere leader in the global effort to improve 
people's lives in developing countries.
    I've seen it first-hand in country after country around the 
world. With the largest global network of country offices and a 
broad mandate to help the neediest countries, the UNDP provides 
the central in-country magnet for multi-lateral activity, 
working through their multi-lateral representative who is also 
the U.N. resident coordinator. The UNDP ensures collaborative, 
cooperative, coherent, and efficient operations for the U.N. 
systems.
    Already the UNDP has graduated 20 countries and has moved 
many others to closure, closer to the day when they will no 
longer need development aid. Mr. Chairman and Ms. Pelosi, every 
UNDP Administrator in the history of the organization has been 
an American.
    I want to keep it that way because I happen to believe that 
America's interest in leading this organization will do the 
right thing for the environment, will do the right thing for 
economic and social justice. They have always brought an 
American perspective to the agency and consequently have been 
significantly influenced by this Congress and this 
subcommittee.
    However, U.S. leadership is now under threat and declining 
U.S. financial support is one of the major reasons. It would be 
a tremendous loss for U.S. global leadership and prestige if we 
were to allow our leadership, the American led institution to 
collapse, while another country takes the helm.
    This is particularly true in my judgment because the 
current UNDP Administrator, Mr. James Gustespeth, is a man that 
I have know for 15 years. He inspires the highest degree of 
trust amongst millions of Americans who have worked under his 
leadership and who he knows.
    His understanding of the scope and urgency of the challenge 
to make shift towards sustainable human development is 
virtually unparalleled. His record at the UNDP abundantly 
proves his commitment to reform, efficiency, and effectiveness. 
I might add, I think it's counterproductive if we don't fully 
fund people who truly believe in the reform efforts, who are 
taking the spearheading approach and making that institution 
move in the direction that this Congress and this subcommittee 
want.
    I think it's sending the wrong message if we don't support 
them. So, I do believe that his unrivaled experience and skills 
can make a tremendous contribution to reform and relevant brand 
of multi-lateral development into the 21st Century.
    In his role as the development coordinator of the whole 
U.N. system, he has obtained significant and solid cooperation 
across the system for the first time in the U.N.'s history. 
Without adequate funding, his position and our capacity to lay 
the foundation for a more humane, just, and sustainable world 
will be seriously and irreparably undermined.
    UNDP in my judgment needs and deserves $100 million for 
their funding request for this year which the Administration 
for the first time in three years has backed. Another 
multilateral institution which deserves full funding is the 
global environment facility.
    They have asked for $100 million and I believe it is fully 
justified, particularly from the point of view of those who are 
identified with the environmental cause and those who believe 
in the cause of sustainable development.
    The global environment facility did not come easy. It was 
the biggest thing that came out; the biggest initiative that 
came out of the--summit. It provides funds for the developing 
countries for projects targeting global benefits in four--
biological diversity, climate change, international waters, and 
the ozone layer.
    One hundred and sixty countries are participating in the 
GEF. Thousands of non-governmental organizations around the 
world are looking to the innovative and visionary programs of 
the GEF to address these profoundly important trans-boundary 
issues.
    Progress toward global environmental security is the GEF's 
long-term goal. I believe they are definitely on the right 
track. The American people ought to be proud of the GEF and it 
deserves whatever consideration for funding your subcommittee 
would feel appropriate.
    The third institution I would like to mention is the 
International Fund for Agricultural Development, IFAD is the 
second largest multi-lateral organization in the world whichhas 
an exclusive mandate to combat rural hunger and poverty in the 
developing world.
    They have played a specific role in two major areas; micro-
finance, decertification. IFAD's projects have benefitted about 
32 million rural households or approximately 160 million 
people. With a small administrative budget, IFAD is able to 
deliver 34 cents out of every dollar directly to the poor.
    I believe it has earned the support of this Congress and 
this subcommittee. In conclusion, I would just say that without 
these indispensable institutions being given the full support 
they warrant, we will witness a series of breakdowns in the 
systems that undergird our common economic, social, and 
ecological future.
    I know that as a representative of the American people, you 
share my cherished hope that we will preserve the beauty, 
integrity, and life of this planet. The adverse trend lines 
need not become the--nations. Congressional leadership in this 
arena is crucial if we are to lay the foundation for a 
sustainable future. Thank you very much.
    [The statement of Mr. Hartke follows:]

[Pages 575 - 586--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you very much and also for your 
patience.
    Ms. Pelosi.  Mr. Chairman, I just have one comment and that 
is how impressed I am by all of our testimony that we've heard 
today; very thoughtful and sincere. On the environmental 
issues, I'm so encouraged that the people of the caliber of Mr. 
Watson and Hartke and others who we will be hearing from, Mr. 
Beard, and Mr. Fornos, that they commit their time to this very 
important issue.
    It is important for them to know that we value this as well 
because as you know in business which they are not in, but in 
business capital attracts talent. I always keep thinking, 
suppose all of the really good people quit because of all of 
these cutbacks and the rest, not that it's any personal 
aggrandizement to them, but just, they have to do budgets.
    They organize people. They want to be able to do something 
that's reasonably predictable. And then we live in an 
entrepreneurial world. But at least they don't have to spend 
most of their time worrying about if the doors are going to be 
open, but they can do what is in furtherance of the purpose of 
their organizations.
    So, again, it reminds me of how I'd like to see--certainty 
is not a part of the life we live, but some element of 
predictability in funding of these kinds of programs so that 
Mr.--will stay where he is and all of these people working on 
these other----
    Mr. Callahan.  When we conservatives are talking about 
cutbacks, we're talking about the IRS.
    Mr. Hartke.  There you go.
    Ms. Pelosi.  What they are doing is vital. It is about the 
environment. It's about people. So, anyway, I just wanted to 
take the opportunity to make that comment. Thank you, Mr. 
Hartke for your good work.
    Mr. Hartke.  Thank you.
    Mr. Callahan.  Rhonda Schlangen.

                              ----------                              

                                          Thursday, April 24, 1997.

                        NATIONAL AUDUBON SOCIETY

                                WITNESS

RHONDA SCHLANGEN

    Ms. Schlangen.  I apologize for Dan Beard.
    Mr. Callahan.  We will take his testimony for the record. 
We consider it as yours.
    Ms. Schlangen.  Thank you.
    Mr. Callahan.  I will ask you to abbreviate it if you 
possibly can.
    Ms. Schlangen.  Yes.
    Chairman Callahan and Members of the subcommittee, on 
behalf of National Audubon Society's more than half million 
members in communities throughout the United States, Canada, 
and Central America, I want to thank you for the opportunity to 
submit this testimony on the 1998 Foreign Operations 
appropriations.
    The National Audubon Society feels that rapid population 
growth is one of the major environmental issues affecting the 
United States and the world. We strongly urge the subcommittee 
to provide adequate funding for the U.S. International 
Population Assistance Program, and that this assistance be 
provided without unreasonable restrictions.
    Mr. Chairman, International Population Assistance Programs 
are an important investment for the United States economic and 
environmental future. We urge the Congress to restore funding 
for International Population Assistance to at least $600 
million; $15 million above the amount appropriated in 1995. 
This level of funding is needed to achieve the goal of the 
universal access to reproductive health care and to other goals 
necessary for population stabilization, which through the U.S. 
and 100 other nations agreed to at the Cairo International 
Conference on Population and Development in 1994.
    Some may ask why the National Audubon Society is concerned 
about the International Population Programs. Since 1970 Audubon 
has been a leader in addressing the connections between 
population and the environment. With the membership of almost 
600,000 Audubon's mission is to conserve and restore natural 
ecosystems for the benefit of humanity and the earth's 
biological diversity.
    Audubon has placed as one of its top priorities, population 
growth and its effects on wildlife species and habitat. Audubon 
believes that birds serve as an excellent barometer of the 
Hemisphere's environmental health. The annual migration of 
millions of birds to Latin America tells us by their returning 
numbers about conditions abroad that will ultimately affect us 
at home.
    Many countries in this Hemisphere face a vicious cycle of 
debt, environment degradation, and poverty. But we are also 
directly affected by this cycle. The problems we face as a 
result of the world's burgeoning population cannot be easily or 
quickly solved.
    The demand for population services is always growing. In 
the next decade the number of adolescents reaching child 
bearing age will be the largest this plant has ever seen. This 
is why it is critical that International Population Programs be 
funded at levels consistent with the Cairo Agreement of 1994.
    In Cairo, the world community endorsed a plan to give 
universal access to reproductive health care, including 
voluntary family planning and the key elements in maternal and 
pre-natal care by the year 2020. While the financial 
commitments are substantial, it is important to remember that 
roughly 90 percent of the funds for these programs are spent in 
the U.S. on goods and services.
    Furthermore, developing countries are committed to provide 
two-thirds of the necessary funds. Thanks in part to past U.S. 
support for International Family Planning, the global 
population is approximately 500 million less than it would have 
been without such support. By providing services, families want 
and request, Kenya, for example, has had a 20-percent decline 
in family size in just four years, reducing estimates of total 
population size by 60 million.
    Over the last 30 years the percentage of couples in 
developing countries using family planning has increased from 
10 percent to 50 percent. The overall effect of these successes 
has been to reduce human suffering and the pressure of human 
development and wildlife habitat.
    National Audubon wants to continue to build on these 
successes. Opponents of family planning have, however, 
endangered International Population Programs in efforts to 
protect the global environment. In the past two fiscal years 
population funding has been cut 35 percent with additional 
metering restrictions further degrading the effectiveness of 
the International Family Planning Programs.
    The consequences of these unnecessary restrictions include 
increased cost, reduced availability of programs, and program 
inefficiency. The U.S. is undermining its role as a world 
leader and is increasing possible threats to wildlife habitat. 
The National Audubon Society urges the Members of the 
subcommittee to make an effort to prevent a repeat of the past 
two years.
    We encourage you to recognize the long-term benefits of 
U.S. International Population Assistance Programs and support 
full funding of this critical component of U.S. foreign policy. 
The U.S. cannot afford to ignore the growth of the world's 
population. It is in our direct interest to ensure world 
stability through a reduction in world population growth and 
encouragement of sustainable development.
    In order to protect dwindling wildlife habitat and species, 
as well as basic resources such as water and air of the land, 
we must ensure the continued success of these vital 
international population programs. Thank you.
    [The statement of Mr. Beard follows:]

[Pages 590 - 596--The official Committee record contains additional material here.]


    Mr. Callahan.  Thank you very much. You can tell Mr. Beard 
that you did a better job than he did last year.
    Ms. Pelosi.  We didn't miss him at all.
    Mr. Callahan.  Thank you very much.
    Ms. Pelosi.  We did. Please give Mr. Beard--he is such a 
leader on all of these issues. Thank you.
    Mr. Callahan.  Kathy Salvasgio.

                              ----------                              

                                          Thursday, April 24, 1997.

              FAITH ACTION FOR PEOPLE CENTERED DEVELOPMENT

                                WITNESS

KATHY SALVASGIO

    Ms. Salvasgio.  Thank you, Mr. Chairman and Ms. Pelosi.
    I am Kathy Salvasgio and international policy and also--
Bread for the World. I'm standing in for the moment for David 
Beckmann who is the President of Bread for the World, and 
unfortunately was not able to stay given the delay.
    I am here today, however, representing Faith Action for 
People Centered Development. It's an informal working group of 
more than 20 Christian denominations of faith based 
organizations. Our coalition has submitted a fairly lengthy 
statement for the record.
    Faith Action is motivated mainly by moral principle. We do 
believe that moral principles should guide U.S. policy 
decisions on foreign aid. Namely, that all people are created 
by God and equal in worth and dignity, and that we are called 
to demonstrate a special concern for poor people. And that 
people are intended to live in the community according to norms 
of justice and love.
    And based on these moral principles we offer a series of 
recommendations on the fiscal year 1998 foreign aid funding and 
policies. First, we want to urge you to approve the 
Administration's request level of $13.4 billion for the entire 
bill simply because we are really keenly aware that in the past 
lower overall levels of foreign aid have invariably resulted in 
lower levels of development assistance. To the extent that the 
committee and Congress is really prepared to restore some of 
the funding that has been cut in recent years, we really urge 
you to get the highest priority to those programs that have 
suffered the deepest cuts two years ago.
    Those are programs that were specifically aimed at helping 
low income developing countries and poor people within them. I 
think it's important to note that only $3.2 billion of the $9.2 
billion in bilateral assistance request for this year is 
designated for low income countries. That's less than one 
third.
    Of that amount, $2.1 billion is for each to loan leaving $1 
billion for 40 other poor countries. Israel alone receives 
three times the amount that is allocated to 40 poor countries. 
Therefore, we really recommend that you reallocate bilateral 
assistance away from high income countries in favor of low 
income countries in Africa, Latin America, and Asia.
    Specifically, we do ask you to restore the Development Fund 
for Africa as a separate line item and increase the funding 
level to $781 million which was the fiscal year 1995 funding 
level. We also urge you to approve the President's request of 
$1.035 billion for the International Development Association of 
the World Bank; and $20 million for the Fund for Special 
Operations of the Inter-American Development Bank; and $365 
million for U.N. Voluntary Programs, especially UNDP.
    While we support funding for this series of bilateral and 
multi-lateral programs, we very much recognize the need to 
accelerate reform in a lot of these institutions so that they 
really work more effectively to reduce poverty and to promote 
grassroots participation.
    In particular, we are urging USAID to make clear 
commitments to poverty reduction and food security as it 
undertakes review of its strategic objectives. We're asking 
them also to give a higher priority and provide some resources 
to its new partnership initiative which is intended to foster 
collaboration between governmental actors and non-governmental 
actors.
    With regard to the World Bank we wanted to strengthen its 
efforts to foster popular participation, especially by 
consulting local communities prior to approving loans to their 
governments. In addition to these bilateral and multi-lateral 
programs, we're giving special attention to three urgent needs 
among poor people and low income countries.
    That is debt relief, food security, and the elimination of 
child--and I'll just speak very briefly to each one of these. 
Many of the economies of the world's poorest countries are 
really being strangled by unpayable debt, sapping resources 
away from very needed investments in things such as schools and 
health clinics and roads and other--essential for human 
development.
    The new initiative approved by the World Bank and of the 
IMF last September is an important first step toward genuine 
debt relief. For the U.S. to support this initiative it's 
really important to fully fund the Administration's request of 
$22 million for bilateral debt relief for poor countries.
    We do ask you to encourage the Treasury Department to use 
its leadership within the World Bank and the IMF to apply this 
agreement, this initiative so it's really providing the maximum 
amount of debt relief within the shortest period of time for 
the largest number of countries.
    On a personal note, I just returned from Uganda where a 
country that is suffering under an enormous debt burden, most 
of it owed to the IMF and World Bank. It is a country that has 
been faithfully not only repaying its debts, but it has also 
been faithfully implementing reforms, economic reforms that the 
IMF and World Bank have suggested.
    Nevertheless, huge amounts of its resources are not going 
toward poverty reduction which it wants to spend, for instance. 
It has started a new primary education initiative providing 
primary education to all children free up to grade six. And it 
was intending to use the resources from debt relief to be able 
to finance that.
    Well, the initiative has started. It hasn't gotten its debt 
relief. I saw in many rural areas schools where there were 100 
children per class, 100 to 150 children per class with barely a 
notebook, a pencil, much less a trained teacher. They 
desperately need the resources that they are counting on from 
debt relief to expand their poverty reduction programs. Also, 
many of our groups were actively involved in last year's World 
Food Summit which has refocused attention on the need to 
achieve global food security for the more than 800 million 
people who are chronically undernourished.
    Therefore, we're really alarmed by this steep decline in 
funding for agricultural development. We'd like to lift up two 
programs that we think should receive attention by your 
committee. One is the African Food Security Initiative; a 
modest $30 million program that AID has started. We'd like 
support for that, as well as the International Fund for 
Agricultural Development which has a long-standing proven 
record of really being able to reach poor farmers.
    Yet, there has been a scandalous withdrawal of our funding 
support for that program. We're urging $17.5 million in funding 
for them. Finally, we are very concerned about the project of 
child labor in developing countries. The employment of children 
at low wages deprive them of opportunities for education. It 
sometimes harms their health and takes away jobs desperately 
needed by adults.
    Because this subcommittee has demonstrated some very 
special interest for the survival of young children, we urge 
you to extend your interest to child workers by raising this 
issue with the Administration and also maybe perhaps by 
pressing USAID to focus some of their basic education in 
countries where child labor is prevalent. Finally, just----
    Mr. Callahan. Let me just tell you, I'm going to have to 
cut this off. I've read your report.
    [The statement of Ms. Salvasgio follows:]

[Pages 600 - 611--The official Committee record contains additional material here.]


    Ms. Salvasgio. Okay.
    Mr. Callahan. I have to tell you that some of them we agree 
with and some of them we disagree with.
    Ms. Salvasgio. Okay.
    Mr. Callahan. I know you are requesting in a sense that we 
reform our entire bill. But I think most of your problems lie 
with the Administrative Branch of government because they are 
the ones making some of these decisions.
    And the House, I know you're indicating that we cut aid to 
Israel and Egypt, but we don't earmark that in our bill. They 
do that in the Senate. You suggest in your written statement we 
ought to abolish the EX/EM Bank and OPIC.
    While that sounds good and while certainly the monies that 
we are giving to them could provide some needy services in 
another way, regardless of what GAO says and what some of the 
other activists in this country like Ralph Nader say, they do a 
lot of good things. A part of that is creating jobs here. In 
any event, we appreciate very much your testimony.
    Ms. Salvasgio. Just to speak to your last point, Mr. 
Callahan; we are not in any way suggesting that the Export 
Promotion Programs aren't doing a good job. We are saying that 
given extremely scarce budgetary resources, we believe they 
should receive lower priority. We have not called for their 
abolition either.
    Mr. Callahan. Well, I mean, for their serious reduction 
then. But anyway.
    Ms. Salvasgio. All right. Thank you very much.
    Ms. Pelosi. Mr. Chairman. I, too, want to thank you for 
your testimony. I certainly agree with you that our decisions 
should be value based and that the recognition here that the 
restructuring that the IMF required placed a heavy toll on the 
force. We've got to have alleviation of poverty as a 
consideration in the agencies that spend the monies that we 
appropriate here. I thank you for your testimony.
    Ms. Salvasgio. Thank you very much.
    Mr. Callahan. Dr. Carmen Valenzuela.

                              ----------                              

                                          Thursday, April 24, 1997.

                     CENTER FOR VICTIMS OF TORTURE

                                WITNESS

CARMEN VALENZUELA

    Ms. Valenzuela. Thank you, Mr. Chairman for this 
opportunity to appear before you today.
    On February 10, 1990, I was kidnapped right in front of my 
softball team by members of the intelligence section of the 
Guatemalan army who wanted information from my activities and 
contacts with the current government opposition. They detained 
me for eight days in a former military academy then named La 
Escuela Politecnica, located just a few blocks away from the 
American Embassy on La Reforma Avenue in the heart of Guatemala 
City.
    Army officials tortured me, brutally beating me and slowy 
puncturing my legs with wires. I still have scars and the 
remains of hypotrophy in the muscles of my thighs because of 
the specially designed to torture ``stick beating'' to inflict 
pain and avoid languishing.
    During my ordeal, they kept my hands cuffed and my head 
hooded all the time. They also applied to me the technique 
called ``the hood,'' which consisted in tightening a plastic 
bag around my neck to force me to talk. When I felt I was going 
to suffocate, I had to stamp my feet so I would alert them that 
I could faint.
    While beating me, they would also put a towel inside my 
mouth so my screaming would not call attention from outside. 
They also might have broken one of my ribs either with their 
fists or their feet (I am not sure since I was hooded with 
newspapers and masking tape while they battered me.) I still 
recall very distressfully as if it happened just yesterday that 
every minute or hour I would remain alive, I kept thinking in 
their welcoming remarks as they started to beat me ``We are not 
going to kill you, but you are going to scream for us to kill 
you.''
    They did not feed me until I started to tell them something 
``good'' and kept me sleeping in the covered back of a truck in 
which they took me to several places throughout the city, 
guarded all the time by three or four armed men, with others 
following us in government protected vehicles in order to show 
me places where my friends may be hidden so I could denounce 
them.
    I was daily interrogated for hours. They yelled at me and 
threatened my family since they had the entire information to 
hurt them. They forced me to take drugs to relieve my injuries 
after they had beaten me. They humiliated me with insults and 
other offenses, soaked me with cold water and put me to sleep 
on the floor of a dirty bathroom for a whole night.
    Finally, they forced me to appear in a video intended to 
record ``the future history'' in which I denounced myself and 
stated all kinds of horrible things which I done to harm the 
``security of the state.'' I was released only thanks to a 
national and international campaign that pressured the 
government.
    However, my release was conditional on my agreeing to give 
an official story to the media and police about my kidnapping. 
I was told to state that I had been kidnapped by criminals 
seeking a ransom. They said that unless I agreed to tell the 
``official story'' my family which is still in Guatemala would 
suffer the consequences.
    So, every time I speak out publicly with the real story 
behind my disappearance, I do it with hesitation about possible 
reprisals of what the Guatemalan Government may do to my family 
back home. During my detention, my captors explained the 
``need'' of torturing in Guatemala.
    One of them said to me, ``Do you believe, Doctor, that the 
President Cerezo himself doesn't have a security force that 
does all these things in order to maintain stability? What we 
do might be construed as illegal, but we do it precisely in 
order to control those who are outside the law.''
    I wonder what would be of this country if you as 
legislators approved torture to ``control'' those who are 
opposed to your views. The evidence requires that the 
Guatemalan armed forces should be held accountable for the 
crimes committed against their own people.
    Nevertheless, now that the peace accords have been signed, 
they suggest that from now on, there will be room only for 
reconciliation measures and that Guatemala should forget the 
past and look forward. I just attended a commendable effort 
made by the U.S. Government health authorities to improve the 
mental health workers' understanding of the terrible aftermath 
of the practice of torture.
    I really did not know the magnitude of the problem. It was 
shocking for me to know that there are more than 400,000 
survivors of torture who arrived in this country during the 
last two decades. Most of them have not even been recognized as 
refugees and are not receiving any special kind of treatment 
for the trauma resulting from torture.
    After I arrived in the United States in 1990, I never 
thought about being treated for Post Traumatic Stress Disorder 
or PTSD that I might have suffered for years. I had not even 
recognized the symptoms until I started to hear about PTSD.
    I entered the U.S. at New York City and even if I had 
wanted to be treated, there was no available place I might have 
gone for treatment in 1990. I am a physician. I was a professor 
at the national university of my country and I was accepted to 
two of your most prestigious universities.
    Although I studied public health, I was connected to a good 
network of solidarity groups and human rights organizations. I 
never learned about a single mental health professional who I 
could consult for treatment. During these last four years and 
after talking about this issue before some selected and 
friendly audiences, I have found that speaking out about my 
story has been for me a sort of treatment to overcome a part of 
my presumed PTSD. But after seven years of exile, having 
obtained my refugee status, then my green card and even a U.S. 
citizen child, I still feel so afraid to go back.
    I am very uncertain about staying in the U.S. I have many 
friends and I am very grateful for the opportunities that I 
have had so far. But the system in general has not been so good 
to me. For instance, when my child was born, I was a refugee, a 
single mother, and I was unemployed.
    I had also paid taxes during the previous three years. I 
could not be more eligible for benefits. But it seemed like the 
workers of the Department of Health and Human Services were 
rather blocking the process instead of helping us. How could I 
even think about having treatment as a survivor of torture for 
my mental health status?
    I hope you Ladies and Gentlemen could do something about 
the ones who have looked for and found shelter in your country. 
Think about them as if they were your relatives or friends 
escaping from oppressive regimes which the same United States 
has promoted around the world.
    I think that the United States has a moral obligation to 
all of them. I will suggest to stop military aid to countries 
that practice torture which will be really most effective, but 
on a short time basis it would be cheaper and fairer to treat 
the survivors.
    I would like to refer briefly to some specific points made 
by the Center for Victims of Torture to whom I strongly 
support. They have asked me today to serve as a witness on 
behalf of other survivors who cannot come to Washington or do 
not wish to speak about this.
    The Center for Victims of Torture was established in 
Minneapolis, Minnesota in 1985 and was the first comprehensive 
treatment center in the United States. Over the last 15 years 
there has developed an international movement to provide 
specialized treatment to help victims of torture deal with the 
effects of torture.
    The centers serve an important unique humanitarian and a 
strategic focus. They provide treatment necessary for tortured 
people to recover their lives and resume productive work in 
their communities. They serve as a beacon of hope for restoring 
the democratic leadership that oppressive governments have 
extorted from the people.
    In 1996 the United Nations Voluntary Fund for Victims of 
Torture provided grants to 96 projects in 54 countries in the 
amount of $2,435,500. For the last several years, the United 
States has contributed annually to the fund in the amount of 
$1.5 million. The House Committee on International Operations 
and Human Rights adopted the Department of State authorization 
bill recently and authorized $3 million as the U.S. 
contribution to the fund for both fiscal years 1998 and 1999.
    The Center for Victims of Torture request that the report 
on the Committee on Appropriations recommend that $3 million be 
appropriated to the United Nations Voluntary Fund for Victims 
of Torture for fiscal year 1998.
    We are grateful that for several years this subcommittee 
has recommended to AID that it support treatment centers. 
However, AID's response has been disappointing. While we 
believe the committee should continue to make such a general 
recommendation in its report, we also ask that the Committee 
urge AID consider assistance to a specific treatment center in 
Romania for the reasons stated in my written statement.
    I appreciate having the opportunity to testify before you 
today and would be grateful for your consideration of the 
Center's recommendations. I wish I would have the fortune to be 
treated at the Center and now I am very honored by them in 
allowing me to speak on their behalf. Thank you very much.
    [The statement of Ms. Valenzuela follows:]

[Pages 616 - 624--The official Committee record contains additional material here.]


    Mr. Callahan. We thank you for speaking on their behalf. It 
was a very moving testimony. We are sorry to hear of your 
problems. I wish we could change the world with a simple 
appropriation, but we can't. Sometimes money doesn't help, but 
then again sometimes it does.
    Ms. Valenzuela. Thank you.
    Mr. Callahan. Thank you very much.
    Ms. Pelosi. Thank you very much for your testimony.
    Mr. Callahan. Mr. Fornos. Thank you for your perseverance.

                              ----------                              

                                          Thursday, April 24, 1997.

                        THE POPULATION INSTITUTE

                                WITNESS

WERNER FORNOS, PRESIDENT

    Mr. Fornos. Thank you for your extraordinary effort today 
and for your devotion and diligence in carrying out your 
duties.
    This is my 25th appearance before the committee. Testimony 
was submitted. I had hoped to bring you some of your own 
constituents, but when we were testifying at 11:15 a.m., they 
were here but they had non-changeable tickets back to Mobile. 
You know Delta doesn't go out very well getting people back to 
Mobile. So, they had to leave on that 1:00 p.m. flight.
    Mr. Callahan. Any time you have someone here from Mobile, 
you tell them to get some--airline or you send----
    Mr. Fornos. All right; even one of the people from Reviere 
du Chien Road.
    Mr. Callahan. That's one of my neighbors.
    Mr. Fornos. That's right.
    Mr. Callahan. We're going to have to change it, but it's 
Reviere du Chien Road. We're going to change it to--which is 
French for River of the Dog.
    Mr. Fornos. Great. Mr. Chairman, because it is so difficult 
to educate people about the population problem, I have compared 
Alabama to a developing country to show that we live in a 
demographically divided world. I found when I looked at the 
geographical areas around the world that Alabama and Bangladesh 
are about equal in square miles. But in Alabama, we've got only 
4,253,000 people according to the latest Census. In Bangladesh, 
we have 128 million. If the population of Dacca were moved to 
Mobile, Mobile with its 118 square miles would have a 
population of 5,722,000. But the level of funding has now this 
year dropped below 1983 levels for international population 
assistance.
    We've got to stop this vicious assault upon the 
International Population Program. Since I testified last year 
before this committee, the world has grown by another 90 
million people. We're on a course to add another billion. And 
even though growth rates are coming down very slowly, we're 
still looking at a generation of 3 billion young people 
entering their reproductive years in this coming generation.
    So, how well they are able to carry out the awesome 
responsibility of parenting, delaying becoming parents until 
they themselves are mature enough, having only the number of 
children they can love and take care of, and making sure they 
space enough time in between pregnancies to protect the life of 
the mother and the child will mean the difference between us 
having a better life in the 21st Century for all of the world's 
people, or an environmental Armageddon of deforestation, top 
soil erosion, desert expansion, global climate change.
    Yes, it will affect Mobile. If we have in the Gulf of 
Mexico, a three degree increase in Celsius, it will mean a 
nine-foot rise in sea levels in the Gulf; tremendous 
implications for future generations, our kids and our 
grandchildren.
    We need to restore International Population Programs to 
what they are: humanitarian, rational, and voluntary programs. 
We've got to divide the abortion issue from this situation. I 
know you tried valiantly last year to come up with a 
compromise. I brought you a new attempt at a compromise today.
    Maybe we can find--I know Congressman Livingston wants to 
find--a solution so we don't have another divisive battle on 
the Floor. Maybe this can be a small step torward rational 
solution that meaningfully puts family planning programs on the 
table and at the same time separates the abortion issue which 
took up 58 roll call votes in the last Congress; more than we 
did on any of the appropriations bills and budget bills.
    There is a time when we've got to come up with meaningful 
solutions. The dangers inherent when the world's population 
outgrows its environmental resources demand a new commitment to 
reshaping our future. And this commitment includes a special 
concern for women around the world.
    Certainly, that's what I think this language does. 
Hopefully, we can find at least 20 people on the other side so 
that we can come up with 236 votes for International Population 
Programs; 220 isn't enough. It's too marginal.
    But we've now increased the 220 to 228 by having picked off 
eight from the other side from the last vote of February 13th 
with new commitments to supporting this issue. Today, I briefed 
three Members head on, a half an hour, on population, 
environment, and resource needs. And we've got great 
commitments from individuals who voted on the other side the 
last time.
    So, hopefully this will not be another of divisive vote. 
You said you want to pass the Foreign Aid Appropriations Bill 
in ten minutes, we've got to solve this before we'll ever do 
that.
    Mr. Callahan. All right.
    Mr. Fornos. So, slowing down population growth is a 
requirement the whole world has to address because we have no 
acceptable humanitarian alternatives. Thank you for your 
patience and for the length of time you have devoted to this 
today.
    [The statement of Mr. Fornos follows:]

[Pages 627 - 638--The official Committee record contains additional material here.]


    Mr. Callahan. You know, I agree. There is not--I don't have 
a whole heck of a lot of disagreement with population control. 
I have a serious disagreement with abortion as a means of 
population control.
    Mr. Fornos. And abortion is not a method of family 
planning.
    Mr. Callahan. It's not a method of family planning for some 
people. But then for some people it is.
    Mr. Fornos. Well, that language would cut those people off 
from funding if they promote abortion as a method of family 
planning.
    Mr. Callahan. Well, I'd just as soon not even address it in 
my bill.
    Mr. Fornos. Well, you may not have to if the authorizing 
bill goes forward. I talked with Congressman Gilman just before 
we came in and he has the same language because he already has 
two Smith Amendments.
    Mr. Callahan. It's not in our jurisdiction anyway. It falls 
in our lap. We don't like it. We wish it weren't here. We do 
the best we can with the votes that we have.
    Mr. Fornos. Well, Senator Helms wants to get an authorizing 
bill this year. So, maybe he will come in on side and make it 
happen.
    Mr. Callahan. Nothing would please me more because it would 
cut our work probably down by 25 percent.
    Mr. Fornos. Thank you very much.
    Mr. Callahan. Thank you.
    Ms. Pelosi. I thank you, Mr. Fornos for your testimony. I, 
too want to thank Mr. Fornos for his testimony, for his 
leadership, for his help on the vote in February. I hope that 
that will contribute to some good ground work for having the 
bill not be as contentious this year and hopefully the 
authorization bill will contribute to that as well. That is as 
an important an issue as we have to deal with. I thank you for 
your persistence and your leadership.
    Mr. Callahan. This might be a little historical interest 
tid-bit that as a former Member of the Family Planning Group in 
Mobile, I was thrown off the board when my sixth child was born 
the night of the third meeting in a row that I missed and they 
threw me off the Board.
    Mr. Fornos. I don't think it was because of your sexuality. 
I think it was just the rules.
    Mr. Callahan. I'm not making a serious contribution nor do 
I regret it----
    Ms. Pelosi. Was it because you missed three meetings in a 
row or because you had the sixth child? I have five and they 
are suspicious of me.
    Mr. Fornos. I'm reminded of the day when Congressman Obey 
stepped out for lunch. But when he came back I was still 
waiting to testify and it took him an hour. I said to him, 
``Congressman Obey, Mr. Chairman, during your absence 114,400 
children were born. He looked at everybody and he said, I hope 
you're not blaming me for that.''
    Mr. Callahan. Thank you, Mr. Fornos.
    Mr. Fornos. Thank you.
    Ms. Pelosi. Thank you very much.
    Mr. Callahan. We are adjourned.
    [The following statements were received and submitted for 
inclusion in the record:]

[Pages 641 - 801--The official Committee record contains additional material here.]








                           W I T N E S S E S

                              ----------                              
                                                                   Page
Beard, D. P......................................................   590
Bernal, Dr. R. L.................................................   682
Blake, Ambassador R. O...........................................   744
Brohel, D. T.....................................................    96
Burrill, George..................................................   218
Bye, Dr. R. E., Jr...............................................   737
Chiapetta, Sidonie...............................................   713
Cody, G. T.......................................................   339
Costello, J. H...................................................   676
Dorries, Bruce...................................................   725
Farr, Hon. Sam...................................................     1
Fornos, Werner...................................................   625
Francis, Scott...................................................   729
Gardiner, Hobart.................................................   322
George, Father Bill..............................................   656
Giulietti, Father Julio..........................................   656
Guerrant, R. L...................................................   282
Hall, Hon. Tony..................................................     1
Hartke, Jan......................................................   572
Haunreiter, Erik.................................................   713
Hehir, Rev. J. B.................................................    46
Hekimian, Chris..................................................   533
Hellman, R. A..................................................474, 797
Henkel, James....................................................   728
Hertford, Reed...................................................   648
Holdread, A. P...................................................   724
Jemal, T. A......................................................   507
Kissling, Frances................................................   668
Kohr, H. A.......................................................   442
Low, Lucinda.....................................................   252
Manatos, A. E....................................................   202
Manoff, R. K.....................................................   694
Miller, Tammy....................................................   655
Morgan, H. V., Jr................................................   702
Nassif, Daniel...................................................   339
Pallone, Hon. Frank, Jr..........................................    36
Perrine, John....................................................   563
Petri, Hon. Thomas...............................................     1
Plumb, G. E......................................................   667
Price, Edwin.....................................................   723
Rankin, Harriet..................................................   727
Rossides, E. T...................................................   182
Salvasgio, Kathy.................................................   597
Schlangen, Rhonda................................................   587
Schneider, Claudine..............................................    20
Sever, John......................................................   231
Shays, Hon. Chris................................................   322
Sita, Princess Ying..............................................   707
Stovall, J. G....................................................   671
Thompson, S. G...................................................   726
Tovell, Christopher..............................................   730
Valenzuela, Carmen...............................................   612
Vanderslice, Lane................................................   641
Visclosky, Hon. Pete.............................................    93
Walsh, Hon. Jim..................................................    30
Waters, Hon. Maxine..............................................   226
Watson, A. F.....................................................   545
Woolery, Chuck...................................................   268
Yeager, Henry....................................................   297
Zoghby, G. M.....................................................    78
Zvaners, M. J....................................................   498

                                <all>
</pre></body></html>
